<html>
<title> - U.S. HUMAN EXPLORATION GOALS AND COMMERCIAL SPACE COMPETITIVENESS</title>
<body><pre>[Senate Hearing 114-114]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-114

                   U.S. HUMAN EXPLORATION GOALS AND 
                    COMMERCIAL SPACE COMPETITIVENESS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
97-531 PDF                     WASHINGTON : 2015                          

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  
    
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

        SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS \1\

TED CRUZ, Texas, Chairman            GARY PETERS, Michigan, Ranking
MARCO RUBIO, Florida                 EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
CORY GARDNER, Colorado               BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana


  

    \1\ On March 3, 2015 the Committee finalized Member assignments for 
its subcommittees. The list below reflects March 3, 2015 assignments. 
When this hearing was held, on February 24, 2015, formal assignments 
had not yet been made.
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2015................................     1
Statement of Senator Cruz........................................     1
Statement of Senator Nelson......................................     2
    Prepared statement...........................................     3
Statement of Senator Udall.......................................    20
    Prepared statement...........................................    21
Statement of Senator Gardner.....................................    23

                               Witnesses

Colonel Walt Cunningham (USMC, Ret.), Former NASA Astronaut and 
  Apollo 7 Pilot.................................................     4
    Prepared statement...........................................     6
Colonel Buzz Aldrin (USAF, Ret.), Former NASA Astronaut and 
  Apollo 11 Pilot................................................     9
    Prepared statement...........................................    10
Michael J. Massimino, Ph.D., Professor, Department of Mechanical 
  Engineering, Columbia University, and Former NASA Astronaut....    13
    Prepared statement...........................................    15
John Elbon, Vice President and General Manager, Boeing Space 
  Exploration....................................................    31
    Prepared statement...........................................    33
Dr. Scott Pace, Director, Space Policy Institute, Elliott School 
  of International Affairs, George Washington University.........    36
    Prepared statement...........................................    37
Eric W. Stallmer, President, Commercial Spaceflight Federation...    43
    Prepared statement...........................................    45

                                Appendix

Response to written questions submitted by Hon. Tom Udall to:
    Michael J. Massimino, Ph.D...................................    59
Response to written questions submitted to John Elbon by:
    Hon. Roy Blunt...............................................    59
    Hon. Bill Nelson.............................................    60
    Hon. Tom Udall...............................................    61
Response to written questions submitted by Hon. Bill Nelson to:
    Dr. Scott Pace...............................................    63
Response to written questions submitted to Eric W. Stallmer by:
    Hon. Bill Nelson.............................................    64
    Hon. Tom Udall...............................................    66

 
   U.S. HUMAN EXPLORATION GOALS AND COMMERCIAL SPACE COMPETITIVENESS

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2015

                               U.S. Senate,
               Subcommittee on Space, Science, and 
                                   Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:03 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
presiding.
    Present: Senators Cruz [presiding], Gardner, Blunt, Udall, 
Markey, Peters, and Nelson.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Good afternoon. I would like to thank each of 
the distinguished witnesses for being here.
    Just over a half-century ago, President John F. Kennedy 
laid down a marker in my hometown of Houston, Texas, and made a 
commitment that, like the great pioneers that came before us, 
we too would set sail on a new sea and send man to the Moon. We 
embarked upon that endeavor as a nation because opening the 
vistas of space promised high costs and hardship and enormous 
reward.
    Today, we find ourselves at a similar crossroad. The year 
2015 is just as critical of a time for our national and 
commercial space programs as was the case a half-century ago. 
Future exploration is certain to present hardships, but it also 
promises high rewards--new resources, frontiers, and economic 
opportunities.
    I am honored to serve as Chairman of this Subcommittee, 
and, as the Chairman, my first priority for the space component 
of the Subcommittee will be working to help refocus NASA's 
energies on its core priorities of exploring space. We need to 
get back to the hard sciences, to manned space exploration, and 
to the innovation that has been integral to the mission of 
NASA.
    We need to ensure that the United States remains a leader 
in space exploration in the 21st century. SLS and Orion will be 
critical to our medium-and long-term ability to explore space, 
whether it is the Moon, Mars, or beyond.
    At the same time, I remain deeply concerned about our 
current inability to reach low-Earth orbit. We are right now 
entirely dependent on the Russian Soyuz system, which is 
unacceptable from the perspective of space interests and also 
from the perspective of our national security. Every seat that 
an American astronaut occupies on the Russian Soyuz costs $70 
million.
    It is imperative that America has the capability to get to 
the International Space Station without the assistance of the 
Russians. America should have the capability to launch a rescue 
mission to the Space Station should that prove necessary and 
without being dependent on the Russians. America should have 
the capacity to launch our critical satellites without needing 
to acquire Russian RD-180 engines. The Commercial Crew Program 
is critical to restoring this capability.
    I am encouraged by the progress both with regard to 
commercial cargo and commercial crew, but we need a continued 
focus on accomplishing the stated objectives with maximum 
efficiency and expedition. It is terrific to see commercial 
companies innovating, and, as Chairman of this Subcommittee, I 
will be an enthusiastic advocate of competition and the 
enabling of the private sector to compete and to innovate.
    In 2013, 81 orbital launches were conducted worldwide, 23 
of which were commercial launches. Revenues from the 23 
commercial orbital launches were estimated to be more than $1.9 
billion. The United States accounted for six of these launches. 
There is more that can be done to create long-term 
predictability for the United States commercial space industry 
so that launch activity will continue to grow.
    There is no limit to human imagination or for the desire 
for exploration. Every one of us, every little boy, every 
little girl, every man and woman, has looked up at the night 
sky and wondered what lies out there. That is the mystery, that 
is the vision behind America's space exploration. America has 
always led the way in space exploration, and we need to reclaim 
that leadership.
    And, with that, I recognize my friend, the Ranking Member 
of the full committee, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And, Mr. Chairman, blossoms are breaking out all over 
Washington because what you just said you and I completely 
agree on.
    As a matter of fact, I offered in the Armed Services 
Committee the amendment to start--and it passed; it is part of 
the defense authorization bill--to start the process. As a 
matter of fact, we authorized $100 million. Senator McCain was 
a cosponsor of that to develop an alternative to the RD-180.
    Indeed, we shouldn't be relying on the Russians to ride. We 
have in the past, in the two and a half years that we were down 
after the loss of the Space Shuttle Columbia earlier in the 
last decade. That was our only way to get up to the Space 
Station. And they were a reliable partner then. But now look 
at--we can't predict what Vladimir Putin is going to do now.
    This was part of the speeches that I was making a decade 
ago as we were trying to get this thing off the ground.
    And I certainly agree with you, and I am just heartened 
that you came out with such a strong statement on the 
Commercial Crew, because this is going to be a way that we can 
get Americans on American rockets quicker back into space since 
the Space Launch System and its spacecraft, Orion, are going 
down further in the decade even though we have already tested 
Orion on its first test flight.
    And so I am just delighted. And, as you know, you and I 
have talked about this till we are both blue in the face. This 
subcommittee has always not been bipartisan, it has been 
nonpartisan. And the subject of the national space program is a 
nonpartisan issue.
    And so I am looking forward to cooperating with you, as we 
tried last year--it didn't happen--on getting the authorization 
act. We need to get the authorization act out of here just for 
the remaining 6 months of this fiscal year, and then let's 
start looking to the additional fiscal years behind.
    And, with that, I will just stop my comments if I may 
insert my comments that I had prepared in the record for 
opening comments. And I will just end by saying thank you.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Good morning and thank you Chairman Cruz. I appreciate you calling 
this hearing to discuss the importance of U.S. human space exploration 
and the role of our growing commercial space industry.
    In 2010, we passed the bi-partisan NASA Authorization Act. This 
called on the agency to explore beyond Earth's orbit with the long-term 
goal of Mars. I'm encouraged to see that NASA has made significant 
progress toward these goals. NASA is developing a heavy lift rocket, 
SLS, and the Orion crew capsule, which was successfully launched in 
December on its first test flight.
    NASA has also been working closely with SpaceX and Boeing to begin 
launching astronauts to the International Space Station beginning in 
2017. This partnership is not only good for the commercial space 
industry but will allow NASA to focus on deep space exploration--
specifically, on the path to Mars.
    To maintain this progress we need to:

  <bullet> continue building toward the shared vision Congress outlined 
        in the 2010 authorization;

  <bullet> provide sustained and predictable funding for the agency 
        over the long term; and

  <bullet> maintain a balanced portfolio between the complementary 
        science, aeronautics, technology, and exploration missions,

  <bullet> and continue support for a robust commercial space industry.

    These are very exciting times for the future of U.S. human 
spaceflight and for the entire nation.
    This committee has always worked in a non-partisan manner and I 
look forward to continuing that tradition in this Congress.
    Thank you all for being here, and I look forward to your testimony.

    Senator Cruz. Well, thank you, Senator Nelson, for the very 
kind comments. I hope those are not used against you in your 
next campaign.
    Senator Nelson. I was going to say the same thing to you. 
Yours is a little more immediate than mine.
    Senator Cruz. And I want to thank each of the three 
distinguished witnesses that are here. This is a wonderful way 
to begin the new Congress and the jurisdiction of this 
subcommittee, by focusing on the overarching goals, that NASA 
should be focusing on our objectives. And I cannot think of a 
more distinguished, a more experienced, a more respected panel 
than the three witnesses who are with us today.
    We have first Colonel Walt Cunningham, former NASA 
Astronaut and Apollo 7 Pilot. We have next Dr. Buzz Aldrin, a 
former NASA Astronaut and Apollo 11 Pilot. And we have Mr. 
Michael Massimino, a former NASA Astronaut and Mission 
Specialist for the Space Shuttle Program.
    And I thank each of the three of you for taking time from 
your busy schedules to join us.
    We will begin with Colonel Cunningham's testimony.

STATEMENT OF COLONEL WALT CUNNINGHAM (USMC, RET.), FORMER NASA 
                  ASTRONAUT AND APOLLO 7 PILOT

    Colonel Cunningham. Thank you, sir.
    I appreciate the opportunity to share my thoughts on where 
I believe our space program has been slipping and some of the 
things I believe NASA must do to maintain America's lead in 
space exploration. While this is my personal opinion, it is 
shared by many of my contemporaries. Some additional points are 
in my written testimony that I hope you all will read.
    Humans have always been driven to explore the unknown and 
to open new frontiers. Opening a new frontier demands three 
things: resources, technology, and, more important, the will to 
do it. In 1961, America was willing to take the risk of going 
to the Moon. When President Kennedy made his commitment to land 
a man on the Moon, not a single American had yet been in orbit.
    The success of the Apollo program was due to the collective 
efforts of 400,000 members of our team--engineers, operators, 
managers, and contractors. With the whole world watching, we 
accepted the challenge, took the risk, and changed the way that 
we all perceived our world.
    We accomplished a landing on the Moon in 8 years. Today, 45 
years later, the next frontier, Mars, seems decades out of 
reach, primarily because we do not have a national commitment.
    Our Apollo program made America preeminent in space and the 
world's most technologically advanced nation. It led us to the 
space shuttle, the greatest flying machine ever built by man; 
the International Space Station, ISS; and the Hubble Space 
Telescope. The spin-offs have infiltrated virtually all areas 
of our industry.
    While NASA's portion of the Federal budget peaked at 4 
percent in 1965, it has been below 1 percent for the past 40 
years. While NASA has accomplished many things and made manned 
spaceflight much more routine, we have not challenged the next 
frontier--the manned exploration of Mars. That will only be 
possible if our government initiates and provides the funding 
for such a program.
    Over the years, NASA has been subjected to more and more 
political pressure, and the agency has grown increasingly 
political inside. This has left employees much less willing to 
express their opinions freely and the agency less attractive to 
the best and brightest of today's young professionals.
    An example: After trying for years, NASA is still unable to 
reduce the number of space centers that they operate around the 
country in order to lower their overhead costs. Congress and 
local politicians have always won out and saved the one in 
their district.
    A commitment to push back the space frontier with a man 
landing on Mars would drive NASA's budget, while the schedule 
would be controlled by the rate at which Congress funds it. 
This could also empower the agency to correct many of the 
deficiencies that have evolved over time.
    A Mars exploration vehicle will have to be assembled in 
Earth orbit. Moving out of Earth orbit would require heavy-lift 
rockets, like our Space Launch System and the Orion crew 
capsule. A reusable launch vehicle similar to our space shuttle 
may be necessary in order to assemble an interplanetary 
spacecraft. While these are all costly, they will be essential 
in order to move humans out of Earth orbit.
    Any Mars exploration program will have international 
partners. In that partnership, NASA should take a strong 
leadership role, as they did back in the Apollo program, and 
not just be one more partner in an international effort. 
Hopefully, it would encompass less politics and be better 
structured than the ISS partnership.
    ISS that we gave birth to in the 1970s is probably the most 
impressive piece of space hardware ever placed in orbit. While 
leading the international partnership, we transferred $3 
billion to $5 billion to Russia to help resurrect their space 
industry, increased our cost of the program by $15 billion to 
$20 billion, and we are now totally dependent on Russia to get 
American crewmen to and from the ISS.
    The success of our space program has always been dependent 
on private industry, and they delivered. As NASA grew less 
entrepreneurial, less efficient, and more bureaucratic, they 
inspired new so-called commercial space companies. While most 
of these companies have been subsidized by government funding, 
NASA has less control over their development, operations, and, 
consequently, their results as they did in the past.
    Some people suggest that private space companies should 
collaborate with NASA for space missions beyond Earth orbit, 
which means sharing the cost. While commercial companies will 
always contract with NASA for the hardware and the technology, 
the government will always be expected to pay the cost of 
exploration, funded by tax dollars of course.
    Space exploration is far too expensive for commercial 
companies that are driven by profit and return on investment. 
Space exploration does not satisfy either of these criteria. 
Government agencies are not profit-driven. Government 
underwriting permits our agencies to guide, develop, and manage 
the technology.
    Our country's return on investment is the private industry 
commercialization of the technology that is developed. Since 
commercial companies move much faster than government agencies, 
production by private industry will shorten the timeline for a 
launch to Mars.
    In the absence of a Mars exploration program and limited 
funding, NASA has initiated the Asteroid Redirect Mission, 
possibly to the Lagrange points. Today, they justify it as a 
first step in the mission to Mars. Anything it might do that 
could help a Mars mission could be more officially done with 
some other projects. While we work on overcoming the problem of 
radiation exposure and trying to speed up travel, we should 
return to the Moon to develop a crew facility for semi-
permanent living.
    Many scientists today are saying, send robots to Mars, 
because humans are too costly and it is too dangerous. NASA 
should continue to exploit both manned and unmanned missions, 
but humans will always be much faster and more efficient 
because we can think and act in real time.
    There are two things I believe we should focus on also: 
eliminating permanently any dependence on other countries for 
launch capability; two, find some way for NASA administrators 
to become less subject to changes in the administration every 4 
years.
    The Apollo program took 8 years, it cost $110 billion--that 
is in today's dollars--and the benefits to our society have 
been priceless. A manned landing on Mars will probably take 
twice as long and cost up to three times as much in today's 
dollars. That is a fraction of what our annual Federal budget 
deficits have been running, and deficits do not have a return 
on investment.
    The human desire to explore and settle new frontiers will 
be satisfied, if not by Americans, then by others. Humans 
somewhere will certainly return to the Moon and go on to Mars. 
I believe that we have the resources and the technology, but do 
we have the will to tackle the next frontier, Mars?
    Thank you.
    [The prepared statement of Colonel Cunningham follows:]

   Prepared Statement of Walter Cunningham, USMC, Ret., Former NASA 
                      Astronaut and Apollo 7 Pilot
    I appreciate the opportunity to share my opinion on where I believe 
our space program has been slipping and some of the things I believe 
NASA must do to maintain America's lead in space exploration. This is 
my personal opinion but it is shared by many of my contemporaries.
    Humans have always been driven to explore the unknown, to discover 
new worlds, to push our boundaries and then reach out for the next new 
world. The technological breakthroughs and scientific discoveries from 
opening new frontiers have benefitted our society for centuries. We 
have the responsibility and the opportunity to explore the next 
frontier.
    In the 15th and 16th centuries the frontier was in the new world 
and England, Spain and Portugal were crossing the seas in search of 
their country's greatness. In 1519, Ferdinand Magellan set sail on one 
of the most famous voyages of exploration in history--the first voyage 
around the world. He set out with five ships and 270 sailors. Three 
years later, only one of the original ships returned with only 18 of 
the original crewmen still alive.
    In the 1960s, we set sail on another ocean; one whose farthest 
shores we can never reach. This new ocean was more pristine than was 
the new world before voyages of Columbus and Magellan. As exploration 
of the new world was inevitable 500 years ago, so too is our 
exploration of space.
    Any project as complex as Apollo requires three things: resources, 
technology, and--most important--the will to do it. In 1961, America 
was willing to take the risk of going to the Moon. It was human risk, 
and technical risk, economic risk and political risk. The Apollo 
Program took initiative and leadership. When President Kennedy made his 
commitment to land a man on the Moon not a single American had yet been 
in orbit!
    With the Apollo Program, America took the historical role of 
opening the next frontier. Astronauts were at the tip of the spear and 
we got the glory but the success of the Apollo program was due to the 
collective efforts of 400,000 members of the team--engineers, 
operators, managers and contractors. With the whole world watching, we 
accepted the challenge, took the risk and changed the way we all 
perceived our world.
    During Apollo, the American space program was unique. Over the past 
40 years, NASA has enjoyed many great accomplishments. But as the 
agency evolved the management culture has changed and it has not always 
been for the better.
    Space is the most hostile environment into which man has ever 
ventured. NASA should work to prevent mishaps but those efforts should 
be balanced against the objectives they are trying to accomplish. 
Spaceflight will always be expensive and manned spaceflight will always 
involve risk and the chance of failure. Exploration is not about 
eliminating risk; it's about managing risk!
    Motivated by the Cold War and a national commitment, we 
accomplished a landing on the Moon in eight years. Today, after 50 
years of experience and technology development, a manned mission to the 
next frontier--Mars, seems decades out of reach, primarily because we 
do not have a national commitment.
    Our Apollo Program made America pre-eminent in space and the 
world's most technologically advanced nation. It led to such things as 
the Space Shuttle--the greatest flying machine ever built by man, the 
International Space Station (ISS) and the Hubble space telescope. The 
technology that made this possible was funded by the American people 
and it has infiltrated virtually all areas of industry.
    NASA's portion of the Federal budget peaked at 4 percent in 1965. 
For the past 40 years it has remained below one percent and for the 
last 15 years it has been driving toward 0.4 percent of the Federal 
budget.
    While NASA has accomplished many things and made manned spaceflight 
much more routine, we have not challenged the next frontier--the Manned 
exploration of Mars. Manned exploration is the most expensive space 
venture and, consequently, the most difficult for which to obtain 
political support. Manned exploration of Mars will only be possible if 
our government initiates and funds such a program.
    While our world has been changing and space technology improving, 
NASA management has been aging, layers have been added and politics 
plays an ever growing role. NASA seems less capable and less interested 
in pushing out the space frontier and focusing more on eliminating risk 
and looking for absolute assurance that something can be done before 
committing to do it. This leaves NASA less attractive to the best and 
brightest of today's young professionals.
    Over the years, NASA has grown increasingly political. There was a 
time when personnel at all levels contributed to success by freely 
expressing their completely candid opinions on design, testing, 
operations and management issues. Management today seems less and less 
likely to speak out because of their concerns about the political 
repercussions. NASA needs to find a way to return to the environment 
where people contributed to success by freely expressing what they 
thought about the issue being addressed.
    NASA has also been subjected to politic pressure from outside the 
agency.
    Examples:

        NASA has tried for decades to reduce their overhead by reducing 
        the number of Space Centers they have around the country. 
        Congress and local politicians have always won out and saved 
        the one in their district. NASA is still burdened with the same 
        10 Space Centers and a half dozen other facilities. This 
        reduces the funds available for science and space applications. 
        When our military faced a similar problem with too many bases 
        spread around the country, it was resolved when Congress passed 
        the Base Realignment and Closure Act of 1990 to screen and 
        close facilities.

        NASA should also be focused more on their science obligations 
        and avoid any associated political issues. Goddard Space Center 
        has been involved in global environmental science for many 
        years. For the past 20 years, instead of just sharing the 
        climate science data they collect, they have joined the 
        political argument that humans are the cause of global warming.

        At the United Nations Climate Change Conference in Lima, Peru, 
        last December, virtually all of the data available, the 
        presentations and the handouts in the American Pavilion were 
        material furnished by NASA. NASA personnel were making the 
        presentations and the data shown was selected to make the case 
        that humans were the cause of global warming. The American 
        Pavilion was virtually a NASA pavilion. The space agency 
        compromises its scientific credibility by participating in the 
        politics surrounding one of the great scientific hoaxes in 
        history.

        To get NASA back to the posture where they excelled, we should 
        commit once more to pushing back the space frontier with a 
        manned landing on Mars. Such a mission will become much more 
        feasible when, and if, we overcome the problem of radiation 
        exposure and/or shorten the time of travel.

    Our Mars exploration vehicle will have to be assembled in earth 
orbit. Moving out of earth orbit will require heavy-lift rockets, like 
our Space Launch System, and the Orion deep space crew capsule. 
Assembling an interplanetary spacecraft may require a reusable launch 
vehicle similar to the space shuttle. While these are all expensive, 
they will be essential if we want to move out of earth orbit.
    We could also explore the possibility of moving the ISS from 51.6+ 
down to an orbital inclination where it could be/might be useful in 
constructing an interplanetary spacecraft and/or as a departure point 
for Mars.
    With a national commitment for Mars exploration our space agency's 
budget and activities would be driven by this strategy. The timing, of 
course, would be controlled by the rate at which Congress funds the 
program. If addressed in the way we addressed a manned landing on the 
Moon, it would enable NASA to deal with many of the internal 
deficiencies that have developed over time.
    Any Mars exploration program will have international partners. If 
it is our American program, we should take a strong leadership approach 
in managing that program. With Apollo, the effort was clearly led by 
NASA. In a Mars program we should obviously lead the way and not just 
be one more partner in an international effort to go to Mars. 
Hopefully, it would have less politics and a better structure then the 
international program we formed around the ISS.
    The ISS, that NASA first began to work on in the 1970s, is probably 
the most impressive piece of space hardware ever placed in orbit. It 
has had ``equal'' partners from the beginning, even though more than 70 
percent of the cost has been paid by the U.S.
    In 1993, after NASA had evaluated and rejected what Russia might 
contribute to our ISS program, President Clinton insisted that Russia 
be included as a full partner. ISS was a convenient way for America to 
bail out the nearly bankrupt Russian space program. Our administration 
claimed that we would lift off two years earlier, it would save us $2B 
and it would keep Russian scientists from working on nuclear 
development for other countries.
    Reality: After transferring $3-5B to help resurrect the Russian 
space industry we launched two years late. The cost to us was increased 
by $15-$20 billion, due primarily to changing the orbital inclination 
from 28.5+ to 51.6+ in order to accommodate the Russian launch 
capability. We are now totally dependent on Russia to get an American 
to and from the ISS--a program we gave birth to in the 1970s.
    In the Apollo Program we were totally dependent on private 
industry. And they delivered! As NASA has grown less entrepreneurial, 
less efficient and more bureaucratic over the years, it has inspired 
new, so-called commercial space companies. While most of these new 
companies have been subsidized by Government funding NASA has less 
control over their development, operations and, consequently, the 
outcome.
    Space exploration is far too expensive for private industry without 
government capital. Commercial companies have a different perspective 
on space exploration and operations. Commercial companies are driven by 
profit and return on investment. Pushing back the frontier of space 
does not satisfy the business case for either of these criteria.
    Government space agencies are not profit driven. Our government 
underwrites the exploration of space and government agencies develop 
and manage the technology. Our country's return on investment is the 
technology developed to open that next frontier and the 
commercialization of that technology in private industry.
    Some people suggest that private space companies should collaborate 
with NASA for human missions beyond low Earth orbit. Collaboration 
means sharing the cost. Commercial companies will contract with NASA 
for the hardware and technology but the government will always be 
expected to pay the cost of exploring the next frontier--funded by tax 
dollars, of course.
    Since commercial companies move much faster than government 
agencies, production by private industry will shorten the timeline to 
launch a mission to Mars.
    In the absence of a Mars Exploration Program and limited funding, 
NASA has initiated the Asteroid Redirect Mission (ARM). Today, ARM is 
characterized as a first step in the mission to Mars. This could be 
fascinating for some scientists but anything it might do to support a 
future Mars mission could be more efficiently done with other projects.
    The Japanese landed an unmanned satellite on an asteroid and 
returned with a surface sample 5 years ago. If ARM is funded, it should 
be an unmanned science mission, NOT a manned mission. Limited manned 
exploration funds should not be wasted on such missions.
    There are manned missions we should be planning in preparation for 
a manned landing on Mars. While we work on overcoming the problems of 
radiation exposure and learning how to speed up travel, we should 
return to the Moon where we can perfect a crew facility for semi-
permanent living. It is critical that we learn how to keep crews alive 
on Mars for months or even years. Crews on the Moon are only four days 
away from home as opposed to months and even years on a Mars mission.
    Many scientists today are saying, ``Send robots to Mars because 
humans are too costly and it's too dangerous.''
    NASA should continue to mix manned and unmanned missions in order 
to exploit both. Robots can assess risks to human exploration, 
determine the presence of environmental, chemical, or biological 
problems and help to mitigate the risks. Robots are valuable tools in 
preparing for exploration but they are greatly inferior to humans in 
terms of speed, grasping what has been observed and judging what to do 
next. Humans are much, much faster and more efficient because we can 
think and act in real time.
    The Apollo program cost $110 billion in today's dollars and the 
benefits to our society have been priceless. A manned landing on Mars, 
after 50 years of technical progress and spaceflight experience and 
perfecting a crew facility on the Moon, will probably take twice as 
long and cost 2 to 3 times that amount. That is a fraction of what our 
annual Federal budget deficit has been running and deficits do not have 
a return.
    A century from now, no one will care how carefully and cautiously 
we may have survived the 21st century, but they would certainly 
celebrate our willingness to make a commitment, to accept the risk, to 
expand our universe and to change the way we perceived our world if we 
commit to land a man on Mars.
    We will not move our society ahead by eliminating risk. Exploration 
is not about eliminating risk; it's about managing risk!
    The human desire to explore and settle new frontiers will be 
satisfied--if not by Americans, then by others. Humans, somewhere, will 
certainly go back to the Moon and on to Mars.
    I believe we have the resources and the technology for manned 
exploration of Mars! Do we have the will to tackle the next frontier--
Mars?

    Senator Cruz. Thank you, Colonel Cunningham.
    Dr. Aldrin?

  STATEMENT OF COLONEL BUZZ ALDRIN (USAF, RET.), FORMER NASA 
                 ASTRONAUT AND APOLLO 11 PILOT

    Colonel Aldrin. Senator Cruz, Senator Nelson, Senator 
Markey, Senator Udall, Committee on Space, Science, and 
Competitiveness, I wish to thank the Committee for the 
opportunity to speak with you about the future of American 
human spaceflight enterprise. This is truly an honor, and I 
applaud you for raising this issue so early in this session.
    America must be the world leader in human spaceflight. 
There is no other policy area which so clearly demonstrates 
American innovation and enterprise than human spaceflight. 
American leadership is more than simply getting one step ahead 
of our global competitors. American leadership is inspiring the 
world by consistently doing what no other nation is capable of 
doing. We demonstrated that for a brief time 45 years ago.
    If we wish to retain American leadership in space, I 
believe that early in the next administration the nation must 
commit to developing a permanent presence on Mars. Another 
Apollo-like mission to put flags and footprints on Mars does 
not ensure sustained leadership, and lunar settlements will 
only require a small step for the other nations to catch up.
    I have a multi-decadal plan with compelling vision that 
will establish world leadership for the remaining of the 
century and initial landings on Mars by 2038. It is an 
integrated plan that knits together return to the Moon on a 
commercial and international basis, leveraging asteroid 
rendezvous, and settling Mars on a carefully developed risk-
mitigation architecture.
    It includes the use of a robotic cycler between Mars and 
Earth that will revolutionize the economics and safety aspects 
of human missions to Mars. Much analysis has been done on this 
concept in partnership with the commercial sector, the 
international community, and especially the academic community. 
All this can be done without being a major budget-buster for 
NASA.
    The architectures I have developed are driven by several 
technical principles, which I believe are essential to 
achieving this goal. These principles are part of what I call 
my ``Unified Space Vision.''
    One, current programs for commercializing crew and cargo 
transportation to the International Station could expand to 
provide transport of crews with lifeboat rotations to two 
redundant stations on either side of the Moon.
    The U.S. will lead other crews from these stations for 
distant controls of the assembly and checkout of habitational 
structures and their life-support systems. Also, intricate 
rovers will provide ice to rocket fuel resources and other 
resources.
    We also have a reliable, developed and test most of the 
systems needed for Mars. We should participate in lunar 
development but avoid getting our human spaceflight budget 
captured by lunar gravity's expensive consumption of funds. 
Let's establish a lunar infrastructure which barters visits to 
the surface on international landers.
    Number three, reduce the cost of sustaining a presence on 
Mars by deploying outbound cycling spaceships that orbit 
between Earth and Mars without requiring a great deal of 
propulsion. Each successive mission would only have to send 
astronauts, landers, and the minor provisions. The ending 
provisions are reusable on the cycler--radiation protection. 
The vast majority of the mass would remain in the orbit between 
Earth and Mars.
    Number four, focus on people to Mars to stay. Bringing 
everyone home after a relatively brief stay is a cost-driver. I 
envision many of the people who go to Mars to remain and 
establish a permanent settlement. We have developed an inbound 
cycler as a means of bringing people back for certain 
contingencies. But the cost of effectively sending the entire 
launch system to return everyone home on every mission can make 
the entire venture prohibitively expensive.
    I provided most of the detail in my written statement and 
will have a much more complete version of this plan once the 
study of my cycler concept is conducted by an Aldrin-Purdue 
study that will be finished near the end of April.
    In closing, I encourage you to think about the ability of 
free markets in space to reduce the cost and power of American 
ingenuity to solve the most difficult technical challenges. In 
my opinion, there is no more convincing way to demonstrate 
American leadership for the remainder of this century than to 
commit to a permanent presence on Mars.
    I thank you for your time and look forward to the 
Committee's leadership.
    [The prepared statement of Colonel Aldrin follows:]

  Prepared Statement of Colonel Buzz Aldrin (USAF, Ret.), Former NASA 
                     Astronaut and Apollo 11 Pilot
    Senator Cruz, Members of the Senate Subcommittee on Space, Science, 
and Competitiveness, I want to thank the Committee for the opportunity 
to speak with you about the future of the American human spaceflight 
enterprise. This is truly an honor, and I applaud you for raising this 
issue so early in this session.
    Some of you may wonder why an 85 year old former Astronaut is here, 
testifying in Washington DC, rather than playing golf in Florida. Well, 
in the first place, while I do live in Florida, I am a truly horrible 
golfer. I am a much better orbital dynamicist. But more importantly, I 
love my country and I believe the future of the American space program 
is one of the most important issues we face as a nation. We are at an 
important inflection point in our Nation's space program. Over the next 
few years we must choose whether we are to go forward as a nation and 
lead the extension of global civilization to a permanent presence 
beyond Low Earth Orbit, or to allow American leadership in space to 
erode over the next decades.
    America must be the world leader in human spaceflight. There is no 
other policy area which so clearly demonstrates American values of 
innovation and enterprise than human spaceflight. I have dedicated the 
last 50 years of my life to this proposition and I do not intend to 
stop any time soon. I think there is broad agreement in the space 
community and the panelists you are hearing from today on this point.
    There is decidedly less agreement on how we should do this. We do 
not have long to decide, and this Subcommittee will play a critical 
role in setting the agenda for this decision. I hope that my testimony 
today can contribute to this process. I think it will come as no 
surprise to Members of the Subcommittee and my fellow panelists that I 
have my own opinions.
    Allow me to begin with a question: What do we mean when we talk 
about American leadership? American leadership is more than simply 
getting one step ahead of our global competitors. American leadership 
is inspiring the world by consistently doing what no other nation is 
capable of doing. We demonstrated that for a brief time 45 years ago. I 
do not believe we have done it since.
    I believe it begins with a bi-partisan Congressional and 
Administration commitment to sustained leadership. If we wish to retain 
American leadership in space, I believe that early in the next 
administration, the Nation must commit to developing a permanent 
presence on Mars. Another Apollo-like mission to put flags and 
footprints on Mars does not ensure sustained leadership, and restarting 
a failed constellation program will only require one small step for 
China to catch up.
    I have spent much of the time since I landed on the Moon thinking 
and writing about the future of the space program. But we cannot get 
there with conventional thinking. The architectures I have developed 
are driven by several technical principles which I believe are 
essential to achieving this goal. These principles are part of what I 
call my Unified Space Vision.

  (1)  Development of the commercial space transportation sector to 
        provide crew and cargo transportation systems. Current programs 
        for commercializing crew and cargo transportation to the 
        International Space Station could lead to augmenting and 
        expanding that commercial capability to transport mixed crews 
        with lifeboat rotations to control stations in the vicinity of 
        the Moon.

  (2)  The U.S. should lead commercial and support international 
        development of the Moon with extensive telerobotic complex 
        engineering assembly of habitation structures and scientific 
        and commercial rovers in order to provide necessary fuel 
        resources and develop reliable systems for Mars. We should 
        participate in lunar development but avoid getting our human 
        spaceflight budget captured by lunar gravities expensive 
        consumption of funds to create, support, and sustain human 
        landings. Let's establish a lunar infrastructure which can be 
        commercially self-sustaining, relying on bartered visits to the 
        surface on international landers. This makes far more economic 
        sense for scientific and commercial activities.

  (3)  Reduce the cost of sustaining a presence on Mars by deploying 
        cycling spacecraft which perpetually orbits between Earth and 
        Mars only requiring a small trim propulsion. The primary cost 
        of getting to Mars is the fuel required to send a complex base 
        of habitable structures to Mars. Each successive mission would 
        redundantly send astronaut pioneers in Mars landers of 
        increasing capacity. The majority of the mass including radio 
        mitigation would remain in orbit between Earth and Mars.

  (4)  Focus on sending people to Mars to stay. The huge cost driver 
        for Mars missions is the cost of bringing everyone back home 
        after a relatively brief stay. I envision a program of 
        settlement that schedules most of the crews who go to Mars will 
        remain and establish a permanent settlement there. Naturally, 
        we have to develop the Inbound Cycler as a means to bring 
        people home who need to return for whatever reason. But the 
        cost of effectively sending an entire launch system to return 
        everyone home on every mission can make the whole venture 
        prohibitively expensive.

    These are the basic principles. Let me turn briefly to just a few 
notes from my Unified Space Vision on just how we would execute this 
program and establish a permanent presence on Mars before 2040.

  <bullet> We can begin as soon as 2018 with the launch of an 
        inflatable 1st generation exploration module (XM) to a low 
        earth orbit station with Orion or Dragon. Then hopefully one of 
        these spacecraft to be launched with another inflatable XM will 
        be transported to the near libration point, L-1 of the Moon in 
        July 2019 for the Apollo 11 50th Anniversary! The purpose of 
        these flights is to test exploration modules and to provide 
        locations from which to remotely construct international lunar 
        bases. These lunar activities will provide the necessary 
        experience to later remotely construct (from Earth and then 
        from Phobos) a base on Mars. They also provide the basis for 
        extended international and commercial lunar operations, 
        including in situ resource utilization, as well as a capability 
        for future human missions to asteroids. I believe that the 
        development of commercially provided resources from space will 
        be critical to enabling human missions to Mars.

  <bullet> As we begin to develop our capabilities on the Moon, 
        sometime between 2020 and 2030, I envision a one year Orion 
        mission with an inflatable to an in-orbit asteroid that arrives 
        a few days before a complex sampling robotic spacecraft arrives 
        from a slow, fuel saving solar electric propulsion transit of 
        1.5 years. This would give 60 days for a crew including 
        scientists, asteroid mining and the robotic experts. This 
        mission would also enable us to further test human spaceflight 
        systems in deep space.

  <bullet> In 2031 an Orion with a rigid 2nd generation exploration 
        module will join the inflatable at LEO, L-1, and L-2, and will 
        then land on the Moon as a lunar habitat.

  <bullet> Once the lunar bases have been established, beginning in 
        2028 (before first humans are sent to Mars) and through 2034--
        nine unoccupied 3rd generation exploration modules, will be 
        launched to Mars and two XM habitats sent to Phobos.

  <bullet> In 2031 an Orion with a rigid XM will be launched on an 
        ``Inspiration Venus'' one year flyby of Venus mission with a 
        crew of two women. On return to Earth we will perform two 
        aerocapture maneuvers before reentry.

  <bullet> One of defining highlights of the mission architecture is 
        the use of ``cycler'' spacecraft that would travel between 
        Earth and Mars perpetually every synodic period. (A synodic 
        period is the time that the orbits of the Earth and Mars bring 
        the planets closest together--about every twenty six months.) 
        My architectures features two cyclers. The larger capacity 
        outbound cycler (heading from Earth to Mars) and the smaller 
        inbound cycler (traveling back from Mars to Earth) alternately 
        encounters Earth roughly every four and a half years.

  <bullet> The first outbound cycler will be intercepted by three 
        smaller landers with one crew member each. One unmanned lander 
        lands on Mars to demonstrate and checkout Mars landing 
        procedures, and two landers land on Phobos with three crew 
        members. The Phobos crew will remotely connect up to nine 
        surface modules telerobotically, using techniques developed at 
        the Earth-Moon libration facilities. These XM habitats are low 
        thrust transported and landed five years before the 1st 
        outbound cycler reaches Mars. Then the XMs are transported by 
        rovers slowly from dispersed landing locations by long delayed 
        control from Earth to within a few feet of each other at the 
        desired base location.

  <bullet> When the first outbound cycler crew of three is cleared to 
        land, the crew transfers from Phobos to the Mars surface. If 
        the crew is not cleared to land, then they could return to 
        Earth with an inflatable module and a Mars lander and storable 
        propulsion system, all stationed on Phobos or by intercepting 
        the first inbound cycler for its return to Earth.

  <bullet> The second outbound cycler transit to Mars carries three 
        landers with a total of nine crew members. One lander with 
        three crew members replaces the original three crew members on 
        Phobos. The remaining two landers land on Mars with a total of 
        6 crew members establishing the first permanent settlement on 
        Mars.

  <bullet> The Inbound Cycler when not used for crew return can be 
        intercepted to return high value cargo. The lander capacity 
        could be increased to six. Also a second outbound cycler can be 
        introduced to make transits every synodic period instead of 
        every other.

  <bullet> Every four and a half years the population of Mars will 
        continue to grow as recurring outbound cyclers bring additional 
        crews of up to 9 new inhabitants. The list of potential tasks 
        the surface inhabitants of 18 might accomplish is far too long 
        to enumerate in my remaining time, but I would just note that 
        Steven Squires, the Principle Investigator of the Mars 
        Pathfinder mission once said that a single crew could 
        accomplish in one week what took two rovers five years to do.

    Over the coming months you will listen to a great deal of how hard 
and expensive it is to go to Mars just once, let alone stay there. But, 
in closing I encourage you to think about the ability of free markets 
in space to reduce the cost and power of American ingenuity to solve 
the most difficult technical challenges. In my opinion there is no more 
convincing way to demonstrate American leadership for the remainder of 
this century than to use 20 July 2019 to commit to and execute a 
permanent presence on Mars.
    I thank you for your time and look forward to this committee's 
leadership.

    Senator Cruz. Thank you very much, Dr. Aldrin.
    Dr. Massimino?

STATEMENT OF MICHAEL J. MASSIMINO, Ph.D., PROFESSOR, DEPARTMENT 
OF MECHANICAL ENGINEERING, COLUMBIA UNIVERSITY, AND FORMER NASA 
                           ASTRONAUT

    Mr. Massimino. Chairman Cruz, Ranking Members Nelson and 
Udall, and members of the Subcommittee, thank you very much for 
having me here today. I have gotten to do some cool stuff in my 
life, and this is right up there. I really am honored to be 
here. Thank you.
    I want to describe to you a few things I learned as an 
astronaut, some benefits that our space program has provided 
not only for our country but I think for the whole world. And 
there are three of them I want to point out from my personal 
experience. And then I want to tell you a story from one of my 
spaceflights I think kind of wraps it up. So that is what I am 
going to try to do.
    The first benefit I want to tell you about is how the human 
exploration program can benefit science and life on Earth. And 
there are lots of examples we can use, but the one I am most 
familiar with is the one I got to participate in firsthand, and 
that is the Hubble Space Telescope servicing program.
    Both of my shuttle flights were to the Hubble Space 
Telescope. And Hubble has given us some great discoveries, so 
far one Nobel Prize. And I say ``so far'' because I think there 
are a lot more coming. The 25th anniversary of the telescope in 
orbit is coming this spring. And it has given us a window into 
the universe out there. It has found black holes, dark matter, 
dark energy, inspired many people to continue studying the 
universe, and it has shown us the beauty and the wonder of what 
is out there.
    But none of this would have been possible without human 
exploration, without the shuttle program, spacewalking 
astronauts, our ground control team, to be able to react to 
problems and get the job done so that we can provide that great 
instrument to the astronomers and scientists on the ground.
    So, the human exploration program and how it can affect 
science and benefits on Earth.
    The second thing I want to point out is international 
cooperation. When I was a new astronaut in 1996, we were 
starting to work with our international partners to build the 
Space Station. None of the elements had launched yet. And 
sitting there listening to the briefings as a new person not 
knowing really what was going on at the time, I wondered, how 
are we going to make this work? How are we going to work with 
all these countries of Europe, with Japan, with Canada, and 
with the Russians? The U.S. was clearly about to be a leader, 
but how were we going to work with everybody? Different 
cultures, different languages, different ways of doing things, 
different systems of measurement. How are we going to make this 
all work?
    And what I discovered was, when we all had a common goal, 
it didn't matter what country you were from. We wanted to build 
a space station, we wanted to produce this laboratory. And with 
that common goal, we were able to achieve a great thing, which 
is the International Space Station, which is orbiting above us 
right now.
    So international cooperation is a second benefit that I 
discovered of the space program.
    And the third is inspiration for young people. OK, I am 
sitting next to two of my boyhood heroes. I watched this man 
walk on the Moon when I was 6 years old, and it changed my 
life. And it inspired me to become an astronaut. And not too 
many younger than me can remember that, but the ones who are at 
least my age and older that I trained with will point to that 
episode, what Walt and Buzz did as astronauts, that inspired us 
as young people.
    And as an astronaut, I often wondered, what are we doing 
now that is going to get this next generation of American kids 
interested in studying math and science and going to space? And 
it never was really clear to me until lately.
    This past year, I have been teaching up at Columbia. I left 
NASA; I am a Professor at Columbia. And there are some smart 
kids up there, all right? And what I found was they are just as 
excited as me and my colleagues were years ago about the space 
program.
    And it is not just NASA inspiring them, though I have had 
lots of students who have gone to work for NASA, different NASA 
centers, for NASA contractors. But these kids want to change 
the world, and they want to be entrepreneurial. They see the 
space program as a way that they can be entrepreneurial. They 
see these really smart, successful entrepreneurs putting their 
efforts into trying to help the economy through space, and they 
see these people as role models that they want to follow.
    So it is almost, I think, better than when I was a kid, in 
some ways, because it is not just NASA doing big projects; it 
is also this entrepreneurial spirit, where they think they can 
provide economic benefits for the world, as well.
    The story I want to tell you: On my second spaceflight--or 
my first spaceflight, my second spacewalk, I had a chance to 
look around during the spacewalk. And at Hubble we are about 
100 miles higher than where the Station was--nowhere near as 
far as Buzz was away from the planet. But I was able to see the 
curvature of the Earth, and you can see it in its entirety. It 
takes up your whole field of view, but it is really beautiful.
    And my first spacewalk, I kind of stuck to my job. On my 
second spacewalk, I wanted to see what it was like. And there 
are really no words to describe to you how beautiful our planet 
is from up there. So I will just tell you what was going 
through my mind.
    And the first thought was, if you were in heaven, this is 
what you would see. If you could be up there in heaven, you 
could look down on our planet and you would see how beautiful 
it is.
    And I was thinking about it, and it wasn't enough, and I 
thought, no, no, there is more than that, it is more beautiful 
than that; this is what heaven must look like. And, at that 
moment, I felt like I was looking into paradise. That is how 
beautiful our planet is. It is fragile, it is a paradise, and 
we need to take care of it.
    Thank you.
    [The prepared statement of Mr. Massimino follows:]

     Prepared Statement of Michael J. Massimino, Ph.D., Professor, 
 Department of Mechanical Engineering, Columbia University, and Former 
                                 NASA 
                               Astronaut
    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to appear before you to discuss the accomplishments of 
America's space program during my missions and my perspective on our 
Nation's current goals and priorities for the future of human 
spaceflight and space exploration. Being asked to testify for this 
committee is an honor, and I am privileged to share my experiences and 
opinions here with you today.
    I became an astronaut in 1996 and have been fortunate to fly on two 
space shuttle missions: STS-109 in March of 2002 and STS-125 in May of 
2009. Both of my flights were Hubble Space Telescope servicing 
missions. The Hubble servicing missions are vital examples of how human 
spaceflight can contribute to ground-breaking research being done by 
scientists on Earth. Based upon my experience, I believe NASA's joint 
focus on innovation in scientific research and its commitment to human 
spaceflight continues to be a worthwhile goal for our space agency. 
More than that, it is an noble endeavor for us as a nation and as 
custodians of this incredible planet we call home.
    NASA has made great headlines in recent years, most notably by 
landing a rover on Mars, but amazing as that achievement is, putting 
human beings in orbit remains the single most important element of 
successful space exploration. My first mission set a team record of 
spacewalking time on a single space shuttle mission. My second mission 
broke that record. During each spacewalk, having an astronaut on the 
scene was what saved the day. For example, on one of my spacewalks I 
was required to improvise a solution no robot or rover could have 
possibly done: manually pulling off a handle that was held fast onto 
the telescope with a stripped fastener. This was the only way to 
complete the repair of the Space Telescope Imaging Spectrograph, a 
scientific instrument that can, among other capabilities, analyze the 
atmospheres of planets in other solar systems in order to establish the 
possibility of finding other places in the universe capable of 
sustaining life.
    The efforts of the human spaceflight program during my missions, in 
partnership with NASA's on-going ground control operations and 
scientific research programs, have allowed the Hubble Space Telescope 
Program to increase our understanding of the universe. Our servicing 
missions have enabled scientists from around the world to make major 
discoveries, including dark matter, dark energy, black holes, and the 
existence of planets in other solar systems. In addition to these great 
scientific advances, through Hubble's iconic images we have also 
brought the incredible beauty of the universe to the citizens of the 
world.
    NASA has also in recent years accomplished much in terms of 
building and expanding international partnerships, an endeavor that I 
believe should continue with our Nation's leadership. While an 
astronaut from 1996 to 2014, I had the opportunity to contribute to the 
planning, building, and establishment of scientific operations of the 
International Space Station (ISS). Among the many achievements of the 
ISS is bringing different countries together toward a common goal. 
Through the ISS and its work, the United States, Russia, member 
countries of the European Space Agency, Canada, and Japan work together 
as partners on international space projects and research. We live in 
this world together, and working in unison to study it can only help us 
all. The friendships, alliances, and accomplishments of the ISS have 
shown that, given common scientific and exploration goals, countries 
can accomplish great things together.
    As a Professor at Columbia University and the Senior Advisor for 
Space Programs at the Intrepid Sea, Air, and Space Museum in New York 
City, I have seen first hand how the space program can inspire students 
to pursue degrees and work in STEM fields. I have seen how space travel 
inspires them to dream of accomplishing great things in life. Just as I 
was inspired as a small boy by my astronaut heroes in the Apollo 
program, today's students are inspired by NASA's accomplishments. They 
are excited about the opportunities that NASA and commercial space 
companies have waiting for them when they complete their education. I 
have not found any other engineering or science endeavor that can 
inspire students to study in the STEM fields the way that our Nation's 
space program can.
    When I speak to my students about their interest in space-related 
STEM careers, there is a major opportunity open to them now that was 
not readily available when I was a college student over 30 years ago. 
The commercial space opportunities created by partnerships with NASA 
are very appealing to young people. There is still great interest in 
working for NASA and its contractors, but many students see themselves 
as future space entrepreneurs. Thanks to developments from NASA, many 
highly successful entrepreneurs see space as the next frontier for 
economic success in the private sector. I think we will continue to see 
major success stories in commercial space enterprise, and they will 
play a major role in inspiring young people to pursue STEM careers 
while also providing economic benefits for our country.
    Lastly, I would like to share a story about my experiences in space 
and how it affected my perspective on the precious life we have here on 
planet Earth. During a short break in my tasks during my second 
spacewalk on STS-109, I had the opportunity to take in the beauty of 
our Earth from 350 miles up in orbit. From that height you can see the 
curvature of the planet, this bright ball of blue set against an 
endless infinity of black. The first thought that went through my mind 
was, ``This is the view from heaven. This is what our planet must look 
like from heaven.'' But then a second thought immediately replaced that 
one. I said to myself, ``No, it's even more beautiful than that. This 
is what heaven must look like. Maybe this is heaven.'' I felt as if I 
were looking into paradise. That is how beautiful our Earth looks like 
from space. It is a fragile oasis. It keeps us alive, safe from the 
chaos and dangers of space, just above our atmosphere. It is our home, 
and we need to take care of it.
    Thank you again for inviting me to testify here today. I have had 
some great experiences in my life, and being able to provide input to 
your subcommittee is a great honor for me and an opportunity I very 
much appreciate.

    Senator Cruz. Well, thank you very much. And thank you for 
that powerful and evocative imagery, as well.
    I appreciate each of you being here. I appreciate your 
expert judgment.
    I think all of us here agreed that America should lead the 
world in space exploration. We have done so for decades. But I 
would like to start by just asking the panel, how good a job 
are we doing today leading the world in space exploration, and 
how could we do better?
    Colonel Aldrin. We are not really leading the world.
    Senator Cruz. If you would hit your microphone, please.
    Colonel Aldrin. We have a facility up in space, and we have 
invested a lot in it. We have gone to it--put it together, gone 
to it for quite a while.
    And then we changed our spacecraft to move to another 
program. And that program didn't come together because of 
problems with the booster not being powerful enough, so we had 
to go to another booster to take a spacecraft from a company 
that hadn't built a spacecraft before. So it was gaining weight 
and wasn't able to put itself and the lander into lunar orbit, 
so we had to make the lander even bigger.
    And that same rocket for Ares I was being used on Ares V. 
So it just appeared as though we weren't able to get the crew 
up there with the existing rocket, so we continued to develop 
the Orion and sort of shelved the heavy-lift vehicle. And 
without the Orion going somewhere, there is no point in 
continuing the lander. So the program really fell apart.
    [Phone ringing.]
    Colonel Aldrin. Excuse me.
    Senator Cruz. Just tell us if that is a call from the Space 
Station.
    [Laughter.]
    Mr. Massimino. Make sure it is not collect.
    Senator Cruz. You know, Colonel Cunningham, you talked 
about what you perceived to be excessive politicization at NASA 
and the challenges that presents.
    I was curious if you could elaborate on that. And what 
steps could be taken to help NASA focus on what should be its 
core mission?
    Colonel Cunningham. I mentioned a little bit of the 
politics from outside of NASA that increasingly over the years 
has grown increasingly on NASA. And it has had a lot to do with 
controlling what projects they went into and what they did not. 
But it also, in my opinion from the outside looking at it, it 
has infected the agency itself. People inside of NASA are just 
not as willing to speak their mind on things to get them done.
    And some of these programs, money has been spent on them 
and money has been canceled. And we tried a single stage to 
orbit one time, I think a billion dollars on that. So what has 
happened is NASA has changed; in my opinion, they have become a 
much more risk-averse agency over the years.
    For example, we all realize that, until we launch the Webb 
Telescope, the Hubble Space Telescope is the greatest telescope 
we have ever had. Well, we are going to have the use of the 
Hubble Space Telescope for at least another 5 years, it looks 
like, but that wouldn't have happened had we not had the last 
servicing mission that went up there to service it.
    And that mission originally was going to go up a couple of 
years earlier and was canceled by the then-administrator at the 
time because he said it was too risky and they canceled it, 
because they had lost some people on Columbia. So it is a 
mental kind of thing.
    Back on Apollo, we lost crew on Apollo 1. We had people 
that we are just fortunate they are still alive from Apollo 13. 
But you have to have the will to keep going.
    Fortunately, we had another administrator that came on 
after that one, and that administrator took a look at it. It 
was worth the risk, and they went back and had the last 
servicing mission, and we had the greatest telescope in 
history.
    So I don't know how to do this, because our society seems 
to be moving more risk-averse. But we need to have an agency 
that understands, you have to pay your money, take your 
chances, and get out there and push the frontier.
    Senator Cruz. When it comes to priorities in NASA, there 
are a host of exploration priorities that have been discussed, 
whether it is asteroid retrieval, whether it is going to the 
Moon, whether it is going to Mars, whether it is going beyond.
    I would welcome the views of the witnesses on this panel as 
to what the top priorities of NASA should be. Which of those 
projects yield the greatest benefits? What order should they be 
staged in? And to what extent should the focus be on manned 
exploration versus robotic exploration?
    Colonel Cunningham. Well, I can't tell you what degree, and 
I am not an expert and totally up on internal affairs at NASA 
anymore at all. But as I watch it, I find that what NASA has 
been trying to do for, oh, over the last couple of decades, 
they recognize that the public at large is looking for a demand 
for going to the next frontier, which happens to be--it is Mars 
now.
    And so they have also attempted, then, to rationalize 
whatever they were working on as a step along that program. 
Some of the things that they have proposed certainly will have 
scientific value to scientists. Will they help us on that 
program? I doubt it.
    And there are other ways of doing it. For example, you 
don't hear NASA really talking about returning to the Moon now. 
I used to be one of those that was not wild about stopping at 
the Moon in order to get back to Mars. But I began to realize 
that we have to have a facility that is going to keep people 
alive on Mars, and it is going to be a whole lot cheaper and 
easier to develop on the Moon than the other way.
    So I just think we need to get back on a program that is 
going to have the Moon as an intermediate step and only as it 
fits in to go to the next frontier, Mars.
    Mr. Massimino. You know, it is interesting, because Buzz 
was talking about going to Mars, and Walt, Moon and Mars. And I 
left the astronaut office this past July, and we used to talk 
about this for years. You know, where are we going next? You 
know, we are going to go beyond Earth orbit; where are we going 
to go?
    And you can make an argument, I think, for almost any one 
of them. But I think the thing that it has in common is we need 
to go somewhere. And I do think that NASA does have a plan to 
take us away from low Earth orbit. We are working with the 
companies that have been selected to provide--we have already 
got the cargo going to the Station, and now we are going to 
have our astronauts flying to the Station with the commercial 
crew. That is the plan. I think that seems like it is taking 
the right steps and going in the right direction. But the 
ability to leave the planet, to leave our orbit, is common to 
all of those things.
    So I have been thinking about this. What would we pick as 
the destination? Which one do we pick? Because there are so 
many arguments, right? Yes, you are going to get different 
opinions from--you know, people changed their mind in the same 
day when we talked about it, right? ``Oh, that is a good 
point.''
    Maybe we don't exactly know exactly where we should go. But 
we know we want to go somewhere if we can get the lift 
capability, the Orion capsule ready to go. We had the test back 
in December, which was successful. They have a plan for another 
one in a couple years. It has picked up a lot of momentum. A 
lot of my friends--I was working on it when I was in the 
office. A lot of my friends are still working on little 
displays. People are spending money; they are building hardware 
to go.
    Whether that destination is to the asteroid, whether that 
destination is to the Moon or Mars, I think we are probably 
going to get clearer on that as we get a little bit further. 
Maybe we can go all the way to Mars. Maybe the propulsion 
research and technology we develop can get us there quicker; 
maybe not. Maybe we can go to the Moon; maybe not. Maybe we can 
go to the asteroid if that is the closest case, the one that is 
least cost that is going to keep us in the budget, maybe that 
is the right answer.
    But I think they are taking the right steps to get away 
from low Earth orbit. You can make an argument for each one of 
these. Maybe the idea is that we plan on leaving, take those 
steps now, and it might be clear to us where that destination 
is going to be a few years from now.
    Colonel Aldrin. Let me see if I can integrate these things 
together.
    In the 1960s and 1970s, we learned how to go and land on 
the Moon and stay and do some things there. To do that again 50 
years later just does not seem to be something that would be 
attractive to the people involved or the people who are 
supporting this.
    We did not build permanent there. Other countries will 
build landers. While they are doing that, we can build the 
permanent structures. But those permanent structures will be 
the same ones in the same base design that we will do at the 
Moon.
    In order to build those on the Moon, we need a fairly 
redundant facility on the near side and on the far side to 
robotically build those. We can design them with our concepts 
of a base, and we know that Europe has a company that built 
pressure vessels for the Space Station, and they can get 
additional resources from South Korea and India. So they can 
build the modules that will go to the Moon based on our design.
    They need to be standard. And we have uneven terrain and a 
gravity field. So you pick one off of a lander and put it where 
you want it. Now, another lander is over here; you pick this 
one up and bring it over. They won't line up. You have to level 
them. You have a difference in elevation; you have to account 
for that.
    This is too much for the students at Purdue. It will be 
done, but I am going to another resource to help the students 
at Purdue in their study to do that.
    But the habitats that will be based on what we want at Mars 
will then be exercised at the Moon. Before we do that, we will 
use the Big Island of Hawaii to make sure that the things all 
come together.
    We need an inflatable right away at Earth orbit L1 and L2. 
We will develop a rigid, and we will put it at those two 
places. Those rigids are what we construct things on, and they 
are the ones that will be similar to what we are going to build 
and send to Mars with a buildup so that at the time our cycling 
system deposits the first people on Mars, that buildup will be 
complete. So we have something that is integrated.
    Now, what can we do with that inflatable and Orion? Well, 
we could send it to an asteroid. And we could send a robot, 
year-and-a-half mission. And a crew gets there in 4 months, 2 
days before. But it has 60 days at that asteroid with a 
scientist who knows about asteroids, a robotics scientist. That 
is a crew and a robot at the same asteroid in place.
    Now, that is with the inflatable. When we get to the rigid, 
we can send Orion with the rigid on a round fly by of Venus. We 
can do that in a year. It takes a whole lot longer to do it at 
Mars. When we come back, we can exercise aerocapture maneuvers 
that need to be done at Mars.
    So we will be doing these things, and we will be landing. 
Different people will be building and landing, and we will be 
getting these habitats, the different habitats, nine. We will 
take three of them, and we condition it, for it is the cycler. 
And we get it in its cycle, and then we use three landers for 
triple redundancy. Because all a lander has to do is to get on 
the cycler. Cycler supplies it with everything it needs. It 
gets off and lands, and the facilities are there for them to 
take care of.
    And each pass that that outbound, we reuse the same 
facility so we don't have to build them again. And we can have 
an inbound cycler that can bring people back in emergencies.
    It is a plan that is build and integrated, evolving as we 
go along.
    Senator Cruz. Thank you very much, gentlemen.
    Senator Nelson?
    Senator Nelson. Mr. Chairman, I want to defer to Senator 
Udall.
    And I would just say, with our goal of going to Mars, going 
to an asteroid, going back to the Moon, if we are going to the 
Moon, then show me the money. That is the question as we are 
going forward on the budgets that we are projecting. And I will 
get into that a little later when I get to my questions.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Cruz, for calling this 
important hearing.
    And, Ranking Senator Bill Nelson, thank you for your 
courtesies in allowing me to go forward first in questioning on 
this side.
    And thank you to the witnesses. You have given some very 
impressive testimony. Thank you for your service today.
    Scientific research and improving technology transfer and 
commercialization is smart investment. There is just no doubt 
about it. And it is vital to our Nation's future and for 
national defense and for our economy.
    In my home state of New Mexico, we know this firsthand. 
NASA workers in New Mexico support crucial missions, including 
communication with the International Space Station. Astronomers 
at our research telescopes are making new discoveries about 
black holes and planets outside our solar system. One of those 
astronomy operations is called the Very Large Array, which is 
in New Mexico and does a lot of that work. Researchers at our 
national labs and universities are working hard to keep America 
safe and to create jobs through innovative technologies like 
advanced photonics.
    So I look forward to working with Chairman Cruz and the 
Ranking Senator Nelson on legislation before this committee, 
including America COMPETES Act, the Commercial Space Launch 
Act, and NASA's reauthorization.
    And I also want to thank Senator Nelson as our previous 
Chairman. Under his leadership, the Senate passed the 
bipartisan NASA Authorization Act of 2010. Very few Senators 
have been astronauts like Senator Nelson. He may be the most 
passionate advocate for space exploration who has ever served 
in the Congress, and I am honored to serve with him on this 
committee.
    Now, Dr. Massimino--and I would put the rest of my opening 
statement in the record.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you Chairman Cruz--for calling this hearing today.
    Scientific research--and improving technology transfer and 
commercialization--is a smart investment. It's vital to our Nation's 
future--for our national defense and our economy.
    In my home state of New Mexico, we know this firsthand.
    NASA workers in New Mexico support crucial missions--including 
communication with the International Space Station.
    Astronomers at our research telescopes are making new discoveries--
about black holes and planets outside our solar system.
    Researchers at our national labs and universities are working 
hard--to keep America safe--and to create jobs through innovative 
technologies like advanced photonics.
    So I look forward to working with Chairman Cruz on legislation 
before this committee--including the America COMPETES Act . . . the 
Commercial Space Launch Act . . . and NASA's reauthorization.
    I also want to thank Senator Nelson--our ranking member and 
previous chairman. Under his leadership, the Senate passed the 
bipartisan NASA Authorization Act of 2010.
    Very few Senators have been astronauts like Senator Nelson. He may 
be the most passionate advocate for space exploration who has ever 
served in Congress. I'm honored to serve with him on this committee.
    From our earliest history, humans have gazed up at the sky in 
wonder. Yet once we traveled to space, we looked back at planet Earth 
with the same wonder.
    A NASA astronaut captured this for all of us--in a classic 
photograph of our blue planet Earth. The image became known as ``The 
Blue Marble.'' It is the most widely distributed photo ever. It gives 
us all a sense of how unique and fragile our planet is.
    That is an important perspective to keep in mind--as this committee 
considers how Congress can support both space exploration and NASA 
missions--and help us better understand our own planet.
    In New Mexico, we are putting the finishing touches on Spaceport 
America. Commercial space capabilities are growing. Suborbital 
spaceflight will be a reality for more people than ever before.
    This is the latest chapter--of New Mexico's history of space 
exploration--which goes back to Robert Goddard's early rocket 
experiments.
    So these are exciting times--and challenging times. Space flight 
still involves significant risk. We were sadly reminded of this by the 
fatal crash of a test flight a few months ago. But commercial companies 
are persevering. And still aiming for the stars.
    In recent years, NASA has worked to transition from the space 
shuttle program--to a new future for human space exploration.
    In 2010, this committee set NASA on its current course. We passed 
legislation to support:

  <bullet> an exploration program focused on reaching Mars;

  <bullet> robust use of the International Space Station;

  <bullet> development of a commercial space industry in Low Earth 
        Orbit;

  <bullet> balanced science programs; and

  <bullet> continued commitment to aeronautics research.

    NASA's leadership is essential. In addition, the commercial space 
industry has an important role to play--in our Nation's broader space 
exploration objective--beyond expanding access to sub orbital space and 
trips to and from the International Space Station.
    International cooperation is also key--as we work toward a strong 
and sustainable human space exploration program.
    So this is an important discussion. I'm very pleased that we have 
three distinguished American astronauts on our first panel. Thank you 
for your service--and welcome. I look forward to your testimony. Thank 
you.

    Senator Udall. But Congress passed the last NASA 
authorization act in 2010, as I just mentioned. This law 
continues to guide NASA as a multi-mission agency, and to quote 
that multi-mission from the statute, quote, ``balanced and 
robust set of core commissions in science, aeronautics, and 
human spaceflight and exploration.''
    Could you share your thoughts on the advantages of keeping 
NASA as a multi-mission agency, which encompasses not just 
human spaceflight but also initiatives such as space-based 
observations of the Earth?
    Mr. Massimino. You know, in my time as an astronaut, there 
were a lot of things going on in our country. You know, we had 
military situations, we had economic effects. A lot of things 
happened. And I kind of got the sense that, as a government 
agency, if we had resources, that could help. Whatever that 
meant, to whatever our country needed, that it was important 
for us to try to contribute what we could.
    So you make the example of--you mentioned Earth 
observations, for example. Well, on the International Space 
Station, it was a great engineering project, international. It 
is amazing that this thing is up there, this great laboratory, 
and we can do a lot of basic research up there. But in addition 
to that, we are able to have this perch above our planet where 
we can take amazing photos.
    In fact, my students in my class, our project for the 
semester is an astronaut assistant to help them take these 
photos. And the reason is, it is not just fun photos. They can 
show us natural disasters that occur. You can get a lot of 
information from them. Changes in the planet, whether it be 
irrigation problems or volcanoes erupting or whatever it might 
be, there is a lot of science data that can come and help our 
country, help our planet, by the astronauts taking photos from 
the International Space Station.
    That might be somewhat of a simple example, but I don't 
necessarily think it is. We are using our resources to help 
other agencies and improve life and increase our understanding.
    So I think if there is a way that NASA can contribute to 
that--and I am not a NASA guy anymore, but I always felt when I 
was as an astronaut, if there was anything that I could do to 
contribute that would help our country or help the world, that 
we owed it to do that. It may not be our primary focus, but 
guess what? We maybe can make a contribution in those areas, as 
well.
    Senator Udall. Just a quick question, because I only have a 
few seconds left. But it seems to me there is a great potential 
to develop the STEM fields, in terms----
    Mr. Massimino. Absolutely.
    Senator Udall.--of what we are talking about here.
    Mr. Massimino. Yes.
    Senator Udall. Could you just talk a little bit about that, 
in terms of----
    Mr. Massimino. Oh, yes, absolutely.
    I think what I have found--again, a lot of this comes from 
my more recent experience as a university professor--that the 
kids need something to be excited about. Studying math and 
science--I am not as smart as Buzz was at MIT. Buzz was a 
really smart guy. I struggled up there. It was tough, OK? And I 
needed inspiration to hang in there and get through.
    And I think that a lot of students today need that, as 
well. It is not easy studying this stuff. And if you have a 
goal at the end, that, hey, if I can finish this up, maybe I 
can make a contribution to whatever technology they are 
interested in, that is the kind of motivation they need.
    I have not found any field--I would throw the challenge out 
there, if you find anything else that could inspire kids, young 
people, to study those fields other than the space program. I 
haven't found it. It encompasses so many different areas. It 
excites them. It is something they think is really cool. It is 
the future. It is making a contribution back to the planet. 
They just love it.
    And now, when you add this opportunity to be entrepreneurs, 
I think we are really on to something. So I can't think of 
anything that would excite them more.
    And I see this in New York City, which, you know, doesn't 
have its own NASA center up there and there is not so much of a 
presence as we have in other parts of the country. There still 
is great interest up there.
    Senator Udall. Thank you very much. And I have seen that 
with astronauts that travel to New Mexico, the excitement----
    Mr. Massimino. There you go.
    Senator Udall.--that is there with the young people, in 
terms of all of the STEM fields.
    So, sorry to excuse myself. Secretary Kerry is in Foreign 
Relations. I hope to get back and ask some additional 
questions. But thank you both, Senator Nelson and Senator Cruz.
    Senator Cruz. Thank you very much.
    Senator Gardner?

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman. And thank you for 
holding this hearing today. And I will be following my 
colleague from New Mexico on the way up to the Foreign 
Relations Committee after the question and dialogue we have 
here.
    You know, I don't think there is anything, as you just 
said, Mr. Massimino, that captures the human imagination like 
exploration. And 28 years ago, I think it was, probably around 
1983, I wrote a letter--I would have been 9 years old--I wrote 
a letter to NASA. Here is the copy of the letter. I took a 
picture of it because it is not on e-mail; it is a hard-copy, 
typed-out letter.
    And this is the response back from NASA. This is the first 
paragraph that they wrote back to me in my letter to them: 
``Thank you for your recent letter and your interest in wanting 
to become an astronaut. We are especially happy to have the 
young people of the world show an interest in our space 
program. We have received hundreds of letters similar to 
yours.''
    Now, I doubt if they are receiving letters today; they are 
receiving e-mails today. And I doubt if they are only receiving 
100; they are probably receiving thousands. But this letter 
talks about the need to go into mathematics, the need to go 
into engineering or medicine. It talks about the importance of 
our space program.
    They also sent a little photograph of the crew. I think it 
was the--this is Sally Ride. It was STS-7, I believe, the first 
woman in space from the United States on the space shuttle 
program and, obviously, first woman in space from the United 
States.
    But that was 28 years ago--actually, more than that now, 
but it was 2011, 28 years since I wrote this letter to NASA, 
2011, 1983, and I stood with my colleagues in the House of 
Representatives as we watched the closing of the chapter of the 
Space Shuttle Program.
    So I was 9 years old, writing a letter about how I wanted 
to become an astronaut. Obviously, I failed miserably at it. 
But 28 years later, standing in the cloakroom of the U.S. House 
of Representatives with my colleagues from around the country, 
watching this program come to an end, the program that had made 
me so interested in wanting to achieve more.
    I mean, Horace Greeley said, ``Go west, young man.'' And we 
followed that phrase in American history, and we explored, and 
we fought, and we pioneered, and that is who we are.
    And so I am so concerned about the testimony today, the 
comments that you made, that we aren't capturing that 
imagination like we once were, that we are not driving new 
innovation. We are driving new innovations like we were, but 
how do we really instill that notion of exploration and really 
make it a reality?
    And it goes to the heart, I think, of what you have talked 
about today in the Orion program, and I want to kind of get to 
that.
    We did the test launch, we did the test launch of the 
Orion, December 5, 2014. We did it atop a ULA Delta IV heavy 
rocket. We tested this. And now it doesn't look like we are 
planning to carry astronauts until 2021.
    Can this country afford to wait until 2021? Can we wait 
that long? What can we do to push this up? How do we, again, 
capture that imagination that drives so many of us to imagine, 
to aspire to space?
    So I guess I would start, what is it that we need to do to 
really drive this mission, this idea, this value of space? It 
is not just reports and paperwork; it is something that we have 
to do ourselves.
    Colonel Cunningham. I think it would help to refocus NASA 
back on what they did that did provide that inspiration.
    Just to give you another thought, I was listening here 
about the STEM education. I am a strong believer in that. That 
is what my education was. It is what probably everybody here's 
education was at this table. We work with the Astronaut 
Scholarship Foundation, and we give--now we are up to 30 or 32 
awards every year for this kind of education.
    But if we look at the organization NASA, NASA is also 
giving out many scholarships now. Now, NASA is a space agency. 
I think that if they are going to be giving scholarships, if 
the funds could maybe be diverted to someplace where they focus 
on that.
    NASA needs to be spending their time and their focus on 
those things that inspire people to do these. Exploration is 
what I happen to believe is the long-term look at it. But they 
need to be spending their money on those things that inspire 
others to make their scholarships and derive from other places.
    I work with scholarships all the time. I believe in them. 
But I think that the agency, it is just one more thing that 
they probably have, let's just guess, maybe a couple of dozen 
people that are working just focusing on that, as opposed to 
doing what they did before and letting the inspiration drive 
those things.
    It is just another alternative I am raising about it.
    Senator Gardner. Dr. Aldrin? Please.
    Colonel Aldrin. I would like to tell a little story about 
the months before I left NASA in 1970.
    I was asked to go down to another center, where the next 
program to follow Apollo was being looked at. And there were 
hundreds of aerospace engineers. And let me describe what the 
next system was. And this was 1970; we may have flown Apollo 12 
and maybe 13. It was two-stage, fully reusable, an orbiter with 
wings and wheels and a booster with wings and wheels. And it 
carried the crew; it didn't carry cargo. You want cargo? Use a 
reusable booster, and you put the cargo on top of that.
    So I went down there to look at the assembly of people. 
They had seven teams, a contractor for a booster and the 
orbiter--seven of those. And some of them doubled up, of 
course, here and there. And they built models. So my job was to 
look at the upper stage, the orbiter--okay?--and to see what 
the people could see during launch, orbit, and come down and 
land.
    And I happened to glance down, and I saw windows in the 
booster. OK? I can explain that now, for high-speed taxi, et 
cetera. But I asked the guy, what are these windows here? Oh, 
when we go up as a booster on a normal mission, we have a 
cockpit with two people and a booster. And I said, you what?
    We have seven teams, and before they started their study, 
we asked them to do a real short study, manned versus unmanned 
booster. Now, if you are one of these seven teams and you know 
what the client wants, and if you give him what he wants, you 
are going to make more money, obviously all those reports said, 
yes, you are right, we are going to put a cockpit of two in the 
booster. Totally unnecessary.
    By the time that started getting implemented, Bob Gilruth 
said to another person, I wonder if we should have put a 
cockpit in the booster. OK? It was canceled. We had to rush in 
to the shuttle.
    We would love to have a program like that now, but it was 
because jealousies of individual centers and wanting to do 
things and the companies wanting to take a bid that would get 
them more money and maybe bring it back to where their states 
were doing things. That was inexcusable to me.
    And there are other examples like that. We have three 
different spacecraft to come back, commercial spacecraft, and 
one advanced one that has been looked at by the Russians, 
looked at by the Air Force, and wind tunnel tests, and it 
brings things back. What do we do? Finance the two capsules 
with not really new technology, and we don't finance the one 
that can land on a runway.
    I think we are making not so good choices many times.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Cruz. Thank you very much.
    Senator Nelson?
    Senator Nelson. First of all, I want to welcome our guests, 
dear personal friends, and thank you for what you have done for 
this country, each of you in your own contribution, as we have 
built this amazing thing that we are discussing today, our 
American space program.
    The goal is to go to Mars. The goal is to get NASA beyond 
low Earth orbit. And the question is, over the course of these 
years, as we target the decade of the 2030s, with the budget 
that we are going to have, how do we do it? How do we develop 
the technologies, the techniques, the systems, the life-support 
systems, the propulsion systems that will get us to a foreign 
body such as Mars with a crew and return them safely?
    So we may want to go back to the Moon as we develop this, 
but, as I said earlier, show me the money.
    Dr. Massimino, I want to ask you to comment on the plans to 
capture an asteroid, bring it back into a stable lunar orbit, 
and send a crew up there to land on it, that as part of the 
steps as we prepare all of those things I just mentioned, 
eventually to go to Mars in the decade of the 2030s.
    Mr. Massimino. Thank you, sir.
    I think we need to remember one thing overall, that going 
to space is hard. And I think we need to remember that there 
has only been one country that has put people out of Earth 
orbit, and that is us. And we did it a long time ago, when we 
sent Buzz and his colleagues up there. But still the United 
States of America is the only country that has been able to 
figure that out. It is not so easy going to space. It is even 
harder to go beyond low Earth orbit to places like the Moon or 
Mars.
    And if we decide we are going to take an incremental 
approach, which would be the asteroid mission, I think there is 
definitely a lot that can be learned there. We can test this 
big rocket that can take us places beyond low Earth orbit. We 
can test the spacecraft that would do it.
    We can test life support. Space is a very hazardous place. 
There is a lot of radiation, and it gets worse as you get 
further away from the planet. The radiation dose we took on 
Hubble was higher than what the men and women get on Space 
Station, because we were 100 miles higher. Going to the Moon is 
even worse. Going beyond that is even worse. We need to 
understand how we can protect our people from that, right? And 
we are taking those steps with the research that we do on the 
Space Station.
    How are we going to keep them healthy? All the changes that 
happen to the body. How are we going to keep people healthy 
enough to be able to withstand the journey to Mars, be able to 
land a spacecraft, and be able to work and then come home.
    This is tough stuff. We may or may not be able to do that 
all in one big swing. It may be too much to do it in one swing. 
But I think we need to start taking those first steps.
    The first step is get the big launch vehicle going, like we 
have with a successful test flight and the other ones that are 
planned. They are far in the future, but these are tough things 
to do. And I don't know if more budget would make it quicker. I 
don't know. Maybe it would, maybe it wouldn't. Maybe it would 
give you a better chance of getting there, but I don't know if 
it necessarily makes you more efficient. But these are hard 
things to do.
    But if the asteroid mission is the right thing to do, I 
think there is certainly a lot we can learn from it. I think we 
can work out the spacecraft, keeping the people healthy, 
understanding how to work that launch system. And it is also--
it is a destination. You are not going to land and have to 
blast off again from it, like you would on the Moon or Mars, 
but it is a place you can go to, and we certainly can learn a 
lot from it.
    Is it necessary? I don't know. It might be, because we 
might need that incremental step before we can take the big 
leap. But I think right now the important thing is to try to be 
consistent with it. And to pull the rug out from where we are, 
I think there might be a penalty there, as well.
    There were a couple programs--in my career as an astronaut, 
we worked on different spacecraft. I had dinner with two of my 
friends last night who are now former astronauts that are here 
in Washington. We talked about all the stuff that was canceled 
while we were astronauts, all the stuff we trained on while we 
were astronauts. And to make a big, huge direction change 
sometimes isn't always the best thing.
    Senator Nelson. Well, you were there in the astronaut 
office when the Constellation program was canceled. It was way 
behind, and it was over, way over budget. So that is what you 
are talking about----
    Mr. Massimino. Actually----
    Senator Nelson.--what you sacrifice if you make a major 
change in the human spaceflight program.
    Mr. Massimino. Yes. And that was a big one, but there are 
other ones too, like our cockpit avionics upgrade on the space 
shuttle. They started doing the wiring on that in one of the 
space shuttles. We had spent a lot of time designing that 
upgrade, for example, and then that got cut. And the story we 
had was that it was going to cost almost as much to pull it out 
as it was to finish the job.
    There were other options for spacecraft, rescue spacecraft, 
from the Space Station that we were developing. They did tests 
out in the desert, dropped them out of airplanes, landing 
tests. A lot of cockpit design work was done. Again, these 
projects were cut.
    So I think there is a penalty to pulling everything back. 
And, you know, whether, again, if we go with the asteroid or we 
go to the Moon or Mars, I think it is important to keep the 
momentum going of getting the spaceship ready, getting the 
rocket ready, keeping your options open until you are really 
sure which one you want to go to. Because you might find that 
you might not pick the right one right off the bat.
    Maybe we can go to Mars in one swoop, but maybe we can't. 
And the asteroid mission is a great way to test our systems out 
and get the knowledge. Because we want to be successful when we 
go to Mars. That is a huge leap. That is a really long journey. 
And that is not even--compared to the Moon, it is a long way. 
This man went a long distance from our planet. That is a heck 
of a lot further.
    We want to make sure we get it right when we do that. And 
if that asteroid mission or something we do with the Moon is 
going to help us get there, that is great.
    Colonel Cunningham. Can I add a thought to the question 
that had to do with budget? It is always going to be expensive 
for what they are talking about trying to do.
    I mentioned that for 40 years the NASA budget has been less 
than 1 percent of the Federal budget. For the last 15 years, it 
has been driving down to 0.4 percent of the Federal budget. 
Unless the country, which really is Congress here, decides to 
put more money in it, this is just talk that we are going 
through here. The budget has got to go up for NASA.
    And that is another reason why I feel very strongly that 
NASA has to be operating more efficiently and not doing some of 
the things which would be marginal as opposed to it. You have 
to focus it on what has to be done.
    NASA's budget is way too low to do the things that we 
talked about doing here this afternoon.
    Colonel Aldrin. Absolutely.
    And I would like to point out that I have this study being 
done at Purdue, due the end of April. I have assembled 25 other 
academic institutions that deal with exploration. Academic 
institutions are supposed to be unbiased. They are supposed to 
teach the general background. So if we can come up with a 
number of questions--some of them are yes/no/maybe. Some of 
them are ``tell me shortly.''
    How do we get the public behind what it is we are trying to 
do? Well, they are going to know what I am trying to do, 
briefly, because I am going to show them and I am going to give 
them my assumptions that I have had to make.
    What is the strategy to get the public behind us? And what 
kind of strategy do we need to fund something in 2040? Do we 
step-increase to make up for things, and then do we have a 
ramp-up, not just cost of living but a ramp-up? Because 
expenditures are going to be greater. They did during the 
Apollo program.
    Now, another question: Do we have a relationship with 
China? It is very significant if we are going to deal with 
leadership. I don't want to get into a lot of that, but I think 
if we don't, if we really do, or in between, we shouldn't do 
things differently at the Moon. We still should build things 
there so we can build somewhere else. But we don't have to land 
there. China needs the things we can build. We have to exert 
leadership by working with them in low Earth orbit.
    Next July is the 40th anniversary of Apollo-Soyuz. 1975 was 
pretty contentious, in the cold war, much worse than our 
relations with China today. Why did we refuse them to come to 
our space station? It doesn't make any sense to me. We should 
be doing that sort of thing together, building on, sharing what 
it is we are doing. They have a lot of things to do with the 
Moon. We can help them in their permanence, because it helps us 
with our permanence at Mars.
    Now, if I ask them about asteroid--you can fly it the way 
it is, you can cancel it, or you can do something smart in 
between. Now, if you understand what that smart is in between 
by sending a robot there to an asteroid, then send a crew to 
it, and on board the crew you have an asteroid scientist, a 
robotic, and they can stay there 60 days, the combined mission 
is better than a robot or better than a crew mission.
    Don't these people talk to themselves in Washington? Why do 
I have to come up and say, if you combine the mission, it is a 
whole lot better?
    And you can do it where an asteroid is, like the National 
Research Council said we should do. But maybe that is not 
essential. I happen to think it is, where you can fly Orion 
with a long-duration support system. That is what we are going 
to do when we go to L1 or L2. We are going to take an Orion up 
there, and there is going to be a system that lets us stay for 
much longer. We are going to be rotating commercial crews up 
and down, not just to the Space Station, but commercials are 
going to go to the vicinity of the Moon.
    We are going to do these things, and we are going to build. 
But we don't have to put all the money in building those 
habitats, because the foreigners are going to want them, and we 
are going to want them there, and we are going to want them at 
Mars. The foreigners have to land. OK? We are going to develop 
a very sophisticated landing system, and we are going to be 
landing so many people at Mars that we can take them along on 
the first landing. OK? Take us along as visitors on your 
landings.
    Let's not go broke by doing things back at the Moon, but 
let's astutely learn to do things there that do make sense.
    And I think if you ask industry or if you ask government, 
you are going to get a biased answer. But if you ask academia--
I am looking forward to this poll on significant questions 
coming back from 25 different academic institutions.
    Senator Cruz. Well, thank you very much.
    And I want to ask one additional question, which is: Each 
of the three of you are learned scientists and national heroes. 
And if I have understood your testimony here today correctly, 
each of you has discussed as a major objective, a grand goal 
for NASA, going to Mars.
    I would ask each of you to take a moment to address the 
American people and, in your judgment, explain the benefits to 
America and to the world of going to Mars and what will be 
required to accomplish that objective.
    Colonel Cunningham. Well, I would start by saying the 
technology that is required to get us to Mars, such things as 
radiation or finding new velocities and the like to do that, 
that will create the kind of spin-off--we have benefited for 40 
years from solving the problems that we had to go to the Moon. 
Some of those were started before, but some of it was totally 
unexpected. You didn't know what was going to come up, but you 
solved the problem, and now it is almost like a cancer in all 
areas of our industry, and we are benefiting from it.
    The most important thing that has to be done is they have 
to be willing to pay the money. I am not optimistic about us 
being able to put the kind of funds out there that out to, 
because we are busy spending money in the government for all 
kinds of things for which there is no return and for all kinds 
of things which do not really inspire people. So I just happen 
to believe it is a good use of money.
    Colonel Aldrin. Rarely does a time come along in the 
advancement of humankind on this planet Earth that we gain the 
potential of really demonstrating to ourselves and to the rest 
of the people the fullest of the challenges.
    We can put together what is necessary to send people to 
Mars in an efficient way. And we can do it by stepping up, by 
using some things at the Moon, but not getting bogged down with 
a lot of investments that are involved in landing humans, 
building the rockets to land them, and then storing them. We 
don't need to do that anymore. We can observe how other people 
store people there, take care of them, but where we want to do 
that is at Mars. And we need to invest in the things to get to 
Mars.
    If we invest in an ascent stage to go along with the people 
that are going there, it is going to cost more money. Going 
there with the ascent stage interferes with just the lander. By 
building that ascent stage and the return capability, it is 
taking longer to do that in time.
    The cost per person on the surface of Mars is less if they 
stay there. If we start bringing people back--okay, the biggest 
thing to me is all of this thing comes along on Earth, with 
humanity being able to advance, to do all the wondrous things. 
And it is going to cost billions and billions of dollars. And 
we are going to select some human beings to do that, and we are 
going to train them, and we are going to send them there.
    Now, I have gone and come back from a place. Let me ask 
you, what do you think you are going to do with those people 
that go there and bring them back to continue to pay off the 
investment of their being the first, the pioneers, the building 
up of a growing settlement? They can do far more by keeping 
Mars occupied, helping the new people that come in. You bring 
them back and they can visit different places, but if you 
broadcast from Mars, you can reach everybody in the world, 
because they are going to be listening in, and you can give 
them the stories of what you have been doing right there while 
you are there.
    There is no doubt in my mind that the value that we have 
invested in people from whatever the country is and we have put 
them there on Mars, that is where they need to stay. And they 
need to know and understand that this is their opportunity to 
serve humanity.
    Mr. Massimino. Thank you, sir.
    So, benefits for our American people, what we could get out 
of this, what can we imagine we would get if we were to do this 
grand exploration.
    I think eventually we are going to have to get off of this 
planet or learn how to do it for our own survival. Learning 
what else is out there is great, would help our understanding 
of where we are in the universe, but also just to have another 
place where we could live as another place where we could 
survive would be a good thing for us to have. And so Mars might 
be that place. So if we decide to go there, it is giving us 
another option.
    And if we would decide to go and do this, can you imagine 
what would be needed, what would be developed in order to get 
us there? If you look back to what we did when we developed the 
Apollo program and also the shuttle program, all the new 
technology and the spin-offs, and the benefits that came not 
just for the space program but in other industries were 
tremendous. Now we are going to make a giant leap; we are going 
to go all the way to Mars. Can you imagine what would come out 
of that?
    I think it is also probably going to have some type of 
international flavor to it--maybe, maybe not. I think the 
United States would be the leaders of that, I would hope, but I 
think that we would also maybe be doing it with some of our 
friends. So I think it would be a great thing for our 
international cooperation with other countries around the 
world, providing that benefit for us.
    And then I get back to the inspiration. And the inspiration 
is not just because it is a nice thing to do for kids. It is 
because that is where our future is. We are going to depend on 
these people to take care of our planet and build our economy 
and keep our country strong for many, many years.
    They may not all go and become astronauts. Hopefully more 
people will have that option and keep them interested in the 
space program, but they may not all go on to do that or even 
work for NASA or be involved in it. But I do think that 
exploration, particularly something like you are describing, 
going to Mars, would inspire them to stay in school and get 
their education, and maybe they will find something along the 
way that they like even better than space. Maybe it will be 
better for us for certain students to go into medicine or study 
what they can study in the classroom other than going to space. 
But I certainly think it is going to keep their interest, and I 
think that is kind of an intangible benefit that we would get 
from it, as well.
    But I really see it as an investment in our future, to 
inspire young kids, and also, I think, to help our country, our 
economy for many years to come. I think it would be a glorious 
thing to do.
    Senator Cruz. Thank you very much.
    Senator Nelson, do you have any additional questions?
    Well, then I want to thank each of the three of you for 
coming and joining us. This has been a very productive panel.
    And we will conclude this panel and immediately move on to 
the second panel that will start momentarily.
    Colonel Aldrin. Thank you, Senator.
    Senator Cruz. Thank you very much.
    [Recess.]
    Senator Cruz. OK. The hearing will come to order.
    Now I want to move on to the second panel, and we are 
fortunate to have three very experienced witnesses: Mr. John 
Elbon, Vice President and General Manager of Boeing Space 
Exploration; Dr. Scott Pace, Director of the Space Policy 
Institute, the Elliott School of International Affairs at 
George Washington University; and Mr. Eric Stallmer, President 
of the Commercial Spaceflight Federation.
    And we will start with Mr. Elbon.

 STATEMENT OF JOHN ELBON, VICE PRESIDENT AND GENERAL MANAGER, 
                    BOEING SPACE EXPLORATION

    Mr. Elbon. Thank you.
    Chairman Cruz, Ranking Member Nelson--always good to see 
you, sir--members of the Committee, thank you for this 
opportunity to provide Boeing's perspective on U.S. human space 
exploration goals and commercial space competitiveness.
    I want to applaud you both for your opening comments. That 
spirit of cooperation is heartwarming and absolutely essential 
to our path forward. Thank you very much for that.
    America's economic growth and competitiveness depend on our 
capacity to innovate, to reach beyond today's possibilities, 
stretch farther and faster than our competitors around the 
world. Our future depends on developing the next-generation 
technologies, but more important are the next-generation minds.
    Just as seafaring ships explored and returned to home 
shores, bringing unforeseen discoveries, so too will space-
faring nations reap the benefits of our investment in 
exploration. Robots are great at helping us scratch the 
surface, but humans are ultimately needed to truly explore.
    The success that U.S. space missions have achieved and the 
recognition that these innovations have gained have made the 
United States the most attractive global partner for other 
nations seeking to advance their own space aspirations. This 
plays a significant role in the United States' soft diplomacy 
efforts to increase U.S. influence in global affairs and in 
strengthening our alliances.
    The International Space Station has been orbiting Earth for 
more than 16 years. Astronauts have been continuously living 
aboard the ISS for 14 years, and we have been learning valuable 
lessons about living and working in space in preparation for 
sending humans beyond low-Earth orbit.
    The ISS is a model for space cooperation, currently 
counting 15 nations among the international partnership. 
Because of the ISS, space is an area where international 
cooperation remains constant and serves as a bridge for other 
diplomatic discussions.
    As a leader and major supporter of the ISS, the United 
States is in a position to supply a vision for space global 
exploration. With the ISS, we have demonstrated an ability to 
build long-term, crewed space habitats effectively. The ISS 
crews are testing technologies required for deep space and 
working to understand the effect of extended space travel on 
the human body.
    What we have found from the development and operation of 
ISS is that large space programs do best when three conditions 
are met: first, industry involvement with wide-ranging 
expertise; second, long-term, stable government investment; 
and, third, international cooperation.
    With NASA's Space Launch System capability, we can apply 
the lessons learned in building and operating the ISS to new 
endeavors in deep space. We must rally a shared commitment to 
NASA's vision for the ISS, commercial crew, and super-heavy-
lift Space Launch System rocket, or we risk losing an important 
investment in the irreplaceable brain trust of decades.
    NASA has the foundation for sending humans farther into the 
solar system than ever before, through the NASA Authorization 
Act of 2012, which this very committee passed. We must continue 
down that path in support of the building blocks that are so 
important to future success.
    First, we have invested years of brain power and billions 
of dollars in the International Space Station as a testbed for 
preparing for the next leap.
    Second, we have a commercial space program that ensures 
U.S.-launched crew and cargo transport to ISS. The Boeing CST-
100 spacecraft combines proven design in spaceflight technology 
with modern innovation for a reliable and sustainable crew and 
cargo transportation system. Use of commercial transportation 
to sustain ISS lowers costs and leaves room in NASA's budget to 
develop the capabilities for exploration beyond low-Earth 
orbit, SLS and Orion.
    And, third, SLS provides unprecedented payload capability 
that can enable human and science deep space missions not 
previously achievable. And last December's flawless launch of 
the Orion crew capsule returned a great deal of data, which is 
a huge step toward Mars.
    Finally, the world's space agencies agree that Mars is our 
ultimate destination. NASA has the programs in place to move 
down the path toward Mars, starting with the International 
Space Station as a testbed, commercial crew transportation 
systems to transport crew and cargo to the ISS, and Orion and 
the SLS for super-heavy-lift and crew transportation beyond 
low-Earth orbit.
    Thank you again for the opportunity to testify here today, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Elbon follows:]

 Prepared Statement of John Elbon, Vice President and General Manager, 
                        Boeing Space Exploration
    Chairman Cruz, Ranking Member Udall, and members of the Committee, 
thank you for this opportunity to provide Boeing's perspective on U.S. 
Human Space Exploration Goals and Commercial Space Competitiveness. I 
am John Elbon, Vice President and General Manager, Boeing Space 
Exploration
    Mr. Chairman, America's economic growth and competitiveness depend 
on our capacity to innovate, to reach beyond today's possibilities and 
stretch farther, faster than our competitors around the world. Our 
future depends on developing the next generation technologies--but more 
important are the next generation minds. We need to inspire scientists, 
engineers, researchers and technologists everywhere by offering the 
opportunity to be part of something that transcends known boundaries. 
America needs to reinvigorate that Apollo era passion that changed the 
world, launching new industries and opening new doors into the 
universe. From everyday conveniences like scratch-resistant lenses to 
world-changing satellite-enabled communications, our lives are better 
today because of cutting edge NASA research innovations--borne of our 
drive to explore. Just as seafaring ships explored and returned to home 
shores, bringing unforeseen discoveries--so, too, will ``spacefaring'' 
nations reap the benefits of our investment in exploration. Robots are 
great at helping us scratch the surface of new knowledge. Humans 
ultimately are needed to truly explore--and to pioneer.
    NASA research has certainly met the goal of advancing science and 
technology innovation. This research has energized a strong U.S. 
economy, providing growth, security and resiliency. The success that 
U.S. space missions have achieved, and the recognition that these 
innovations have gained, have made the United States the most 
attractive global partner for other nations seeking to advance their 
own space aspirations. This plays a significant role in the United 
States' soft diplomacy efforts to increase U.S. influence in global 
affairs and in strengthening our alliances.
    The international community has aligned with Mars as the ultimate 
destination, and NASA has in place the programs needed to lead us 
toward that goal. It starts with the International Space Station as a 
national laboratory and testbed for future exploration. For affordable 
crew and cargo resupply to the ISS, NASA has contracted with commercial 
partners, freeing up funds for NASA to focus on the difficult task of 
deep space exploration with Orion and Space Launch System as the 
initial capabilities for deep human space exploration capabilities.
    NASA's extraordinary teams have been breaking new ground for 
decades, returning with innovations that range from medical advances to 
commercial wonders, using the International Space Station as a unique 
on-orbit laboratory. The International Space Station has been orbiting 
Earth for more than 16 years. Astronauts have been continuously living 
aboard the ISS for 14 years. During an average 6-month period on the 
station, as many as 200 investigations operate, with between 70 and 100 
of them being new studies.
    I'd like to spend a minute or two highlighting some of the real 
science we are seeing from the International Space Station.

        Duchenne (du-shens) Muscular Dystrophy: Duchenne Muscular 
        Dystrophy is a recessive form of muscular dystrophy that 
        affects over 1 in 3,000 boys (over 50,000 young males in the 
        U.S. today). Average life expectancy is 25 years.

        Research has been conducted on the ISS to identify a treatment 
        or cure for Duchennes Muscular Dystrophy that could lead to 
        identification of a cure due to the unique capabilities of the 
        ISS. The ISS enabled researchers to crystallize an improved 
        complex structure and an associated water molecule not 
        previously known.

        Bone loss: The FDA approved AMGEN's drug Denosumab in 2010--
        used for treatment of postmenopausal osteoporosis and 
        subsequently for treatment of bone metastases. Both were 
        developed in partnership with the ISS sciences team.

        New Treatment through Ultrasound: ISS astronauts were trained 
        to use portable ultrasound to diagnose issues like broken bones 
        and collapsed lungs that might happen on orbit where medical 
        facilities are limited. This same method is now being used to 
        train third-world doctors and care providers to treat patients 
        where modern technology is not available. This training has 
        translated to treatment of more than 40-thousand patients in 
        underserved countries, like Brazil, due to diagnosis through 
        portable ultrasound.

        Closed-Loop Water Recycling on ISS: A closed-loop water 
        recycling system is used on the International Space Station. 
        Not only does this include drinking water, but it includes 
        recycling sweat, urine and even exhaled water molecules.

        Similar to how we reuse our waste water on board the ISS, 
        schools in third world countries are utilizing this technology 
        where fresh water is scarce. A school in Morocco's capitol 
        became the first public facility in May of 2014 to use this 
        type of recycling system that reuses urine and waste water.

        The system relies on a set of organic and ceramic membranes 
        with holes just one ten-thousandth of a millimeter in diameter, 
        which is 700 times thinner than a strand of human hair. These 
        tiny pores can filter out unwanted compounds in water, 
        including nitrate--a problematic pollutant that comes from 
        agriculture fertilizers.

        Targeted method of chemotherapy drug delivery; clinical breast 
        cancer trials now in development: This treatment has the 
        potential to change the landscape for how we address cancer--a 
        devastating illness that has touched many of our lives.

        Patients who suffer through invasive cancer treatment can 
        endure ravaging side effects, including nausea, immune 
        suppression, hair loss and even organ failure, in hopes of 
        eradicating cancerous tissues in the body. If treatments target 
        a patient's cancerous tissues, it could provide clinicians with 
        an alternative to lessen the delivery of toxic levels of 
        chemotherapy or radiation.

        Aboard the ISS, a particular series of research investigations 
        is making further advancements in cancer therapy. A process 
        investigated aboard the space station known as 
        microencapsulation is able to more effectively produce tiny, 
        liquid-filled, biodegradable micro-balloons containing specific 
        combinations of concentrated anti-tumor drugs. Using 
        specialized needles, doctors can deliver these micro-balloons, 
        or microcapsules, to specific treatment sites within a cancer 
        patient. This kind of targeted therapy may soon revolutionize 
        cancer treatment delivery.

        Imagine the quality of life from such therapies for patients. 
        Remarkably, research that began in space may soon result in 
        such options here on Earth.

    The ISS is also a model for international space cooperation, 
currently counting 15 nations among the international team. The ISS and 
shared launch systems helped the United States bridge the diplomatic 
divide with Russia after the fall of the Soviet government and 
continues to facilitate the development of an integrated, global 
definition of science and technology policy.
    Because of the ISS, space is an area where international 
cooperation remains constant and serves as a bridge for other 
diplomatic discussions. As the leader and major supporter of the ISS 
program positions, the United States is in position to supply a vision 
for global space exploration.
    With the ISS, we have also demonstrated the ability to build and 
sustain long term crewed habitats effectively in space. The crews 
aboard ISS are testing technologies today that are required for deep 
space exploration, providing better information about the effects of 
extended space travel on the human body. In fact, next month astronaut 
Scott Kelly and cosmonaut Mikhail Kornienko will fly to the ISS and 
spend one year on-orbit as part of a study that will help us to 
understand the effects of long-duration, off-planet exposure to our 
astronauts in preparation for even longer spaceflights to Mars.
    NASA has further enabled this path forward by turning over to 
private industry the routine business of crew and cargo transport for 
the ISS while NASA concentrates on the development of deep space 
systems. Two contracts were awarded last September to U.S. companies to 
provide crewed transportation to and from the ISS starting in 2017. In 
addition, commercial companies submitted proposals in December of last 
year for the follow-on commercial cargo contract, which will be awarded 
this summer.
    Boeing is proud once again to partner with NASA to provide crewed 
services to the ISS. With a heritage dating back from Mercury, Gemini, 
and Apollo to our more recent history on the Space Shuttle, we have a 
commercial space program in work that promises to not only secure 
affordable crew and cargo transport to ISS, but to build an even more 
robust--unparalleled--aerospace capability for America. The Boeing CST 
100 spacecraft combines proven design and spaceflight technology with 
modern innovation for a reliable and sustainable crew and cargo 
transportation system.
    By leveraging these commercial contracts to support the ISS, NASA 
is focusing investment in the Orion and Space Launch System, which are 
critical elements in the future exploration architecture. The December 
flight test of the Orion crew capsule was flawless, and returned a 
great deal of data--a huge first step toward Mars. The next test flight 
for Orion will be on top of the Space Launch System (SLS) for 
Exploration Mission 1. The SLS provides unprecedented payload 
capability that can enable human and science deep space missions not 
previously achievable. We are building the hardware, testing the 
hardware and production tooling, and installing ground operations for a 
rocket that will deliver nine times the thrust of the largest private 
rocket. It is designed to transport the mass and volume necessary to 
affordably build such an outpost, while safely launching crew deeper 
into space.
    A whole new generation of engineers are building. . .side by side 
with experienced space veterans . . . this next generation rocket.
    But you can't build the world's biggest, fastest, most capable 
rocket with only existing technology. We're also applying innovative 
approaches to the business, the technology, and the people.

  <bullet> We are relying on the very best of Boeing and NASA engineers 
        to execute parallel rocket configuration/design with design and 
        installation of the manufacturing facilities. We tapped into 
        the vast resources across the Boeing enterprise to create the 
        most experienced design team.

  <bullet> By partnering in new ways between engineering and 
        manufacturing we reduced the manufacturing facility footprint 
        and workforce required in assembly & operations. We are using 
        fewer, larger tools to build the rocket by making them multi-
        use. That cuts down on facility footprint, tooling cost, and 
        workforce required for production. But that also means 
        efficient low rate production (which aligns with NASA funding).

  <bullet> Using an affordability-driven engineering approach, 
        engineers started with existing hardware and capability to 
        leverage as much as possible current taxpayer investment in 
        space programs. They then innovated to incorporate that 
        hardware to the greatest degree possible, consistently making 
        engineering trades to optimize capability while managing cost 
        and schedule commitments.

    This rocket opens doors we've never seriously considered in the 
past. For the first time in 40 years, the Orion and Space Launch System 
(SLS) projects will allow astronauts to leave low Earth orbit and 
completely escape Earth's gravitational field--ultimately opening the 
door to landing humans on Mars.
    Last year, a congressionally mandated report from the National 
Research Council recommended that the United States pursue a 
disciplined ``pathway'' approach that encompassed executing a specific 
sequence of intermediate accomplishments and destinations leading to 
the ``horizon goal'' of putting humans on Mars. The success of this 
approach requires a steadfast commitment, international collaboration 
and a consistent budget that aligns with our Nation's human exploration 
goals.
    We cannot abdicate our place in human spaceflight to other 
countries that ARE willing to step up, to set aside differences, and 
align around a path forward. All the right building blocks are in 
place, right now, for success. NASA's industry team is leveraging 
decades of knowledge, hardware, and infrastructure so we can save money 
and begin with a proven, reliable baseline. NASA is laying the 
foundation for taking the next important step--human exploration beyond 
the Moon and to Mars. It is that vision that awakens the explorer in 
all of us.
    Chairman Cruz, Ranking Member Udall, and members of the Committee, 
thank you again for the opportunity to testify here today and I look 
forward to answering your questions.

    Senator Cruz. Thank you, Mr. Elbon.
    Dr. Pace?

STATEMENT OF DR. SCOTT PACE, DIRECTOR, SPACE POLICY INSTITUTE, 
  ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Pace. Thank you, sir.
    Thank you, Chairman Cruz, Ranking Member Nelson, members of 
this Committee. It is an honor to follow the previous panel, 
and thank you for this opportunity to discuss the important 
topic of the future of human spaceflight.
    While space touches every aspect of modern life, I would 
like to focus on human space exploration, as that topic is the 
one whose future is most in doubt today.
    This is unfortunate, as human space activities are among 
the most interdisciplinary of enterprises, requiring skills 
from every field of technical endeavor. Their successful 
accomplishment requires a degree of system engineering skill 
found only in the most complex and demanding programs. The 
ability and willingness of a nation to lead such endeavors 
conveys much about the nature and intentions of that society.
    It is my argument that international space cooperation, 
space commerce, and international space security discussions 
could be used to reinforce each other in ways that would 
advance U.S. interests and the sustainability and security of 
all space activities. At present, however, these activities are 
largely conducted on their individual merits and are not part 
of an integrated national strategy.
    International space cooperation is not an end in itself but 
a means of advancing national interests. Those interests can be 
for security, commerce, science, international influence, or 
any combination thereof. A human space exploration effort 
driven by geopolitical interests and objectives would provide 
and does provide the historic model and rationale, I believe, 
for the United States.
    The next steps beyond low Earth orbit will require 
international partners for practical and political reasons. 
Therefore, it makes sense to ask what our partners would like 
to do and what they are capable of doing in the future. The 
answer is: the Moon, with Mars and other destinations in the 
distance. A U.S. commitment now to lead a multinational program 
to explore the Moon would be a symbolic and practical first 
step as well as a means of creating a broad international 
framework for space cooperation.
    At the same time, the geopolitical benefits of improving 
relations with growing space powers through greater U.S. 
engagement could support more ambition space exploration 
efforts than science alone might justify.
    On the commercial side, providing cargo delivery, for 
example, to the lunar surface would be an attractive post-ISS 
market for U.S. industry. The volume and duration of that 
market would be enormously more attractive to industry than the 
ISS alone could ever be.
    The Moon is not just a physical destination but also a 
means of answering questions, creating capabilities, training 
organizations, and forging new relationships that serve the 
interests of the United States and its allies.
    Through authorization and appropriation bills, the Congress 
should provide clear direction for NASA on an exploration 
mission for the 2018-2025 timeframe, as SLS, Orion, and other 
exploration systems currently under development begin 
operation.
    The Congress should, in my view, direct NASA to develop 
mission concepts for an international return to the Moon with 
private-sector partners, in anticipation of a new 
administration in 2017.
    The United States is crucially reliant on space systems, 
and the future sustainability and governance of space 
activities are key strategic interests for us. If we are to 
have an effective American space strategy, we need to align our 
policies, programs, and budget priorities with enduring 
national interests, for that will be the way they will be 
sustainable.
    This means looking beyond individual missions and seeking 
to determine what future humanity might have beyond the Earth 
and what values will be part of that future. I would like those 
values to include the things we value today: democracy, human 
rights, rule of law, free markets. The rules on a frontier are 
made by the people who show up, not by the people who stay 
behind. And if those values are to be on a human future in 
space, then we need to be there to ensure them.
    I close with a quote from Oliver Wendell Holmes. Quoting, 
``I find the great thing in the world is not so much where we 
stand as in what direction we are moving. We must sail 
sometimes with the wind, sometimes against it. But we must sail 
and not drift nor lie at anchor.''
    We need the confidence to choose what course offers the 
greatest advantage to our Nation and our values. And for that, 
I commend this hearing today.
    Thank you.
    [The prepared statement of Mr. Pace follows:]

Prepared Statement of Dr. Scott Pace, Director, Space Policy Institute, 

 Elliott School of International Affairs, George Washington University
    Thank you, Chairman Cruz, Ranking Member Udall, and members of the 
Committee, for providing an opportunity to discuss the important topic 
of the future of human spaceflight and the strategic national interests 
served by international leadership in such endeavors. My testimony 
today is based on previous writings and presentations, most notably, my 
2014 Durand Lectureship in Public Services sponsored by the American 
Institute of Aeronautics and Astronautics.
American Space Strategy Adrift
    I would like to talk to you today about American space strategy and 
the choices before us. Space activities today play critical roles in 
U.S. national security, economic growth, and scientific achievements. 
Satellite communications link the world. The Global Positioning System 
(GPS) is an integral part of several critical infrastructures, and 
enables functions ranging from survey and construction, to farming, 
finance, and air traffic management--not to mention critical support to 
U.S. military forces worldwide. Less well understood is that the GPS 
time signal provides a global time base for encrypted communications--
including point-of-sale transactions. Without GPS, much of today's 
economy would come to a halt. We have rovers on the surface of Mars, 
and a probe that has left the solar system. The International Space 
Station represents a unique collaborative partnership between the 
United States, Europe, Canada, Japan, and Russia. New national 
entrants, some of them potential adversaries, may pose risks to the 
long-term sustainability and security of space activities as a result 
of increasing orbital debris and the proliferation of space 
capabilities.
    While space touches every aspect of modern life, I would like to 
focus on human space exploration, as that topic is the one whose future 
is most in doubt today. This is unfortunate, as human space activities 
are among the most interdisciplinary of enterprises, requiring skills 
from every field of technical endeavor. Their successful accomplishment 
requires a degree of systems engineering skill found only in the most 
complex and demanding programs. The ability and willingness of a nation 
to lead such endeavors conveys much about the nature and intentions of 
that society. Thus, human spaceflight continues to possess enormous 
symbolic value, leading directly to important political, economic, and 
scientific consequences, both domestically and internationally. Human 
spaceflight is therefore a matter of considerable interest to 
policymakers, and should be.
    It is my argument that international space cooperation, space 
commerce, and international space security discussions could be used to 
reinforce each other in ways that would advance U.S. interests in the 
sustainability and security of all space activities. At present, 
however, these activities are largely conducted on their individual 
merits and not as part of an integrated national strategy. I will 
return to this point later.
    The International Space Exploration Coordination Group (ISECG) is a 
coordination mechanism among the major space agencies created in 
response to the Bush Administration's Vision for Space Exploration. The 
ISECG has been able to combine previously separate ``Moon First'' or 
``Asteroid First'' approaches for going to Mars into a single scenario 
where cislunar space is the next step for human explorations beyond low 
Earth orbit. This is a major accomplishment, in that it has been the 
inconstancy of U.S. policy choices that have made attaining an 
international consensus so difficult in recent years.
    The central elements of the current U.S. approach toward human 
spaceflight are found in the President's 2010 National Space Policy, 
which says that the NASA Administrator shall ``set far-reaching 
exploration milestones. By 2025, begin crewed missions beyond the moon, 
including sending humans to an asteroid.'' This declaration came as a 
surprise to domestic and international space communities, following as 
it did upon the heels of two prior Congressional Authorizations Acts in 
2005 and 2008 in which a human return to the Moon was specifically set 
forth as the next focus of U.S. space exploration. The international 
space community in particular, which had been shifting attention to the 
Moon as the completion of the International Space Station (ISS) drew 
near, felt blindsided. Countries in Asia, such as Japan, India, China, 
and South Korea, saw the Moon as a challenging but feasible destination 
for robotic exploration and a practical focus for human space 
exploration, a goal offering missions in which they could reasonably 
expect to play a part. The lack of U.S. support during the present 
Administration for a program to return to the Moon made it difficult 
for advocates of human space exploration in the United States, Europe, 
Japan, India, and elsewhere to gain funding for any efforts beyond the 
ISS.
    While the United States continues to be officially uninterested in 
leading a human return to the Moon, the Moon is the next logical target 
for all of our potential international partners. Russia has made 
several presentations at various international conferences endorsing 
human missions to the Moon. China has not made an official decision to 
send humans to the Moon, but is proceeding with a steadily advancing 
robotic program that is putting in place the technical pieces necessary 
to conduct more ambitious missions when they so choose. They have 
landed a nuclear-powered rover on the Moon, unveiled designs for a 
Saturn 5-class heavy-lift launch vehicle, and are building a space 
station that will be open to international participation. Growing space 
powers such as the Republic of Korea and India have their own unmanned 
lunar ambitions, and even the private sector is looking to the 
exploitation of lunar as well as asteroid resources.
    Europe is more cautious about human missions to deep space. They 
would almost certainly join in a U.S.-led effort, but would not lead 
one without us. Unfortunately, there is no real U.S. plan or intent for 
human space exploration beyond the International Space Station, as 
there is no longer any real funding or any defined architecture for 
such endeavors. There is, however, a clear policy to create new U.S. 
providers of cargo and crew services to low Earth orbit to replace 
government capabilities. Using the ISS as an early market, the hope is 
that these new providers can provide lower cost services to meet 
government needs, be able also to compete for non-government payloads, 
stimulate new demand with lower prices, and thus contribute to U.S. 
economic growth. Cargo capability has been demonstrated, while crew 
capabilities are a work in progress. In addition, cost reductions are 
not yet evident in out-year projections of ISS funding needs.
    There are risks in the current U.S. approach to human spaceflight. 
The United States finds itself reliant on the economic success of 
private service providers, and, through the intergovernmental 
agreements pertaining to the International Space Station our partners 
must now share this reliance. The companies themselves are also at 
risk. Should there be a ``bad day'' on the Station, this would be not 
only a disaster for NASA, but would also put an end to the near-term 
market for the so-called ``commercial crew and cargo'' companies. It 
would be very difficult to restart a U.S. human spaceflight effort 
without the pull of either the ISS partnership or the follow-on goal of 
a lunar return, and it is unlikely that private firms would, or even 
could, recreate a human spaceflight capacity without U.S. government 
demand and support.
    Even assuming no accidents with the ISS, it will likely be 
impossible to operate the facility beyond 2028 due to life limitations 
on crucial station elements, obsolescence, and a lack of replacement 
parts. Political commitments may fade even earlier, as there is not yet 
a consensus among the partners to operate the facility beyond 2020.\1\ 
Without commitments from the partners, it will continue to be difficult 
to induce scientific investigators to invest years of their career in 
carrying out an experiment which might fly once, if at all, before the 
facility is closed. And despite the promise of space tourism, it is 
also unlikely that the market will be large enough and stable enough by 
2020 to replace the demand for human spaceflight now generated by the 
ISS partnership and NASA in particular.
---------------------------------------------------------------------------
    \1\ The White House and NASA announced on January 8, 2014 that the 
United States would extend its participation in the ISS until at least 
2024.
---------------------------------------------------------------------------
    Human space exploration and U.S. human spaceflight for the next 
decade will continue to be driven by U.S. space policy as reflected in 
the NASA budget. That budget is itself a political choice--it is a 
reflection of what we value as a society. NASA's budget has been 
declining in constant dollar terms for decades. If NASA today had the 
same budget in constant dollars that it did in 1992, it would be $24 
billion. To the question of affordability, it should be understood 
that--in constant dollars--the Administration's stimulus program was 
greater than NASA's budget from 1958 to 2008. To emphasize: the United 
States sent humans to the Moon, built and operated a Space Shuttle 
fleet for 30 years, completed the initial robotic exploration of the 
solar system, built and operated several space telescopes, and 
contributed its share of the International Space Station for less than 
the cost of the American Recovery and Reinvestment Act.
    That being said, fiscal limits are real and harsh. The performance 
requirements for getting humans safely to other worlds remain constant 
and demanding. As budgets are pushed down, schedules slip and risks 
increase. We cannot, however, focus solely on cost, as funds spent on 
any space activity have to compete successfully against other budgetary 
demands. If we are to sustain discretionary expenditures for civil 
space exploration, we must develop a clearer rationale linking such 
efforts to national interests that can be supported in a bipartisan 
manner over many years. In the absence of any larger strategic context 
for a human spaceflight program, ambitious mission concepts are 
insufficient to justify the required levels of effort.
Budget Volatility
    There is a line from the movie ``The Right Stuff'' in which the 
actor playing Gordon Cooper says: ``You boys know what makes this bird 
go up? FUNDING makes this bird go up.'' I would go further and say: 
``What creates funding? Bipartisan support creates funding.''
    Bipartisan agreement was reached in the aftermath of the tragic 
loss of the Space Shuttle Columbia that the United States should 
continue to explore beyond Earth orbit, returning to the Moon and then 
voyaging to Mars. President Bush called the Vision for Space 
Exploration ``a journey, not a race'' and one that would not be done by 
the United States in competition with other nations, but in partnership 
with them. The Congress passed two successive NASA authorization bills 
in FY 2005 and FY 2008 with strong bipartisan majorities endorsing this 
direction.
    The Obama Administration decision to overturn that consensus led to 
the protracted battle over the FY 2010 NASA Authorization Act. The 
future of human spaceflight and the role of U.S. leadership were at the 
center of the debate between Congress and the White House. The result 
of this conflict was budget volatility as well as policy uncertainty, 
two factors that have burdened the U.S. human spaceflight effort for 
several years now. In addition to the flawed policy direction of 
focusing on an asteroid mission in the near term and an unknown path to 
Mars in the long term, the Administration's unstable budget requests 
for NASA have created immense challenges for the Agency's managers, 
scientists, and engineers. As an illustration of budget volatility, see 
Figure 1 below. It shows enacted budgets for NASA as well as the five-
year budget request for FY 2010-20016. The FY 2010 budget had a 
``pause'' in human spaceflight in the out-years while the Augustine 
Committee was working. The FY 2010 budget top-line returned but 
internal Agency priorities were greatly different, leading to the 
conflicts with Congress. FY 2011 saw a dramatic drop and flattening of 
the NASA budget request, creating more uncertainty for planning. The 
situation worsened in FY 2012, FY 2013, and FY 2014--leading to the wry 
comment at NASA that ``flat is the new up.'' This year, the FY 2016 
request shows a significant increase, but without changes in policy 
priorities to know if this change will be stable going forward.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1--NASA Enacted Budgets and Presidential Budget Requests FY 
2010-16
Global Space Competition
    The uncertainty and drift attending human spaceflight efforts today 
have consequences beyond our borders. Working in a school of 
international affairs, it is easy to see the importance of cross-
national ``functional'' issues such as security, trade, development, 
and technology to U.S. foreign policy. Of particular importance are 
debates over areas beyond traditional definitions of sovereignty, such 
as the high seas, international air space, the Polar Regions, space, 
and cyberspace. These are today's frontiers, and are thus areas of 
potential conflict and cooperation among state and non-state entities 
that impact U.S. interests. As with past frontiers, it is those who 
show up, not those who stay home, who create the rules and establish 
the norms in new areas of human activity.
    In a world in which space capabilities are increasingly global, no 
one state will be in a position to impose rules unilaterally for the 
exploration and development of space. Similarly, the diversity of 
competing national interests in space make it unlikely that a single 
international space authority or even a new space treaty will emerge 
anytime soon. Thus, the task for the United States, if it wishes to 
influence how space is developed and utilized, is to create attractive 
projects and frameworks in which other nations choose to align 
themselves, and their space activities with us, as opposed to others. 
Just as the United States shaped the postwar world with a range of 
international institutions, so we should look to the creation of new 
arrangements to advance our interests, values and freedoms in space.
    There is nothing inevitable about U.S. leadership in space unless 
we make it so. I attended the International Astronautical Congress in 
Beijing in 2013. As might be expected, U.S., Russian, and Indian 
attendance was light. Nonetheless, the Chinese did a good job hosting 
the conference with welcoming remarks from Li Yuanchao, Vice President 
of the People's Republic of China, and a display of their three-man 
Shenzhou 10 capsule. There were also displays of Brazilian, Ukrainian, 
and South African cooperation with China, and one could easily see what 
a global space community might look like without the United States. It 
was in effect a picture of a post-American space world, with a full 
range of manned and unmanned space activities, but without American 
leadership or even, in many cases, an American presence.
    China is planning to deploy its own space station in less than a 
decade, about the same time that the International Space Station may be 
ending. If China is able to offer pragmatic opportunities for space 
cooperation on its own space station or as part of efforts to send 
humans to the Moon, and the United States cannot, then other countries 
will likely find it attractive to forge closer relationships with 
China. Such a shift in international space influence away from the 
United States and toward China will, no doubt, impact a wide range of 
U.S. national security and foreign policy interests, both in space and 
in other arenas.
    The United States retains several advantages in space, however. We 
have decades of experience and close relationships with almost every 
spacefaring nation on a wide range of projects. The entrepreneurial 
energy of the private U.S. space community, both large and small, is a 
source of admiration by and occasional puzzlement to the international 
space community. At the same time, a proud history and a nascent 
private industry cannot alone substitute for national and international 
leadership in space, and likely cannot survive, much less thrive 
without it. Both international cooperation and private sector 
initiative are necessary aspects of any effective American strategy in 
space, but are not by themselves sufficient. A focused national 
strategy is also needed to provide a coherent context for both 
cooperative agreements and private ventures.
Choosing a Direction
    It is crucial to remember that international space cooperation is 
not an end in itself, but a means of advancing national interests. 
Those interests can be for security, commerce, science, international 
influence, or any combination thereof. A human space exploration effort 
driven by geopolitical interests and objectives provides the historic 
model and rationale for the United States. The United States undertook 
the Apollo program in the 1960s to beat the Soviet Union to the Moon as 
part of a global competition for Cold War prestige. The Apollo-Soyuz 
program symbolized a brief period of detente in the 1970s. The Space 
Station program was established in the 1980s, in part, to bring the 
developing space capabilities of Europe and Japan closer to the United 
States and to strengthen anti-Soviet alliances. Russia was invited to 
join a restructured International Space Station in the 1990s to 
symbolize a new post-Cold War, post-Soviet relationship with Russia.
    The next steps beyond low Earth orbit will require international 
partners for practical and political reasons. Therefore, it makes sense 
to ask what our partners would like to do, and what they are capable of 
doing in the future. The answer is the Moon--with Mars and other 
destinations in the distance. A U.S. commitment now, to lead a 
multinational program to explore the Moon would be a symbolic and 
practical first step as well as a means of creating a broader 
international framework for space cooperation. At the same time, the 
geopolitical benefits of improving relations with growing space powers 
through greater U.S. engagement could support more ambitious space 
exploration efforts than science alone might justify. Providing 
commercial cargo delivery to the lunar surface would be an attractive 
post-ISS market for U.S. industry; the volume and duration of that 
market would be enormously more attractive to industry than that for 
the ISS could ever be. The Moon is not just a destination, but also a 
means of answering questions, creating capabilities, training 
organizations, and forging new relationships to serve the interests of 
the United States and its allies.
    The United States is crucially reliant on space systems, and the 
future sustainability and governance of space activities are key 
strategic interests for us. U.S. human space exploration today is 
``capability driven,'' with ambitious goals in the distance that are 
not well connected to other national interests, notably in 
international relations and commerce. If we are to have an effective 
American space strategy, we need to align our policies, programs, and 
budget priorities with enduring national interests. This means looking 
beyond individual missions and seeking to determine what future 
humanity might have beyond the Earth, and what values will be part of 
that future. I would like those values to include the things we value 
today--democracy, human rights, the rule of law, and free markets.
    I will close with a quote from Oliver Wendell Holmes, Sr. ``I find 
the great thing in this world is not so much where we stand, as in what 
direction we are moving--we must sail sometimes with the wind and 
sometimes against it--but we must sail, and not drift, nor lie at 
anchor.'' We need the confidence to choose what course offers the 
greatest advantage to our Nation and our values.
    Thank you.
                                 ______
                                 
Comments on the President's FY 2016 Budge Request for NASA \2\
---------------------------------------------------------------------------
    \2\ Adapted from The Hay Bulletin, Issue 34, The John Hay 
Initiative, February 12, 2015, p. 7
---------------------------------------------------------------------------
    The President's FY 2016 budget request contains a 7 percent ($74 
billion) increase over the FY 2015 Omnibus spending level, with NASA 
receiving $18.5 billion--a nearly $500 million increase above the FY15 
Omnibus and nearly $1 billion above the President's budget request last 
year.
    The proposed increase to NASA's budget largely benefits two of the 
Obama Administration's top priorities: Earth Science (+175M) and 
Commercial Crew development subsidies (+438M). These increases come at 
the expense of Exploration systems under development, including the 
super heavy lift Space Launch System (SLS) and the exploration crew 
spacecraft, Orion, which completed a successful inaugural test flight 
in December 2014.
    The proposed cuts to SLS and Orion almost directly correspond with 
the budget's nearly half billion jump in funding for the Commercial 
Crew program. In September 2014, NASA announced the selection of Boeing 
and SpaceX to continue development of spacecraft for crew launches to 
the International Space Station by 2017-2018. Congress has repeatedly 
sought to constrain spending for this program and to narrow the number 
of program participants. SLS and Orion are the systems that will enable 
human exploration of space beyond low-Earth orbit. Of particular 
concern are potential reductions to the funding of SLS core stages that 
would further delay the program and increase total costs.
    Overall, space technology budgets fare well in this year's request: 
the budget again proposes a $128+ increase to the Space Technology 
mission directorate and the Advanced Exploration Systems account, which 
funds exploration systems like habitat and landers, receives an 
increase of $48 million. While modest, funding for AES is important to 
ensure that systems are developed which leverage NASA's SLS and Orion 
capabilities enabling a return to the surface of the Moon.
    For the third year, the budget continues to propose funding for an 
Asteroid Redirect Mission, which has been widely panned by the 
Congress, the scientific community, and NASA's international partners. 
The administration is again proposing to divert funding in the Advanced 
Exploration Systems and Space Technology accounts to pay for this 
mission.
    The budget also continues efforts by the administration to cut 
programs favored by Congressional stakeholders, like Planetary Science 
and Aeronautics. Both programs are cut by approximately $80+ million 
relative to the recently enacted FY 2015 Omnibus.
    Although the President's budget violates sequestration budget caps 
and makes unrealistic assumptions about new revenue to allow for 
increases in discretionary spending, the topline increase for NASA is 
welcome and should be encouraged within the allocation provided by the 
House and Senate budget resolutions. Republicans and Democrats in 
Congress both approved funding for NASA that was well above the 
President's request last year and should be encouraged to prioritize 
investments in the space program. For example, the Congress should 
enforce balance in the science portfolio to ensure that programs like 
Planetary Science and Earth Science receive funding consistent with 
their scientific merit.
    The appropriations process should prioritize investments in NASA's 
Exploration program by fully funding SLS, Orion and Advanced 
Exploration Systems, while restricting spending on the Asteroid 
Redirect Mission. A heavy-lift capability of 130 mT (e.g., Saturn V 
class) is highly beneficial for a human return to the Moon and a 
necessity for eventual human missions to Mars. Lacking such a 
capability would mean doing multiple orbital assembly flights at 
substantial additional cost and risk. The upper stage necessary to 
reach the 130 mT capability continues to be underfunded.
    As a possible offset to the administration's proposed increase for 
Commercial Crew, Congress could direct NASA to adopt a ``leader-
follower'' approach with the final level of funding provided for the 
program. Under this approach, NASA would provide full funding to the 
primary crew award winner to ensure the development of domestic access 
to ISS by 2017, while the second crew system would come online later, 
pending the availability of resources and the progress made by the 
``leader'' and an evaluation of the market for these services.
    Through authorization and appropriations bills, Congress should 
provide clear direction for NASA on an exploration mission for the 
2018-2025 time-frame as SLS, Orion, and other exploration systems 
currently under development begin operations. The Congress should 
direct NASA to focus on the mission concepts for an international 
return to Moon, with private sector partners, in anticipation of a new 
Administration in 2017.
                                 ______
                                 
                               Scott Pace
    Dr. Scott Pace is the Director of the Space Policy Institute and a 
Professor of the Practice of International Affairs at George Washington 
University's Elliott School of International Affairs. His research 
interests include civil, commercial, and national security space 
policy, and the management of technical innovation. From 2005-2008, he 
served as the Associate Administrator for Program Analysis and 
Evaluation at NASA.
    Prior to NASA, Dr. Pace was the Assistant Director for Space and 
Aeronautics in the White House Office of Science and Technology Policy 
(OSTP). From 1993-2000, Dr. Pace worked for the RAND Corporation's 
Science and Technology Policy Institute (STPI). From 1990 to 1993, Dr. 
Pace served as the Deputy Director and Acting Director of the Office of 
Space Commerce, in the Office of the Deputy Secretary of the Department 
of Commerce. He received a Bachelor of Science degree in Physics from 
Harvey Mudd College in 1980; Masters degrees in Aeronautics & 
Astronautics and Technology & Policy from the Massachusetts Institute 
of Technology in 1982; and a Doctorate in Policy Analysis from the RAND 
Graduate School in 1989.
    Dr. Pace received the NASA Outstanding Leadership Medal in 2008, 
the U.S. Department of State's Group Superior Honor Award, GPS 
Interagency Team, in 2005, and the NASA Group Achievement Award, 
Columbia Accident Rapid Reaction Team, in 2004. He has been a member of 
the U.S. Delegation to the World Radiocommunication Conferences in 
1997, 2000, 2003, and 2007. He was also a member of the U.S. Delegation 
to the Asia-Pacific Economic Cooperation Telecommunications Working 
Group, 1997-2000. He is a past member of the Earth Studies Committee, 
Space Studies Board, National Research Council and the Commercial 
Activities Subcommittee, NASA Advisory Council. Dr. Pace is a former 
member of the Board of Trustees, Universities Space Research 
Association, a Corresponding Member of the International Academy of 
Astronautics, and a member of the Board of Governors of the National 
Space Society.

    Senator Cruz. Thank you, Dr. Pace. And I would note that in 
an afternoon where we are listening to learned scientists, as a 
lawyer, I appreciate your throwing a Supreme Court justice in 
there.
    Mr. Stallmer?

     STATEMENT OF ERIC W. STALLMER, PRESIDENT, COMMERCIAL 
                     SPACEFLIGHT FEDERATION

    Mr. Stallmer. Thank you.
    Thank you, Chairman Cruz, Ranking Member Nelson, and 
members of the Subcommittee and staff. I want to thank you for 
holding this hearing and for providing me the opportunity to 
testify as President of the Commercial Spaceflight Federation.
    CSF is an industry association of leading businesses and 
organizations working to make commercial spaceflight a reality. 
NASA and the commercial sector are partners in America's great 
national enterprise in space. Since the dawn of the space 
program, cooperation between the government and the private 
sector has been critical to our tremendous accomplishments in 
space.
    This cooperation continues to enable us to achieve great 
things, but the relationship has evolved over time. The 
relationship that once defined the United States' nascent space 
program have given way to a more modern and innovative 
approaches to procure a wide variety of necessary capabilities 
and services.
    My written testimony provides detailed examples of these 
successful commercial partnerships, but I would like to quickly 
highlight a few of these areas where this new alliance has 
helped move our Nation's space exploration goals forward and 
areas where we can help with it in the future.
    The pioneering COTS and CRS programs have led to affordable 
and robust domestic cargo access to the International Space 
Station, increasing its utilization for scientific research, 
technology, and development. A variation of this model is being 
applied in the Commercial Crew Program, which is developing 
safe, reliable, and also domestic access to and from low Earth 
orbit for our astronauts.
    Finally, private companies are working on building a 
variety of capabilities to help explore destinations beyond low 
Earth orbit, of which NASA should leverage this support in its 
future exploration efforts. Further expansion of the commercial 
spaceflight industry will create a self-reinforcing ecosystem 
that will make space ours, and it will enhance and strengthen 
our leadership in space.
    For the past 6 months, I have made it my priority to 
personally visit all of our member companies all over this 
great country of ours, from Midland to Mohave, from Seattle and 
the Florida space coast, and here is what I have seen: U.S. 
suborbital companies are leading the development of reusable 
vehicles, creating versatile platforms to service diverse 
markets for research, space tourism, education, and other 
applications. Orbital providers are increasing access to space 
for a wide variety of customers, including small-sat, national 
security payloads, and geostationary communications satellites.
    This is a positive trend for the United States. After 
decades of decline, we are finally recapturing market share in 
the commercial launch sector. In order to support the growth in 
the launch activities, states, I should say, states have been 
competitively investing in commercial space supports to ensure 
their state economies have a key role in this 21st century 
business.
    Finally, within our grasp in space are nearly limitless 
resources of great commercial value here on Earth. These 
resources can also be used to help us press onward as explorers 
deep into the cosmos. Several companies are working to unlock 
these resources.
    As you can see from this growing commercial ecosystem, it 
is not a surprise that we are experiencing private sector 
investment unlike anything we have seen in history. But to 
continue this progress, we need thoughtful commercial 
procurement policies and regulatory certainty. Congress must 
set policies that encourage growth and innovation in the 
industry and maintain the U.S. space sector's competitive 
advantage.
    As you prepare to reauthorize the Commercial Space Launch 
Act, you can help provide critical updates: extending the 
regulatory learning period that helps our industry innovate 
rapidly toward ever safer vehicles in practice; solidifying 
launch indemnification, which is critical to the 
competitiveness of our launch industry in the global 
marketplace; and addressing the questions of how to handle 
government astronauts in commercial vehicles and so forth.
    These and other important issues are addressed in my 
written testimony. Codifying these policies increase our global 
competitiveness, promote industry growth, and strengthen our 
Nation's industrial space base and keep the United States at 
the forefront of space technology.
    The commercial space sector is and will continue to be a 
valuable partner in America's ever more ambitious missions to 
expand our reach in space. I have three young children who 
regularly ask me, ``Daddy, when can we go to space?'' And I am 
confident, from working in this industry, that the answer is, 
``Very soon.''
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Stallmer follows:]

          Prepared Statement of Eric W. Stallmer, President, 
                   Commercial Spaceflight Federation
    Chairman Cruz, Ranking Member Udall, and Members of the 
Subcommittee, thank you for holding this hearing and for providing me 
the opportunity to testify as President of the Commercial Spaceflight 
Federation. The Commercial Spaceflight Federation (CSF) is the industry 
association of leading businesses and organizations working to make 
commercial spaceflight a reality. Our mission is to promote the 
development of commercial spaceflight, pursue ever higher levels of 
safety, and share best practices and expertise throughout the industry.
    I hope to provide three main take-aways from my testimony today 
providing insight on the sector's past, it's present, and how lessons 
learned from these eras can be applied to the future for the growth of 
America's space program.
    First, NASA and the commercial sector are partners in America's 
``great national enterprise'' in space. Since the dawn of the space 
program, the partnership between government and the private sector has 
been a testament to our accomplishments in space. The partnerships 
early in the U.S. space program were different than the partnerships we 
see and encourage today, but this is owed to the evolution of our 
Nation's space program and the continued evolvement from both parties. 
Later in my testimony, I will discuss successful commercial 
partnerships and how these can be applied to our Nation's space 
exploration goals moving forward.
    Second, further expansion beyond the government will create an 
ecosystem that will make space ours, and will enhance and strengthen 
U.S. leadership in space. Many of CSF's member companies are working to 
push Earth's economic sphere outward from Low-Earth orbit and beyond. 
Suborbital platforms will provide an avenue for space tourism and 
research that could not be conceived otherwise. Orbital vehicles will 
increase utilization of the International Space Station (ISS) for 
industry and research institutions in addition to increasing 
destinations in low-Earth orbit (LEO). Beyond LEO activities span the 
spectrum from mining celestial bodies for resources valuable to Earth 
to habitats on the Moon. All of these activities and more are creating 
a market in space that will continue to grow.
    Finally, policies must be in place to encourage growth and 
innovation in the industry and keep the U.S. space sector competitive. 
Tools such as contracts using Other Transaction Authority (OTA) can 
continue this trending growth. The Commercial Space Launch Amendments 
Act (CSLA) and export control are other policy areas ripe for reform 
that will shape the advancement for the industry. Later in my 
testimony, I will discuss how Congress and industry can work together 
on these important policies to encourage progress and not hinder it.
Public-Private Partnerships
    The Federal Government and the commercial space sector have worked 
together in various capacities since the beginning of America's space 
exploration program. From Mercury through Apollo, NASA's success in the 
space race was not without the help of commercial companies such as 
Bell, North American Aviation, and what was then known as the Grumman 
Aircraft Engineering Corporation. This era saw collaboration with 
industry in which NASA engineers would design the systems and 
competitively bid out portions of the project. While this proved to be 
a successful method for developing specially-designed systems, it has 
become clear that there are a wide variety of necessary capabilities 
and services that do not fit that template.
    Since the 1990s, a new wave of public-private partnerships has 
emerged to complement traditional contracting methods. ``Commercial 
Procurement'' now allows the government to assume the role of customer 
while still being involved in the development of the system. However, 
the government is no longer the sole customer and its role changes from 
top-down control to promoting and stimulating the development of 
commercially-owned capabilities. By spreading costs across multiple 
users, prices can be reduced, saving the government money while also 
increasing space's economic return. This approach allows NASA and the 
commercial sector to become true partners in America's ``great national 
enterprise'' in space. The public and the private sector together will 
collectively advance our Nation's reach into the cosmos.
Suborbital
    The NASA-commercial partnership starts in the shallow waters of 
space, in the suborbital realm. Initiatives such as NASA's Flight 
Opportunities Program (FOP) use commercial reusable vehicles for 
technology development that will allow and enable future missions to 
new destinations, keeping the U.S. at the forefront of exploration 
technology. In addition to robustly testing new technologies, these 
platforms offer brief access to the space environment for scientific 
data collection. Many researchers see them as stepping stones to using 
the International Space Station (ISS), increasing its utilization and 
raising its commercial success. Made In Space, a company based out of 
Silicon Valley, used FOP to test its 3D printers operation in 
microgravity for a fraction of the price of an orbital mission. After 
testing and building confidence on Earth, the company sent one of its 
printers to the ISS where it is currently operating. To date, the 
company has printed 14 objects from a calibration coupon to a ratchet. 
This perfectly exemplifies the success of a public-private partnership 
developing technology for future exploration, where astronauts could 
create a spare parts to support ambitious new missions.
Low-Earth Orbit
    The ISS has been described as the crown jewel of the United States 
space exploration enterprise; it's a platform to perform a wide variety 
of experiments focused on life and physical sciences, human research, 
exploration research, and technology development. Almost a decade ago, 
in the NASA Authorization Act of 2005, Congress codified a new 
agreement between NASA and the U.S. commercial space industry to better 
achieve the Nation's space exploration goals together. Congress 
designated the U.S. segment of the International Space Station a 
national laboratory, no longer the sole domain of NASA, but rather a 
shared resource to be utilized by both the Federal Government and 
private industry. An excellent example of the ISS being used in this 
fashion is the Bigelow Expandable Activity Module (``BEAM''), which 
will be launched and attached to the ISS later this year. Bigelow 
Aerospace has invested hundreds of millions of dollars in bringing 
expandable habitat technology to fruition, and, in partnership with 
NASA, the ISS will be utilized as a platform to demonstrate this vital 
new technology. Additionally, in anticipation of the Space Shuttle's 
retirement, Congress directed NASA to partner with the commercial space 
industry to develop cargo transportation capabilities to the 
International Space Station.
    To that end, NASA created the Commercial Orbital Transportation 
Services (COTS) Program to stimulate efforts within the private sector 
to develop safe, reliable, and cost-effective transportation 
capabilities to the ISS and LEO. COTS competitively funded two 
commercial companies--SpaceX and Orbital ATK--through cost-sharing, 
milestone-based, Space Act Agreements to help develop these 
capabilities. The program tied payments to the successful completion of 
contractually agreed upon milestones, and incentivized companies to 
contribute a significant amount of their own funds towards development. 
Following up on the success of the COTS program, NASA entered into a 
separate set of FAR-based, firm-fixed-price contracts with the 
companies to supply a series of cargo missions to the ISS through at 
least 2016. As of last month, 8 resupply missions have successfully 
been completed, with 12 more to come.
    The pioneering COTS and CRS partnership has benefited American 
human spaceflight efforts in several ways, including:

  1.  Providing timely critical supplies to ISS crew members;

  2.  Increasing the utilization of the ISS for research experiments 
        and technology development;

  3.  Developing affordable, fixed-cost domestic access to the ISS; and 
        providing

  4.  Dissimilar redundancy to assure continued critical access through 
        the life of the program.

    A variation of this model is being applied in the Commercial Crew 
Program (CCP), which is enabling American companies to develop reliable 
and cost-effective human access to LEO, and will return human launch 
capabilities back to U.S. soil. NASA is currently paying more than $70 
million per seat for rides to the ISS for our astronauts on Russian 
Soyuz vehicles, and the price increases every year. Commercial Crew 
will allow NASA to purchase cost-effective domestic flights for their 
astronauts while eliminating dependence on the Soyuz. These 
transportation systems will also allow NASA to expand the ISS' crew 
size to its planned seven persons, roughly doubling U.S. crew time for 
utilization. This will allow much more scientific research and 
technology development activities to be conducted on our national lab. 
Additionally, with the private sector providing more economical 
transportation to LEO, NASA's budgetary resources will be freed up to 
pursue additional avenues for the further exploration of space.
Beyond Low-Earth Orbit
    As the commercial space industry has taken a larger partnership 
role in exploring LEO, it has enabled NASA to focus on extending human 
presence beyond LEO. NASA has continually stated that the United 
States' long-term human exploration goal is to send humans to Mars, 
with precursor missions along the way to prepare for trips to the Red 
Planet. To that end, NASA is building a new heavy lift rocket, the SLS, 
and Orion crew capsule, to take astronauts beyond LEO in the early 
2020s. The development of a heavy lift launch vehicle and crew capsule 
are important pieces of the United States beyond LEO human exploration 
plans, but other complementary pieces are needed as well. I'd like to 
reference NASA Office of Inspector General's 2014 Report on NASA's Top 
Management and Performance Challenges on this matter. The November 2014 
report states:

        ``even after the SLS and Orion are fully developed and ready to 
        transport crew, NASA will continue to face significant 
        challenges concerning the long-term sustainability of its human 
        exploration program. For example, unless NASA begins a program 
        to develop landers and surface systems, NASA astronauts will be 
        limited to orbital missions. In the current budget environment, 
        however, it appears unlikely that NASA will obtain significant 
        funding to begin development of this additional exploration 
        hardware anytime soon, effectively delaying such developments 
        into the 2020s. Given the time and money necessary to develop 
        landers and associated systems, it is unlikely that NASA would 
        be able to conduct any manned surface exploration missions 
        until the late 2030s at the earliest.''

    I highlight this not because I believe it is a problem for our 
beyond LEO exploration goals, but rather because I believe it is an 
opportunity that should be leveraged. While the audit correctly 
surmises that there is unlikely to be enough resources in the near- or 
mid-term for NASA to develop a lander and surface systems through 
traditional approaches, it fails to recognize the significant 
contributions that the commercial space industry is making in these 
areas. Private companies like Moon Express, Bigelow Aerospace, Masten 
Space Systems, and Golden Spike are all building capabilities to 
explore and commercially develop the Moon. These companies, and others, 
are interested in the Moon because it offers the potential to support 
near-term opportunities for economic growth. To NASA's credit, it has 
begun exploring public-private partnerships for beyond LEO exploration 
via the Advanced Exploration Systems (AES) program which is supporting 
initiatives such as Lunar Cargo Transportation and Landing by Soft 
Touchdown (CATALYST). In the FY 2015 appropriations bill, Congress 
included language that strongly reaffirmed the importance of the 
private sector contributing landers, habitats, and propulsion systems 
to beyond LEO human spaceflight through public-private partnerships as 
is occurring via the AES program. Hardware developed by AES will serve 
a critical role in ensuring that NASA can utilize the transportation 
capacities of SLS and Orion to conduct surface missions to the Moon and 
eventually Mars. We believe that including the commercial space 
industry as an early partner in reaching U.S. human exploration goals 
beyond LEO is a logical extension of the successful COTS and CRS 
partnership model proven in LEO, and can help alleviate budgetary 
constraints and compliment the Agency's investment in its 
transportation systems.
    Commercial companies are also exploring other destinations beyond 
LEO, like asteroids. For example, Planetary Resources is working to 
identify, track, analyze, and eventually interact with near-Earth 
asteroids. While these companies and others work to supplement NASA 
programs for exploration, even more importantly, they are working to 
create a sustainable ecosystem in space. NASA continues to play an 
invaluable role in creating early markets for and in the support of 
American entrepreneurial companies at the edge of competitive 
technology areas such as spaceflight but much more can be done to 
incubate markets in space.
    To conclude, Congress can further support the growth of the 
commercial space industry by promoting a true partnership between the 
Government and private sector. Government investment in leading edge 
launch technologies will remain essential, but it is vital to the 
industry that taxpayer dollars not compete with private investment. The 
industry acknowledges that decisions regarding when to exit Government 
funded programs and when to rely on commercial capabilities are 
difficult ones. In light of this, the commercial space launch industry 
would like to maintain an ongoing dialogue with Congress and with the 
leading U.S. Government R&D agencies on the most effective way for 
government investment to ensure U.S. leadership without competing with 
commercial operators.
Commercial Space as a Business
    This economic model is not a new one. When one looks through the 
20/20 lens of history, you will find that a flourishing commercial 
industry enables the long-term well-being of a nation's strategic 
goals. In the eighteenth and nineteenth century, Great Britain was the 
leader of the open seas. It was home to the largest mercantile marine 
afloat, more than half a million tons of shipping, and a Royal Navy 
that fielded a force larger than the fleets of Spain and France 
combined.\1\ This was by design, not accident. By thoughtfully passing 
maritime laws that encouraged the growth of its commercial shipping 
industry, the British built the crucial foundations of a sustainable 
maritime power: a thriving shipbuilding industry and the maintenance of 
a pool of experienced seamen. As Alfred Mahan more succinctly put it, a 
thriving commercial shipping industry is the force that naturally 
produces a healthy navy.\2\
---------------------------------------------------------------------------
    \1\ Sugden, John (2011). Nelson: A Dream of Glory. Pimlico.
    \2\ Cropsey, Seth, & Milikh, Arthur. Mahan's Naval Strategy: China 
Learned It. Will America Forget it? World Affairs (March/April 2012).
---------------------------------------------------------------------------
    In the 1980s President Reagan and leaders in Congress shared a 
similar vision for American commercial leadership in space. Mr. 
Chairman, it will probably not surprise you that the first commercial 
launch in the United States was conducted in Texas, from Matagorda 
Island in 1982. Two years later, in 1984, the Reagan Administration 
created the Office of Commercial Space Transportation and then Congress 
enacted the Commercial Space Launch Act to centralize the function of 
licensing and promoting the new commercial space launch industry. Since 
its establishment, the commercial spaceflight industry has grown 
tremendously to include a diverse range of companies and applications. 
The commercial space sector is an emerging high-tech industry that has 
continued to make significant progress in the past few years in terms 
of growth in revenue, employees, and capability. Orbital companies such 
as SpaceX, Sierra Nevada Corporation, Blue Origin, and Boeing have 
begun testing their crew vehicles that will fill the gap in U.S. human 
spaceflight capability to LEO. SpaceX has already docked a version of 
its Dragon capsule to the ISS several times under NASA's CRS program. 
Additionally, reusable technology will have the potential to further 
disrupt the launch industry to bring even more business to U.S. soil.
    U.S. suborbital companies are leading the development of reusable 
manned vehicles. Virgin Galactic is working on the second version of 
its SpaceShipTwo vehicle and XCOR Aerospace has begun assembling its 
Lynx suborbital vehicle and is conducting tests on its propulsion 
system. Blue Origin has also successfully conducted a test of its 
pusher escape system for its orbital and suborbital crew capsule. Late 
last year, the StratEx team broke Felix Baumgartner's record skydive 
through technology development and advancements that will be 
incorporated into World View's future commercial balloon platform. 
These and other suborbital platforms are gearing up to offer flights to 
private individuals and researchers, and their scientific, industrial 
and educational payloads to altitudes that were previously unachievable 
for the everyday consumer. Each month brings new accomplishments for 
these companies, and each stride forward builds the robust market for 
research, space tourism, education, and other applications.
    Going beyond public-private partnerships with NASA, the commercial 
launch industry's activities continue to grow rapidly. In Fiscal Year 
2013, Federal Aviation Administration's Office of Commercial Space 
Transportation (AST) licensed and permitted 18 commercial launches, a 
six-fold increase over the previous year. To support this growth, 
states have been competitively investing in commercial spaceports to 
ensure their state economies have a key role in this 21st century 
business. States who have developed or are developing commercial 
spaceports include, Alaska, Texas, New Mexico, Florida, Virginia, 
Colorado and California. These facilities provide competing venues to 
test equipment, launch orbital and suborbital missions, and train crew 
and spaceflight participants in the types of environments they will 
experience in space. Companies around the country are also supplying 
spacecraft parts and subsystems, ranging from screws and fasteners to 
environmental control systems, engines and spacesuits.
    These and other entrepreneurial activities in the commercial space 
sector are reinvigorating our space industrial base. Domestic launch 
competition is lowering the cost and increasing the reliability of our 
access to space, vital for launches needed for national security. 
Additionally, the private sector is working towards replacing 
international dependence for national security, evidenced in the work 
being done by Blue Origin and United Launch Alliance in their BE-4 
engine, a replacement for the Russian RD-180 engine.
    While strengthening our Nation's industrial base, the commercial 
sector is creating new cost-effective applications for exploring space 
and creating a better life for people on Earth. The commercial space 
industry is creating new opportunities for humanitarian applications in 
addition to commercial business. Planet Labs' fleet of small satellites 
will be providing daily images of Earth that can be used to evaluate 
project sites, monitor crops, as well as observe forest fires for early 
detection and warning. Other companies such as OneWeb and SpaceX are 
planning to provide broadband Internet access to even the most rural 
parts of the world through the deployment of affordable small satellite 
constellations.
    Other companies are looking to use space for resource utilization 
to further space exploration and to better life here on Earth. While 
the price tags on platinum metal groups remain high, they are used to 
manufacture 1 of 4 goods we use every day, from electronics to medical 
devices. The major sources of these metals are concentrated overseas in 
regions of Africa and Russia. One company aimed at mining asteroids has 
the potential to increase our access to the resource. Planetary 
Resources is currently developing a platform to detect and mine 
platinum-rich asteroids. Just one of these asteroids contains more 
platinum than has been mined in the entire history of humankind. This 
technology will also play a critical role in detecting near-Earth 
asteroids in the future for science and the safety of our planet.
    The industry is also providing new opportunities in research, 
science, and resource utilization. Little is known about the 
mesosphere, often called the ``ignorosphere,'' which lies above the 
maximum altitude for aircraft and balloons and below the minimum 
altitude for orbital spacecraft. New suborbital reusable platforms that 
will come online in the next few years will provide access for in-situ 
data for this portion of our atmosphere, allowing us to increase our 
understanding of phenomena such as red sprites and noctilucent clouds 
that occur in that realm.
    Finally, the commercial space industry itself is creating thousands 
of high-tech jobs in the U.S. In addition, the sector is creating a 
renewed interest in STEM careers. The industry is exciting the next 
generation and allowing them to personally participate in the Nation's 
journey into space. With new commercial space platforms, students can 
build and fly their experiments into space on suborbital platforms, 
build and launch their own satellites, and even use flight hardware 
already in space for classroom projects. Inspiring the next generation 
is inspiring our future problem-solvers and the entrepreneurs that will 
shape our lives in the coming years. As Jeff Bezos, the founder of 
Amazon and Blue Origin, so eloquently put it:

        ``Millions of people were inspired by the Apollo Program. I was 
        five years old when I watched Apollo 11 unfold on television, 
        and without any doubt it was a big contributor to my passions 
        for science, engineering, and exploration.''

    In order to continue this trend of technological advancement, we 
must provide the best possible environment for the burgeoning 
commercial space sector.
Policy
Other Transaction Authority
    Policies that have shown success in the past should continue to be 
used to encourage growth and success in the future. The COTS model, 
which enjoyed bipartisan support under NASA Administrator Mike Griffin, 
is representative of the successful public-private partnership that 
uses mechanisms to encourage private sector innovation while still 
satisfying the strict requirements of government procurement. The 
program used milestone-based Space Act Agreements through its Other 
Transaction Authority (OTA) rather than the traditional Federal 
Acquisition Regulations (FAR) to keep costs low and performance high. 
Traditional, cost-plus FAR contracts can, in some instances, focus too 
much on needless bureaucracy and take attention away from performance 
and safety. Conversely, firm fixed price agreements allow the 
objectives of the contractor and the agency to be aligned in an 
affordable fashion, shifting the burden of cost overruns onto the 
private sector. With these performance based payments, the contractor 
is highly incentivized to be efficient and keep costs low in its 
development. Additionally, the agency is restricted from changing the 
direction mid-program, which tends to cause delays and increase the 
program's lifetime as well as the cost to the taxpayer.
    At the same time, we support Congressional transparency measures 
regarding Space Act Agreements (SAAs). Creating a database of SAAs 
(with proprietary information redacted) that companies and the public 
can access allows for both NASA officials and private sector entities 
to learn from past agreements and improve the future use of SAAs.
    For these reasons and reflections of past success, I urge Congress 
to encourage the continued use of OTAs to allow commercial companies to 
create future partnerships and products that will enhance government 
capabilities, safety, and affordability.
Federal Regulations
    Policies in Federal regulations must also be taken into account to 
continue the trend of innovation and growth from the commercial space 
sector. Congress has been very cognizant of the needs for these 
policies dating back to 1984 when the Commercial Space Launch Act 
authorized the Secretary of Transportation to license and promote 
commercial launch activities. Since its inception, the office's mandate 
was to promote the commercial space industry and ensure the safety of 
the uninvolved public. It has been years since its last full 
reauthorization and consequently, CSF believes that the regulatory 
processes to ensure a favorable and safe development of industry need 
to be revisited. I will talk about a few of those regulatory issues 
next.
    Congress approved the Commercial Space Launch Amendments Act in 
2004, instituting a human spaceflight regulatory ``learning period'' to 
allow for both industry and FAA AST to learn, quickly and jointly, how 
to best promote safety. The stated learning period gave the Federal 
Aviation Administration's Office of Commercial Space Transportation 
(AST) freedom to regulate with the stipulation that all regulations for 
the safety of passengers must be based on an event that led to serious 
injury or that had the potential of serious injury. In addition, 
commercial human spaceflight operators use an informed consent regime 
that requires them to inform spaceflight participants of the inherent 
risks of spaceflight and the specific safety record of the vehicle type 
for their flight. Participants are also informed that the government 
has not certified the vehicle as safe, and must sign a consent form 
before flight.
    The initial learning period put in place was 8 years from the 
enactment of the CSLAA of 2004, expiring in December 2012. Congress 
expected that commercial operations would immediately follow the 
flights of SpaceShipOne, and this eight-year period would be filled 
with commercial launches that would help develop a knowledge base from 
which FAA could regulate intelligently. However, because of the due 
diligence of the companies in designing and building the safest 
possible vehicles, and their efforts to raise private investment, there 
were no commercial human spaceflights in that eight-year period. 
Recognizing the important purpose served by the learning period, in 
2012 the FAA Modernization and Reform Act extended it to October 1, 
2015 (the duration of the broader FAA reauthorization). The importance 
of the learning period is to create a regulatory regime based on data 
from actual flights, rather than speculative analysis based on other 
vehicles or technologies. Initial test flights of crewed suborbital 
vehicles began in 2013 and regular operational flights are expected in 
the next couple of years. Additional time and data are required to 
determine appropriate regulations for the industry and we ask that the 
original eight-year learning period be restored to allow for innovation 
to grow and for safety to improve in the long term.
    The Commercial Space Launch Act separates space transportation 
service customers and their liability responsibilities. For example, 
customers who purchase a launch for their payload, or who sponsor the 
launch of a spaceflight participant, are required to be protected by 
the obligatory third-party damage insurance policy and are required to 
execute a mutual waiver of claims against all other parties. These 
customers are also indemnified from excess claims by the Federal 
Government. However, spaceflight participants are explicitly excluded 
from this regime.
    The launch of a human spaceflight vehicle that carries only one 
participant could in fact be entirely funded by that person, and 
therefore the participant could be exposed to third-party claims. It is 
not logical for the law to put spaceflight participants at greater 
financial risk for partaking in human spaceflight activity, as many of 
them could be researchers, employees of the customer, or winners of a 
promotional contest and would not otherwise have substantial resources 
to pay excess claims should they arise. The spaceflight participant 
should be protected by insurance and, if needed, government risk-
sharing from third party claims that may arise due to their flight. 
Moreover, the participants should be included in the mutual waiver of 
claims that protects all other parties in the launch from each other. 
For these reasons, CSF believes that the spaceflight participant should 
be included in all parts of the liability regime.
    In 1988, Congress put in place a ``risk sharing regime'' to prepare 
for any damage caused to uninvolved third parties from FAA-licensed 
commercial space activities. This regime requires commercial space 
operators to take on stringent financial responsibilities by purchasing 
insurance or demonstrating available financial resources to cover any 
third-party damages up to the Maximum Probable Loss (MPL), calculated 
by the FAA pursuant to Federal regulation. In exchange, in the event of 
an extremely unlikely event of an accident that causes damage above the 
MPL, the Federal Government agreed to seek an expedited appropriation 
to cover damage above the insured amount. This ``risk-sharing'' regime 
has never been activated since its enactment in 1988. However, it is a 
necessity for U.S. launch companies to more effectively compete with 
foreign launch companies whose own governments provide even stronger 
protections. CSF strongly urges Congress to permanently extend the 
risk-sharing regime.
    With the rapid growth in the number of state spaceports, which are 
owned and operated by state governments much like regional commercial 
airports, it is also important that the Commercial Space Launch Act be 
updated to extend the scope of property insurance coverage expressly to 
the property of State and local governments associated with licensed 
spaceports. This change would provide much needed clarity to the 
insurance coverage for state spaceports and encourage more investment 
in space launch infrastructure throughout the U.S.
    Commercial launch operators are highly focused on developing 
concepts of operation that offer maximum operational flexibility to 
launch when needed, as well as to maximize affordability. In order to 
accomplish this, it is essential to avoid parallel coordination and 
approvals among multiple agencies wherever possible. In addition, there 
is a compelling need to streamline the regulatory process and utilize 
commercial practices to the greatest extent possible. Finally, 
commercial launch providers must have the opportunity to avoid the 
dictated use of mandatory range services, and be provided the 
opportunity to self-perform or subcontract to the most efficient 
provider that is able to meet the requirements. These attributes are 
what will ultimately draw commercial customers to establish launch 
operations at existing launch ranges.
Export Control Reform
    We commend Congressional authorization to modernize the United 
States Munitions List (USML) and the Administration's prompt use of 
that authority. Placing items deemed `dual-use' on the Commerce Control 
List (CCL) will allow them to be more appropriately regulated. 
Commercial communications satellites will especially benefit from being 
regulated under the Export Administration Regulations (EAR) due to 
their broad civilian applications. With this reform, the American 
commercial satellite industry will become more competitive in the 
international market, grow our Nation's space industrial base, and 
bring high-tech jobs back to the US. However, the devastating impact 
that ITAR restrictions had on the well-established commercial satellite 
industry over the past fifteen years is a demonstration of the damage 
that overly broad ITAR regulation could do to the commercial human 
spaceflight industry. As I stated previously, this industry, much like 
the satellite industry, has the potential to greatly contribute to our 
space industrial base, a major asset to our national security.
    The U.S. is currently a leader in commercial spaceflight and to 
continue this leadership, we must take a look at adapting our export 
control environment with the evolution of commercial technologies. 
Companies that wish to operate their vehicles from allied countries are 
running into a major hurdle due to the ``presumption of denial'' policy 
for MTCR Category I items. The Missile Technology Export Committee, a 
Department of State agency that presides over the export of MTCR 
equities, has stated that their primary concern is ensuring appropriate 
safeguards are put in place to protect missile technology, regardless 
if an item is controlled on the ITAR or the EAR. Because of this 
position, we believe the MTCR ``presumption of denial'' policy is an 
issue that must be addressed in addition to those pertaining to ECR 
ITAR revisions. The MTCR Guidelines state that their purpose is to 
limit the risk of non-proliferation of weapons of mass destruction 
(WMD) by controlling transfers that could make a contribution to 
delivery systems of those weapons. The Guidelines are ``not designed to 
impede national space programs or international cooperation in such 
programs. . .'' Since the MTCR has been established, space programs 
have expanded beyond the governmental domain into the commercial 
domain, and the regime is now currently impeding international 
collaboration for a strong global space economy. The difficulties 
incurred to offer U.S. commercial spaceflight services abroad, will 
birth foreign domestic competitors which could ultimately replace 
America's leadership in the commercial space sector and hurt U.S. 
national security interests.
    For this reason, I urge Congress to encourage the Administration to 
perform continued regular reviews to reform USML categories and other 
proliferation measures to adapt to the quickly changing environment of 
commercial technology today in order to enhance both national security 
and the domestic economy.
Conclusion
    When I took over as President of the CSF six months ago, I made it 
a priority to personally visit our member companies all over this great 
nation, from Midland to Mojave, to Seattle and the Florida Cape. I am 
energized and beyond enthused about what I have seen. The Commercial 
Space Industry is alive and well and the United States is leading the 
way. We are experiencing a level of private sector investment unlike 
anything we have seen in history, and its because these investors see 
that the expansion of the economic sphere into space is real and very 
close.
    As you debate legislation this year, I would implore you to think 
of the commercial space industry as a valuable and tremendous partner 
that will continue to help the United States achieve its ever-more-
ambitious missions in space, and codify the competitive policies that 
will maintain the domestic commercial space industry's global 
leadership for years to come.
    I have three young children that constantly ask ``when can we go to 
space?'' I am very confident from working in this industry that the 
answer is, ``very soon.''

    Senator Cruz. Thank you very much.
    And I am going to begin by deferring to Senator Nelson for 
the opening questions.
    Senator Nelson. Thank you, Mr. Chairman.
    And, Mr. Stallmer, my congratulations to your commercial 
spaceflight sector, because they are being very successful
    Mr. Stallmer. Thank you very much, sir.
    Senator Nelson. Indeed, now with the competition proceeding 
for the commercial crew, we are seeing a lot of innovation 
coming out, and it is going to be exciting, and this will all 
be coming more and more into the focus of the American public 
over the course of the next couple of years.
    I wanted to ask you, how important do you think extending 
the ISS beyond its existing termination date in law, which is 
2020, how important is that?
    Mr. Stallmer. It is certainly an important step forward. It 
is our gem of a national laboratory. The amount of research 
that has taken place on the ISS is incomparable. I was talking 
to my colleague Mr. Elbon today of some of the things in his 
testimony. On the scientific and medical research that is being 
conducted up there, the practical applications here on Earth 
are just incalculable.
    The other great aspect of the International Space Station, 
as it is today, is the partnership that it has with the 
commercial sector on the experiments that we are doing.
    I was tremendously inspired recently by a trip out to the 
West Coast, a company called Made in Space, who, through 
several NASA programs, through the Flight Opportunities 
Program, was able to build and test 3D printers, first on the 
suborbital level and then these 3D printers are up in space 
right now on the International Space Station.
    And it came to a point where the astronauts on the 
International Space Station needed a five-eighths inch ratchet, 
didn't have it. And they were able to, on the ground from Ames, 
California, send up the image of this ratchet, and they were 
able to print it right there on the Space Station. Fantastic.
    That is the kind of technology, that is the kind of 
innovation that we are seeing through these partnerships 
through the International Space Station, but the commercial-
public partnerships. So I am very inspired by that.
    Senator Nelson. Dr. Pace, how could we encourage our 
international partners to help us continue the Space Station 
beyond 2020?
    Dr. Pace. Thank you.
    I think, first of all, the U.S. has already taken the first 
really important step, which is to have itself propose to lead 
the effort to go to 2024 and to work with the other partners to 
make that possible. So I think it was very important for the 
U.S. to move first on that. We are, I think, the indispensable 
nation in that regard.
    The second thing I think we can do is we can help our 
partners show how to improve utilization on the Station, in 
part by some of the innovative things that the commercial 
industry is able to do.
    At my university last week, we had a workshop--when the 
Federal Government was closed by snow, our university was 
open--for a company called NanoRacks, which is putting small 
CubeSat-size payloads aboard the Space Station. And what was 
very interesting about it is there has been this creation of, 
as Mr. Stallmer put it, kind of an ecosystem around the reality 
of the government facility--stable, available. Then a whole 
bunch of other commercial people had been able to build around 
it, so that a small education establishment was able to go from 
signing a contract to deploying a small satellite in the space 
of less than 9 months. That is an absolutely amazing turnaround 
time, but it was made possible by the private-sector 
innovations working with a stable essentially government 
facility.
    When the Antares vehicle was lost at Wallops, the company 
was able to work quickly to re-manifest virtually all of those 
payloads and is able to find ride-share opportunities for some 
other satellites.
    So the innovation that has gone on with the private sector 
is aiding and supporting the conduct of research and 
utilization aboard the Station, which I believe, in turn, will 
help our partners see benefits from continuing to 2024.
    I would also have to say that that continuation is not 
guaranteed. Our partners are under great pressure within 
Europe, Canada, Japan, and we all know the volatility in 
Russia. So it is by no means an assured thing; it is very 
fragile. And we need to be looking at what is going to come 
beyond Space Station in order to assure people that they can 
continue on Space Station today.
    Senator Nelson. And, Mr. Elbon, you are right in the middle 
of it. We are counting on you to be one of those means of 
transportation for crew to get us up there. You have a proven 
workhorse that launches a lot of cargo into orbit. And so are 
you very positive about this whole commercial sector maturing 
as we are going forth?
    Mr. Elbon. I am.
    I will put it in this light: Boeing is going through its 
100th-year anniversary as a company. And during that, kind of, 
reflection of that 100 years, you can see the aviation industry 
grow from just a starting, beginning industry to the incredible 
industry that it is today. And I think commercial space is at 
that same pivot point now. The effort that is being done to 
have NASA serve as the foundational customer for that growth is 
similar to the way the government participated in airmail in 
the early days of aviation.
    And so I think that, as we develop vehicles to meet those 
needs, that capability will grow as we go forward.
    Senator Cruz. Thank you very much.
    I would now like to shift to asking each of you, what do 
you see right now as the greatest impediments to the continued 
development and expansion of our commercial crew and commercial 
cargo capacity?
    Mr. Elbon. I would say that having the market develop is 
important. Commercial industries follow the market. So 
extending ISS, continuing the research on ISS, which by itself 
is a great thing independent of commercial crew, provides that 
kind of a foundation and a starting point going forward.
    It is important that we maintain the industry in such a way 
that it is safe and reliable and don't let public opinion erode 
because we have accidents that could have been avoided, for 
example. So we need to keep it as a robust industry moving 
forward.
    Things like the CSLA legislation that helped with the cost 
of insurance for launches are important, that we maintain that 
going forward.
    We need to develop working relationships with regulatory 
agencies like the FAA, similar to the way we do that in 
commercial airplanes. It is a really good partnership today, 
and keeping that going, I think, is important.
    So those are, kind of, things to stimulate the growth of 
the commercial sector, I believe.
    Senator Cruz. Dr. Pace?
    Dr. Pace. Sir, two things: market demand and a predictable 
environment for investment.
    Right now, that demand is predominantly driven by 
government. To the extent that we can see nongovernmental 
demand come for a lot of these activities, things beyond the 
Space Station, then it will be more sustainable.
    But that begs the question of, what comes, really, after 
the Space Station? Although we are talking about extending to 
2025, in aerospace terms, that it just right around the corner.
    And I think one of the things that I worry about, which 
contributes both to the fragility of our political relations 
with other countries as well as the fragility in the commercial 
industry, is, if you are not planning today as to what you are 
going to be doing next, what you are really doing is planning 
to go out of business.
    And so we need to have, I think, very thoughtful 
discussions and decisions very soon as to not only ISS 
extension but also, post-ISS, what does that look like, whether 
in LEO or beyond, because without that, there won't really be 
that investment environment, nor will there be the 
international partner environment.
    So that uncertainty, I think, is the greatest thing we 
could address.
    Senator Cruz. And, Mr. Stallmer, you mentioned in your 
testimony also some suggested reforms in reauthorization of the 
Commercial Space Launch Act. I would welcome your elaborating a 
bit on those reforms.
    Mr. Stallmer. Certainly. Thank you, Senator.
    I think regulatory uncertainty is a major barrier that the 
launch industry could face. With indemnification, it is 
critical for our global competitiveness. Right now, China, 
France, Japan all indemnify far more than the U.S. So that is 
critical right now.
    Extending the learning period. The learning period 
currently is 8 years. If we want to foster this economy, this 
space economy that we have right now and the launch industry, 
we really need to extend that and continue to work together as 
partners, right now with the FAA. Because nothing is more 
paramount to the commercial companies than safety, to 
developing a safe product. If you don't have a safe product, 
you are not going to have a commercial product, a commercial 
business to that extent.
    So the regulatory uncertainty is critical, but also the 
funding, knowing for Commercial Crew. Like yourself, I find it 
completely unacceptable that we have to depend on the Russians 
to launch U.S. astronauts to the International Space Station. 
So any sort of disruption in the Commercial Crew Program, I 
think, would be a tremendous setback.
    I know how much it pained the NASA administrator to have to 
extend those flights on to 2018 for contingency purposes. But I 
think if we continue with the prudent budgetary measures 
through the Commercial Crew program, I think that is one of the 
best ways we can move forward, and especially with the 
Commercial Space Launch Act.
    Senator Cruz. You mentioned concerns about safety. And, 
obviously, there is an element of risk that is inherent in 
space exploration. The safest option would be never to go into 
space.
    And so what is the right way for regulation to balance 
those safety concerns with the desire to continue expanding our 
capability and exploring new frontiers?
    Mr. Stallmer. You have to test and learn. You have to test 
and learn. And we found that out the hard way this past October 
with an experimental test flight. But, as Americans, I think we 
are going to continue to push the envelope. This is what we 
want to do, and we have mentioned our westward expansion goals 
and the manifest destiny of the United States.
    Safety will always be an issue. As my colleague, my 
predecessor once told me--you know, I went down to the Orion 
launch. He goes, you have to remember that 10,000 things can go 
wrong and only 1 thing can go right. And that is something you 
always have to keep in mind.
    But it is the redundancy of safety, of testing, evaluating, 
learning from the testing that you are doing and the data that 
you collect to move forward. And I think the commercial 
spaceflight industry is doing that in spades.
    Senator Cruz. Let me ask the panel a different question. 
What is the shortest time-frame we can reasonably no longer be 
dependent on the Russian Soyuz and also the RD-180? And what 
would be required to accelerate that timeframe to the soonest 
date possible?
    Mr. Elbon. So I will address that from the perspective of 
launching commercial crew.
    We are on a path with CST-100 to be able to launch crew in 
2017. That path is paced now by the internal work that we are 
doing with our suppliers, with our integration and test, going 
through the certification process that will allow us to certify 
that vehicle based on the lessons that we have learned on 
shuttle, on station, so that it is certified and ready to fly.
    Our program at the moment is not being paced by dollars, so 
if the question was hinting at could we apply more money to go 
faster, at this point we need to apply the level of funding 
that we proposed in our contract, and we will be able to 
achieve that on the pace we are on.
    Relative to the RD-180, there has been a lot of discussion 
about the RD-180 today. I would say this. The Atlas V is an 
incredibly dependable launch vehicle as a system. It has had 53 
successful launches, and, in fact, that is the reason we 
selected it as our launch vehicle to get going.
    It would seem that over time it would make sense to work to 
transition away from dependence on the Russians. I would hope 
that we don't do that in a very abrupt way that would cause us 
to impact our national security as a country and also our 
commercial launch industry. So I am hopeful that that is a 
thoughtful process and that we work through that in a way that 
addresses the geopolitical concerns that are out there but also 
the technical concerns of being able to keep launching that 
vehicle.
    Senator Cruz. So how would you define a thoughtful process? 
Because there is always the risk geopolitically----
    Mr. Elbon. Right.
    Senator Cruz.--that particularly if things escalate with 
Mr. Putin, that he decides to use access to space as a weapon. 
And were he to cutoff access to either the Soyuz or the RD-180, 
that would impose significant hardships on the United States.
    So how would you propose we deal with that potential 
threat?
    Mr. Elbon. Well, certainly, we have an inventory of 
existing engines that are available to use. And there are more 
engines on order that are coming. And so, you know, keeping 
that pipeline open as long as is reasonable is good.
    I don't have insight into exactly where it is going, but 
ULA has announced that they are working with another company, 
maybe other companies, for a replacement engine for the RD-180.
    And so, you know, working through that in a way that 
doesn't just declare, ``OK, that is enough, no more,'' but 
using the assets that we have and keeping those assets and that 
pipeline open as long as we can to facilitate a transition.
    Senator Cruz. Dr. Pace, Mr. Stallmer, do you have thoughts 
on these questions?
    Dr. Pace. I think the question depends on when you think 
the immediate risks are.
    If you thought there was a risk tomorrow or even today, 
then the answer is, you know, we have the inventory, you know, 
we have.
    Beyond that inventory, your next bet is you have a very 
expensive option but a very doable option, which is manifesting 
on the Delta.
    Looking beyond that, the answer ultimately, of course, is 
to have a U.S. source. And the proposals, I think, that have 
been put forward for building a replacement engine, a LOX/
kerosene, LOX/methane engine, the numbers that I have heard 
have been on the order of, like, 3 to 4 years that it would 
take to do that. Perhaps that could be accelerated a little bit 
on money, but I think there probably are some parts that you 
can't accelerate, and you are talking 3 to 4 years.
    So if you think that the crisis with Russia is not going to 
go away and is going to be with us for some time to come, then 
the answer, in my view, is to begin development of that engine 
and to do so now. If it turns out that everything works out 
great or we have other options come up, that is fine. But if we 
don't have that option, then we will find our negotiating 
leverage much reduced.
    Mr. Stallmer. Senator, I would add that, as Mr. Elbon was 
saying, one of our companies, a company called Blue Origin, 
founded by Mr. Bezos, they are working right now on developing 
a new engine, I think, to help alleviate the RD-180 problem, 
the BE-4 engine.
    I have been to that facility in Seattle. It is tremendously 
impressive what they are doing out there. As well as traveling 
to the SpaceX facility and what SpaceX is doing with their 
engine technology and as well as with the commercial crew 
vehicle.
    I think they would like to be on line and get us off our 
Russian dependence as soon as possible, but, unfortunately, I 
think that date is no sooner than 2017.
    Senator Cruz. Well, thank you very much, gentlemen. I 
appreciate the testimony you have given. I appreciate your 
being here today. This was, I think, a very productive hearing.
    I would note for each of you the question of regulatory 
uncertainty. It was a question I believe all three of you 
raised. That is a significant concern of mine. And in moving 
forward with reauthorization of the Commercial Space Launch 
Act, regulatory reform is going to be a component that we are 
going to look at.
    And so I would welcome from each of the witnesses your 
specific ideas on reforms that would provide greater certainty, 
accelerate the development of either commercial crew or 
commercial cargo, and expand the commercial capacities we have.
    I will also note that the hearing record will remain open 
for 2 weeks. During that time, Senators are asked to submit any 
questions for the record. And, upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    And, with that, I want to thank each of you for being here, 
I want to thank our witnesses on the first panel, and the 
hearing is concluded.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                      Michael J. Massimino, Ph.D.
    Question 1. Mr. Massimino, your testimony notes the importance for 
NASA of continuing to build and expand its international partnerships. 
You note that the International Space Station, for example, helps bring 
nations together around a common goal of scientific inquiry and space 
exploration. Yet today, the United States obviously has significant 
challenges when it comes to our overall relationship with Russia, a key 
partner for the International Space Station. What is the best way to 
ensure continued cooperation on space issues when our relationship with 
some international partners may make this more and more difficult?
    Answer. If a common goal is shared by the U.S. and an international 
partner then the people working toward that goal will work together. 
Political differences can melt away when a common science or 
exploration goal is shared by two countries. I have seen this to be the 
case at the working levels at NASA where astronauts, cosmonauts, 
instructors, scientists, engineers, and program managers can work very 
effectively together. Stressing the science, engineering, and 
exploration goals that are shared can lead to a better working 
relationship not only in space, but I think in other areas as well 
because we get to know and understand each other better by working 
together.

    Question 2. More generally, how can U.S. space policy help support 
our Nation's broader diplomacy goals?
    Answer. Having a clear shared goal in space exploration, as the ISS 
program has shown for example, can give two countries something they 
can clearly agree on. It gets rid of distractions and lets us focus and 
work together. I think international space projects can be great 
building blocks upon which other agreements and common goals can be 
identified in areas outside of space exploration.

    Question 3. Mr. Massimino, I would like to ask if you could respond 
to criticism from fellow astronaut Walter Cunningham about NASA's role 
in climate research. Mr. Cunningham's written testimony states that 
NASA compromises its scientific credibility by, quote: ``participating 
in the politics surrounding one of the great scientific hoaxes in 
history.'' Do you share this view of NASA participating in a great 
scientific hoax?
    Answer. No I do not. I think we don't have all the answers but I 
think it is an area worth looking into further. It is a large enough 
concern to many scientists who study our climate and to explorers who 
interact with it that it deserves attention. There may be differences 
of opinion and conflicting evidence, but there is enough of a concern 
and the outcome could be devastating. We owe it to future generations 
to take it seriously and determine what we can do to protect our planet 
for our children.

    Question 4. Do you see value in having NASA continue to gather 
climate-related data from space-based observations of the Earth?
    Answer. Yes I do. I think if we consider this to be an issue of 
national importance then I think any agency of our government with the 
ability to help should help. NASA has experts and assets that can help 
to better understand this problem, and determine the extent and reality 
of it as well as what can be done if action is warranted.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                               John Elbon
    Question 1. Former NASA Deputy Administrator Lori Garver has made 
multiple public statements that the Space Launch System is ``wasteful 
and old technology,'' and that it and Orion should be cancelled. One of 
her quotes was, ``Would you really go to Mars with technology that's 50 
years old? That's not what innovation and our space exploration should 
be all about.'' This statement is concerning coming from a former NASA 
deputy administrator. Can you comment on her statement? Are we spending 
tax dollars on outdated technology?
    Answer. The referenced statements by former NASA Deputy 
Administrator Lori Garver are both misguided and inaccurate.
    The claim that SLS and Orion technologies are outdated is a great 
misrepresentation. These systems are being developed to transport 
astronauts further into the solar system than ever before imagined. It 
is incomprehensible that the NASA and contractor teams, with a well-
known reputation to ensure astronaut safety, would compromise this core 
value by not fielding the most technically advanced systems.
    While these systems have ties and resemble heritage systems, the 
employed technologies are state of the art. Where applicable, heritage 
system designs are being updated with advanced design practices, 
materials, manufacturing processes, computer controls. These programs 
represent the cutting edge in human space transportation.

    Question 2. Ms. Garver also said SLS and Orion are jobs programs in 
Congressional members' states and districts--specifically Texas, 
Florida, Colorado and Alabama. Can you discuss the number of companies 
and suppliers involved in SLS and Orion, and how many states play a 
role?
    Answer. The SLS and Orion programs have more than 2,000 suppliers 
in 48 states. This supplier network was developed through competitive 
procurements and each supplier bringing unique technical capabilities 
at the component level. The attention to detail at this level in turn 
enables a highly reliable human space transportation capability.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                               John Elbon
    Question. Commercial human space travel is only just beginning to 
become a reality. Many of the issues faced by the commercial human 
spaceflight industry seem analogous to those faced by the early 
commercial aviation industry. Drawing on Boeing's nearly 100 years of 
experience in commercial aviation, what steps can the Federal 
Government take to help rapidly mature a safe and viable commercial 
human spaceflight industry?
    Answer. Boeing has a long-standing relationship with the Federal 
Aviation Administration (FAA) for the regulation of aircraft safety 
regulations. This relationship has provided the necessary regulatory 
frame work to ensure the level of public safety is maintained to 
sustain the industry's viability. Given the human space transportation 
commercial services market is a fledgling market with a high profile 
and public awareness, ensuring passenger safety will be a critical 
factor governing market growth and success.
    The current approach initially tasks NASA to establish and verify 
safety requirements for the initial commercial crew demonstration 
flights with a transition of these responsibilities to the FAA for the 
follow-on crew transport services. FAA regulation is essential to 
ensuring new commercial entrants to the market will be held to the same 
requirements and standards as those developed for the NASA missions.
    There should be a joint NASA/FAA team established to ensure a 
seamless transition of knowledge between these two government agencies 
until a mutually agreeable regulatory structure is in place. It will be 
necessary to ensure NASA safety protocols are maintained and enforced 
during the transition of NASA sanctioned demonstration flights, and the 
following commercial services flights that FAA will be responsible to 
regulate.
    The Commercial Space Launch Act currently delays the FAA's 
involvement beyond the initial NASA commercial transportation service 
missions. Delaying this regulatory window opens the door to individual 
company judgment regarding safety and unnecessarily jeopardizes this 
industry at the most critical juncture. FAA regulatory involvement will 
protect the fledgling commercial space transportation market which 
could be irreparably damaged by a single flight incident.
    Continued involvement of the Federal Government is needed to ensure 
commercial human spaceflight will rapidly mature into a safe and viable 
industry. Government investments and contracts through NASA to develop 
human transportation capabilities have been solely responsible to drive 
the current progress to realize a commercial space transportation 
market.
    The market for these human transportation services is currently 
limited to two flights per year to the International Space Station 
(ISS) through 2024. This relatively short window of opportunity appears 
insufficient to establish additional market opportunities to sustain 
such capabilities after the retirement of the ISS. It is envisioned 
that after the initial human transportation capability becomes 
operational, additional commercial investment for in-space capabilities 
will significantly increase. Bigelow Aerospace, for example, has been 
developing in-space habitation modules, but has paced their investment/
development on the availability of commercial transportation services. 
An extension of the ISS operations through at least 2028 would provide 
a larger window of opportunity to sustain these fledgling capabilities 
and allow commercial ventures to mature to the point where they could 
sustain a commercial transportation capability post ISS.
    There are also yet to be identified opportunities for commercial 
crew and cargo transportation services to support NASA's deep space 
human exploration efforts. It would be in the best interest of the 
government to fund studies to develop a detailed deep space exploration 
roadmap. This road map could be used to identify potential 
opportunities for commercial services in support of the baseline SLS/
Orion missions. These market opportunities are contingent upon the 
completion of the SLS and Orion system developments and an operational 
flight rate of at least one flight per year.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               John Elbon
    Question 1. Mr. Elbon, I am keenly interested in ways that Congress 
can encourage smarter Federal procurement policies. Last year, I 
partnered with Sen. Moran to help pass the Federal I.T. Acquisition 
Reform Act (``FITARA,'' PL 113-291), which could lead to billions of 
dollars in taxpayer savings through greater use of ``agile'' or 
incremental approaches to procurement. Do you agree with Mr. Stallmer 
that NASA should have the ability to choose from different ``tools'' in 
its procurement ``toolkit,'' such as using Other Transaction Authority 
where appropriate?
    Answer. Yes, we believe NASA should have flexibility to select a 
procurement approach which aligns with the specific resources and needs 
for each procurement. However, there are advantages to a FAR-based 
contracting approach for large scale development programs which ensure 
proper insight and oversight of how government funds are spent. The 
FAR-based procurement also allows the government to impose requirements 
to ensure the delivered products meet the intended purposes. For this 
reason we believe that OTA's be limited to procurements for $50 million 
dollars or less.

    Question 2. Would you like to share any additional thoughts on 
potential improvements to NASA procurement policies?
    Answer. We have been investigating hybrid type contracts as a means 
to reduce overall costs while ensuring risk exposure is not sacrificed. 
This would allow contractors to perform low-risk work at minimal 
margins or on a fixed price basis, and the higher risk elements at 
higher margins or traditional cost plus contracting. Through this type 
of contracting, we believe we could offer the U.S. taxpayer savings 
while not exposing the programs to undue risk exposure.
    A specific risk we currently face in the commercial crew contract 
is ensuring our designs and procedures meet NASA requirements under a 
fixed price contract environment. The aerospace culture is founded in 
cost plus contracting, where requirements were allowed to remain fluid 
with the associated risk covered through the contracting arrangement. 
Both Boeing and NASA are working to ensure requirements are managed in 
a manner which will allow development expediency without sacrificing 
safety.

    Question 3. Mr. Elbon, your testimony highlights some of the 
science coming from the International Space Station, particularly 
related to medical research. Could you share your thoughts on some 
notable technology transfer and commercialization successes that came 
from our Nation's space program?
    Answer. NASA has a long history of technology spinoffs and has a 
dedicated website of the many successes. An example of a well-known 
technology transfer/commercialization is cordless power tools. These 
were developed by NASA for the astronauts to construct the 
International Space Station, and have since become part of our everyday 
life. Other significant contributions to our medical industry include 
Magnetic Resonance Imaging (MRI), and ultra-precise human-robotic brain 
surgery. The International Space Station allows researchers to analyze 
medical specimen reactions to the microgravity environment, which 
provides unique insight of viruses and vaccines. For instance, when the 
Duchene's Muscular Dystrophy crystal was analyzed in microgravity, the 
fundamental structure became much more organized and led researchers to 
discover a previously undetected water molecule in the structure. This 
observation led researchers to develop an inhibitor, something that was 
not possible without the ISS. With the ISS as a National Laboratory, 
space is now delivering intentional science and technology returns 
along with the traditional unintentional spinoff returns that have 
drawn much of the attention.
    An often overlooked technology transfer from the space program is 
the human inspiration and talent generation created by our space 
endeavors. At Boeing we are constantly reminded by our new hires of 
their strong desire to work on the space exploration programs and how 
NASA inspired them to undertake a curriculum in Science, Technology, 
Engineering and Math (STEM). Another observation within Boeing is the 
number of leaders within the corporation which originated from the 
space exploration programs. We believe the great challenges associated 
with these programs inspire these people to push themselves to new 
heights.
    In general the NASA mission continues to push the limits of 
capabilities and technologies to meet the ever increasing mission 
challenges. These challenges are the driving force to challenge our 
best and brightest to create new and unique solutions, and will 
continue to be a solid return on investment--both scientifically and 
also by opening up new commercial markets.

    Question 4. What are the best technology transfer lessons from NASA 
that we could apply to other Federal agencies?
    Answer. Perhaps not a lesson learned, but the ISS offers an 
opportunity to other Federal agencies to leverage the significant U.S. 
investment in the ISS National Laboratory. NASA has established 
Memorandums of Understanding to conduct microgravity research on the 
ISS with both the National Institute of Health and the Department of 
Agriculture. Initial discussions were held to identify potential 
scientific research of interest, but both agencies are without specific 
funding to undertake such research given the current workload and no 
additional funding for such research. This research would be possible 
if a small percentage of these budgets were directed to ISS research 
projects. This research represents potentially game changing 
technologies/capabilities, but there is a limited window of opportunity 
to conduct such research before the ISS is retired.

    Question 5. Mr. Elbon, your testimony notes that the International 
Space Station is a model for international space cooperation. This 
helped bridge the diplomatic divide with Russia after the collapse of 
the Soviet Union. You also note that an American astronaut and Russian 
cosmonaut will fly to the space station next month. This joint mission 
will take place despite the obvious challenges when it comes to our 
overall relationship with Russia. What is the best way to ensure 
continued cooperation on space issues when our overall relationship 
with some international partners may make this increasingly difficult?
    Answer. The best way to ensure continued cooperation on space 
issues is to engage their participation in a deep space exploration 
program based on the fundamental elements of the International Space 
Station, Space Launch System and Orion capsule. The relationships and 
working arrangements developed through the International Space Station 
Program have endured Administrations, sessions of Congress, and the up 
and downs of international relationships. These should be leveraged, 
adapted, and re-energized in support of a deep space exploration 
mission with a goal of sending humans to the Martian surface. This 
undertaking is beyond the financial capability of a single entity, but 
is realistic within a construct of the International Space Station 
agreements and arrangements. The U.S. has been the leader in space 
exploration, and the rest of the space faring nations look to the U.S. 
for direction and leadership.

    Question 6. How can U.S. space policy continue to help support our 
Nation's broader diplomacy goals?
    Answer. A significant lesson learned through the International 
Space Station program is the joint space mission has always transcended 
the international relationship status. At times the joint space 
activities have been the guiding principal to resolve diplomatic 
differences. It appears, with the high profile status of the space 
program and the prestige of participation, each country involved is 
unwilling or unable to take action which might damage one or both. With 
the ISS retirement currently scheduled for 2024, now is the time to 
engage this team on an even more challenging and inspiring mission with 
a goal to expand this community.

    Question 7. Mr. Elbon, the Obama Administration is in the process 
of reforming our Nation's export control system. Your testimony 
discusses how smart reforms can not only improve national security, but 
also increase American exports and job growth. Could you discuss how to 
strike the right balance to ensure that we protect our national 
security while not inappropriately stifling the development of the U.S. 
space industry?
    Answer. Since technology is advancing at great velocity, our 
classification of these technologies may, understandably, be behind. 
It's prudent for industry and government to partner in a re-examination 
of our domestic space products. The goal of the re-examination is to 
ensure we aren't bundling domestic civil space technologies suitable 
for export with technologies we must protect for our national defense.
    If we can segregate sensitive and non-sensitive technologies with 
more fidelity and precision, we can expand our ability to export 
additional space technologies without compromising our vital defense 
capabilities. This would not only provide additional jobs and economic 
benefits, but also increase the domestic space industry base, which 
will ultimately enhance our Nation's civil and defense-related space 
capabilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Dr. Scott Pace
    Question 1. The 1967 Outer Space Treaty requires that the United 
States ``authorize and supervise'' the operations of U.S. companies on 
celestial bodies. Commercial companies are now considering activities 
on the Moon and other celestial bodies, such as asteroids. What level 
of government oversight is appropriate for regulating the operations of 
U.S. companies on celestial bodies and what agency would you suggest is 
best suited to perform that oversight?
    Answer. In my view, the United States needs to create a stable, 
predictable and transparent domestic licensing process for new in-space 
operations in order to create a supportive investment environment and 
to fulfill U.S. obligations under existing international law. The 
United States has done so in the past in areas such as communications 
satellites, space launch, and remote sensing. While it is undesirable 
to create law and regulation for purely hypothetical activities, the 
rapid rate of change in private sector space activities makes it 
important that the law not lag far behind market realities.
    Among the activities that should be addressed are in-orbit 
servicing, privately owned space facilities (manned and unmanned) in 
orbit or on the Moon and other celestial bodies, and the utilization 
and extraction of in-space resources for commercial purposes. There are 
numerous legal questions to be addressed in developing appropriate 
regulations. For example, if resources are intended for return from 
space, would the FAA require a payload review before launch (regardless 
of whether the launch was a U.S. vehicle or the U.S. was a launching 
state) since the return is now under their jurisdiction? What if the 
return is by parachute or means other than a ``vehicle.'' Do we need a 
new or clearer definition of vehicle? Further, if a satellite that is 
licensed by another agency is to be deorbited (e.g., a NOAA licensed 
remote sensing satellite) under rules established in law by NOAA/DOC, 
would that be a ``payload'' that is covered under FAA regulations per 
the Commercial Space Launch Act (CSLA)?
    I believe it is premature to extend DOT/FAA's current jurisdiction 
into space activities that are not clearly related to transportation 
and transport vehicles. Instead, I would suggest a multi-step process:

  1.  Commission a study to provide appropriate recommendations for 
        alternative assignments of regulatory responsibility to Federal 
        departments and agencies, to include DOT/FAA as one option.

  2.  If there is a congressional finding that it is appropriate and 
        within the authority Congress given to a particular department 
        or agency, then regulations could be developed through the 
        normal Administrative Procedures Act (APA).

  3.  If new authorities were needed either for a new private sector 
        U.S. activity or for the regulation of that activity by a 
        particular department or agency, then congressional legislation 
        would be developed. After passage of legislation, the normal 
        APA process would be used.

  4.  Formal rule adopted by the designated department or agency (e.g., 
        DOT/FAA, Commerce, or State).

    Question 2. How would you suggest that the United States address 
its treaty obligations when regulating or establishing property rights 
for companies seeking to extract natural resources from celestial 
bodies?
    Answer. Under international law (i.e., the 1967 Outer Space Treaty) 
the United States is responsible for providing on-going supervision and 
authorization for the space activities of persons subject to U.S. 
jurisdiction or control (e.g., U.S. companies). However, the United 
States lacks a defined licensing regime for in-space operations (e.g., 
satellite servicing, private space platforms, resource extraction, 
etc.). This potentially leaves the United States vulnerable to foreign 
charges that the U.S. is not fulfilling its obligations with respect to 
emerging private commercial activities and could encourage arguments 
for creating a binding international treaty that might try to constrain 
U.S. space activities.
    The United States, as a launching state or state of registry, can 
be held internationally liable for third party damage for activities in 
outer space if found to be at fault in its activities. Presently, the 
United States has not imposed any insurance requirement on commercial 
companies involved in these in-orbit activities. Some companies do 
carry that type of insurance.
    It would be helpful for the Congress to briefly and clearly 
recognize that the United States will meet its commitments under 
international law, but through appropriate national law and regulation 
of private space activities. It would not be necessary to define 
specific regulations as that would need to be the subject of separate 
hearings, legislation, and rule-making. Possible text:

        ``The United States will continue to meet its commitments under 
        existing international law for the authorization and continuing 
        supervision of all private sector space activities under its 
        control or jurisdiction, including in-space operations, through 
        appropriate domestic law and regulation.''

    There are many different types and characteristics of property 
rights that could apply to the utilization and extraction of in-space 
resources. Some property rights (e.g., claiming ownership in fee simple 
of in-situ resources) are likely incompatible with U.S. commitments 
under the Outer Space Treaty (i.e., the rejection of claims of 
sovereignty) while ``functional'' property rights (e.g., use of 
geostationary orbital slots) are consistent with U.S. treaty 
commitments. The most important consideration for supporting commercial 
development of space resources is that there be a stable and 
predictable long-term investment environment, subject to the rule of 
law. In this regard, international acceptance and recognition is 
crucial. A system of limited property rights in space, recognized by 
some if not necessarily all spacefaring states, can and should be 
developed through U.S. international leadership. A first step could be 
an internal U.S. process for accepting claims to space resources 
without prejudice to the final international recognition of those 
claims. A claims registry, open to U.S. and foreign non-governmental 
entities, could be authorized by the Congress and initially housed at 
an existing department or agency (e.g., the Department of State). Such 
a registry should require evidence of actual activities in space or on 
a celestial body to support a claim.
    Lastly, there continues to be a misunderstanding, domestically and 
internationally, that space is a global commons for purposes of 
international law. Some legal experts argue that the use of the term 
``common heritage of all mankind'' in the Outer Space Treaty means that 
the United States accepts space as a global commons; with its space 
activities subject to international input and possible constraint. This 
is not accepted by the United States, as can be confirmed by the State 
Department's Office of the Legal Advisor. Today, the high seas and the 
air above the high seas may be considered a global commons, with 
certain exceptions, but not Antarctica (which is governed by a separate 
treaty), ``cyberspace'' or outer space. With regard to areas like space 
that lie beyond the traditional bounds of national sovereignty, 
international law does not preclude States from creating agreements to 
address specific issues of mutual interest (e.g., resource 
utilization). Thus the use of the term ``global commons'' with respect 
to space creates misleading expectations. It would be helpful for the 
Congress to clarify this point. Possible text:

        ``The United States does not currently recognize outer space as 
        ``global commons'' for purposes of international law.''
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Eric W. Stallmer
    Question 1. The health of the commercial space industry depends on 
incentives to invest in space operations, both in low-Earth orbit and 
possibly beyond. Similarly, Federal agencies must consider the impact 
on investment planning of rules, regulations, and procedures. The 
Administration has proposed continuing International Space Station 
(ISS) operations through at least 2024. Current law permits extension 
through at least 2020. How would extending ISS beyond 2020 impact 
investment decisions within the commercial space industry?
    Answer. As a general rule, bringing more certainty and uniformity 
to U.S. government space policy is a big positive for incentivizing 
greater investment in the commercial space industry. For example, the 
extensions of the ISS to 2024 is the current Administration's policy, 
but is not codified into law. With a new administration to be elected 
next year, if the extension is not codified into law, then the new 
administration could reverse the current policy; this creates 
unnecessary ambiguity and doubt that could slow or reverse recent ISS 
investments. By codifying the extension, Congress would send a signal 
investors, and potential investors, that regardless of the election 
results, they continue to plan their investments through at least 2024.
    With that said, codifying the extension of the ISS to 2024 is only 
one of the factors that investors will weigh when deciding whether or 
not to invest in the commercial space industry. If investors are going 
to invest in an orbital laboratory, rather than a terrestrial one, then 
they will want to know that there will be a continuity in orbital 
facilities--meaning no space station gap. So in concert with codifying 
an extension of the ISS to 2024, NASA, Congress, and the White House 
need to begin working with the private sector to ensure that a new 
facility is developed in time to avoid a space station gap in LEO. 
NASA's Advanced Exploration Systems (``AES'') program has been entering 
into partnerships with the private sector to support new technologies 
such as next-generation habitats that will allow the U.S. to maintain a 
presence in LEO past ISS retirement. Congress should address this in 
their next NASA Authorization.
    Finally, in addition to codifying policy uniformity and orbital 
facility continuity, Congress should increase support for programs that 
drive demand for ISS research experiments and technology development, 
like NASA's Flight Opportunities Program. The expense of the flights 
and the long lead-time required for orbital launches can present a big 
barrier to the maturation of new technologies, a barrier known as ``The 
Valley of Death'', where most new technologies end up on a shelf due to 
lack of available funding. The Flight Opportunities program provides a 
cheaper and more efficient path through the ``Valley'' by increasing 
timely access to affordable commercial available microgravity and high-
altitude atmospheric environments. Many researchers see commercially 
available microgravity and high-altitude platforms as a stepping-stone 
to using the ISS, increasing its utilization and raising its commercial 
success. For example, Made In Space, a company based out of Silicon 
Valley, used Flight Opportunities to test its 3D printers operation in 
microgravity for a fraction of the price of an orbital mission. After 
testing and building confidence on commercial reusable platforms, the 
company sent one of its printers to the ISS where it is currently 
operating.

    Question 2. How have restrictions on property rights to data and 
inventions developed on the ISS affected the attractiveness of the ISS 
as a commercial research platform? What, if any, amendments to the 
policies governing property rights on ISS would you suggest?
    Answer. I agree with NASA's OIG September 2014 ISS report, which 
found that the current ``Patent License and Data Rights Obligations'' 
provision was deterring commercial stakeholders from conducting 
research on the ISS. Congress, NASA, and the commercial space industry 
should work together closely to expeditiously fix this issue and revise 
the current law.

    Question 3. The 1967 Outer Space Treaty requires that the United 
States ``authorize and supervise'' the operations of U.S. companies on 
celestial bodies. How would you suggest that the United States address 
its treaty obligations when regulating or establishing property rights 
for companies seeking to extract natural resources from celestial 
bodies?
    Answer. Through a ``mission review''. Below is our proposed 
language for a mission review:

  <bullet> (1) Independent of or in conjunction with a payload review, 
        the appropriate agency or agencies shall conduct and grant a 
        mission review of the planned activities related to the payload 
        to affirm that all planned activities are in compliance with 
        United States' obligations under the Treaty on Principles 
        Governing the Activities of States in the Exploration and Use 
        of Outer Space, including the Moon and Other Celestial Bodies.

  <bullet> (2) The President shall, as needed, identify the appropriate 
        agency or agencies to conduct mission reviews of the planned 
        payload activities as specified above. Such agency or agencies 
        shall be authorized to require updates to the mission review if 
        there is a material change in the planned payload activities.

  <bullet> (3) The appropriate agency or agencies shall not review 
        planned payload activities that are otherwise subject to 
        regulation by other Federal agencies.

    Question 4. Commercial space launch providers face a patchwork of 
regulations and regulatory oversight when obtaining launch site permits 
and launch licenses. What challenges do commercial launch providers 
operating on Federal property face? How do these challenges differ from 
those faced when launching from non-Federal sites?
    Answer. I won't get into the weeds about the challenges, but I will 
outline the attributes that characterize a commercially friendly and 
operationally flexible launch range. (1) Regulatory Confidence that 
enables a consistent and efficient regulatory environment; (2) 
Operational Efficiency which enables autonomous safety systems that 
reduce turn times between launches and minimize the range assets 
required to support a mission; (3) Schedule Assurance which minimizes 
schedule impacts caused by other launch operators, unanticipated site 
downtime, and range infrastructure outages associated with mandatory 
use of Federal range assets and; (4) Investment Confidence through 
streamlined real estate processes that allow for long term, exclusive 
use of real property, cost transparency which provides the ability to 
plan/budget/dispute charges for services, and the ability to operate in 
commercial enterprise zones or other tax advantaged areas.

    Question 5. NASA is formulating a mission to capture an asteroid--
or a boulder on an asteroid--and place it in a stable orbit near the 
Moon. This undertaking, along with follow-on missions to study the 
asteroid or boulder, would demonstrate many of the technologies needed 
for a crewed journey to Mars. How could commercial space companies take 
advantage of an asteroid or boulder that has been placed in a stable 
orbit near the Moon?
    Answer. Responding more specifically, having an asteroid or boulder 
parked relatively close to the Earth, in cis-lunar space, could provide 
companies like Planetary Resources a testbed to mature technologies and 
operations necessary for future deep space resource utilization 
missions.
    More generally, commercial space companies can help enable NASA to 
undertake future beyond LEO missions, like studying an asteroid or 
boulder that has been placed in a stable orbit near the Moon. For 
example, NASA has invested billions of dollars for vital next-
generation deep space exploration transportation systems such as SLS 
and Orion; however, as the NASA Inspector General recently pointed out 
in its 2014 Report on NASA's Top Management and Performance Challenges, 
work must begin immediately on habitats, landers, and other systems or 
NASA will ``face significant challenges concerning the long-term 
sustainability of its human exploration program.'' The best, and 
potentially only fiscally viable option to ensure that these new 
systems are developed in parallel with SLS and Orion is to leverage 
private sector investment. NASA's AES program recognizes that private 
sector partnerships create opportunities for utilizing the SLS and 
Orion transportation system to achieve our human exploration goals.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Eric W. Stallmer
    Question 1. Mr. Stallmer, your testimony makes a strong case for 
updating the Commercial Space Launch Act (CSLA). I would like to ask a 
few basic questions about CSLA for the benefit of the hearing record. 
As you know, the CSLA's indemnification protection will expire if 
Congress does not act to either update or extend it. What impact would 
that have on the U.S. commercial space industry?
    Answer. Other nations presently indemnify their launch customers 
against any damages, usually at no cost to the launch company. If the 
U.S. government does not provide indemnification, industry will have to 
try and buy more insurance, and insurance costs may go up because the 
insurance company does not have the government as a backstop. The 
bottom line is the U.S. launch prices will become less competitive in 
the international market, and American jobs and prosperity will suffer.

    Question 2. How would this affect the cost of launches for U.S.-
based companies?
    Answer. Cost likely rise for the reasons outlined above.

    Question 3. Would this make U.S.-based launches less competitive 
than foreign launches?
    Answer. Without Federal indemnification it makes it harder for U.S. 
commercial space launch companies to effectively compete with the 
Chinese, French, and Russian launch companies due to their strong 
domestic indemnification regimes which are much stronger than that of 
the United States.

    Question 4. Mr. Stallmer, New Mexico plans to be a leader in 
suborbital space launch. Commercial spaceflights such as those from 
Spaceport America could dramatically expand access to space for 
researchers and help develop new technologies. Could you expand on the 
comments in your testimony on the role for suborbital spaceflights in 
our Nation's overall space program? How could NASA better support 
suborbital spaceflight through initiatives such as the Flight 
Opportunities Program?
    Answer. CSF has long promoted the many benefits that accrue from 
NASA's Flight Opportunities Program. It enables access to suborbital 
and high-altitude atmospheric research platforms critical to the 
workforce development of our next generation of space scientists and 
engineers--our future Alan Sterns. It enables access to relevant 
environment testing to mature compelling space technologies and 
research at a small fraction of the costs required for orbital 
flights--keeping promising technologies from being shelved. Further, 
many researchers see access to these platforms as a stepping-stone to 
using the ISS; resulting in an increase in commercial usage of LEO, as 
well as maturing technologies needed for future human missions beyond 
LEO.
    NASA could better support suborbital spaceflight by increasing the 
Flight Opportunities program from a $15 million program to a $30 
million a year program. NASA should expand the Flight Opportunities 
program to enable agency wide and government wide access. For example, 
NASA's Science Mission Directorate could fly technology maturation 
flights to reduce programmatic risks to future science missions. In 
addition, NASA's Science Mission Directorate could more effectively 
develop and train their scientific workforce by flying research 
missions through the Flight Opportunities program, as highlighted by 
the National Academy of Sciences. ``Small-scale experiments in 
suborbital research often serve as precursors to larger orbital 
missions and are important for training scientists and engineers to 
work on larger missions and for supporting the research base.''--
National Academy of Sciences, Revitalizing NASA's Suborbital Program, 
2010.

    Question 5. Mr. Stallmer, your written testimony notes that NASA 
can get better value for its procurement dollars through continued use 
of ``Other Transaction Authority'' rather than the traditional Federal 
Acquisition Rules (FAR). I am keenly interested in ways that Congress 
can encourage smarter Federal procurement policies. Last year, I 
partnered with Sen. Moran to help pass the Federal I.T. Acquisition 
Reform Act (``FITARA,'' PL 113-291), which could lead to billions of 
dollars in taxpayer savings through greater use of ``agile'' or 
incremental approaches to procurement. Could you expand on how the 
Commercial Spaceflight Federation thinks NASA can appropriately use 
Other Transaction Authority to get better procurement outcomes?
    Answer. If the private sector can competitively provide a service 
that NASA is looking to acquire, then NASA should use OTAs to do so. 
For example, NASA should utilize OTAs to help acquire capabilities 
required for beyond LEO missions. Private companies like Moon Express, 
Bigelow Aerospace, Masten Space Systems, and Golden Spike are all 
building capabilities to explore and commercially develop the Moon. 
These companies, and others, are interested in the Moon because it 
offers the potential to support near-term opportunities for economic 
growth. To NASA's credit, it has begun exploring public-private 
partnerships for beyond LEO exploration via the Advanced Exploration 
Systems (AES) program, but this should be expanded. Hardware developed 
by AES will serve a critical role in ensuring that NASA can utilize the 
transportation capacities of SLS and Orion to conduct surface missions 
to the Moon and eventually Mars. Including the commercial space 
industry as an early partner in reaching U.S. human exploration goals 
beyond LEO is a logical extensions of the successful COTS and CRS 
partnership model proven in LEO, and can help alleviate budgetary 
constraints and compliment the Agency's investment in its 
transportation systems.

    Question 6. NASA's commercial space program has a successful track 
record of providing launch services using fixed-price development 
agreements and contracts. How can NASA continue to encourage greater 
competition and thus lower costs for launch services without 
compromising safety?
    Answer. To this point, NASA appears to be doing all the right 
things. I would only briefly highlight one possible concern. NASA and 
Congress should avoid prematurely selecting launch vehicles for future 
missions, unless that vehicle is the only one capable of meeting the 
mission's requirements. There should be competition for NASA science 
mission launches amongst U.S. commercial launch providers to ensure the 
best deal for the American taxpayer. Further, NASA owned launch 
vehicles should be fully reimbursed by the appropriate mission 
directorate for their launch cost.

    Question 7. Mr. Stallmer, the Obama Administration is in the 
process of reforming our Nation's export control system. Your testimony 
discusses how smart reforms can not only improve national security, but 
also increase American exports and job growth. Could you expand further 
on how to strike the right balance to ensure that we protect our 
national security while not inappropriately stifling the development of 
the commercial space industry?
    Answer. As noted by the COMSTAC, a cornerstone of the Department of 
Defense's general concern regarding the transition of spacecraft to the 
EAR is the potential inability of the national security community to 
track and grant approvals for EAR-controlled spacecraft. The adoption 
of orbital and suborbital human spaceflight systems' Export Control 
Classification Numbers will require the Department of Commerce to issue 
export licenses for all destinations. Further, piloted, unarmed, 
commercial suborbital spacecraft with thrust levels less than that of a 
SCUD A missile should be transferred to the CCL if such spacecraft have 
received a license or permit from the Office of Commercial Space 
Transportation.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
